No. 19IN THE

Supreme Court of the United States
—————
FEDERAL TRADE COMMISSION,
PETITIONER
v.
CREDIT BUREAU CENTER, LLC AND MICHAEL BROWN
—————
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

—————
PETITION FOR A WRIT OF CERTIORARI
AND APPENDIX

—————
ALDEN F. ABBOTT*
General Counsel
JOEL MARCUS
Deputy General Counsel
for Litigation
MICHAEL BERGMAN
THEODORE (JACK) METZLER
MATTHEW M. HOFFMAN
Attorneys
FEDERAL TRADE COMMISSION
600 Pennsylvania Ave. NW
Washington, D.C. 20580
(202) 326-2505
aabbott@ftc.gov
* Counsel of Record

QUESTION PRESENTED

Under Section 13(b) of the Federal Trade Commission
Act, 15 U.S.C. 53(b), the Commission may sue those who
violate the laws under its purview in federal district court.
The statute authorizes district courts in such cases to issue
“a permanent injunction.” Seven courts of appeals have
held that district courts exercising that authority may
enter an injunction that requires defendants to return to
the victims of their wrongdoing funds obtained through
their illegal activity. One has held the opposite.
The question presented is:
Whether Section 13(b) authorizes district courts to enter an injunction that orders the return of unlawfully obtained funds.

(I)

II
PARTIES TO THE PROCEEDING BELOW

The caption contains the name of all the parties in the
court of appeals.

III
TABLE OF CONTENTS
Page

Opinions Below ...................................................................... 2
Jurisdiction ............................................................................. 2
Statutes Involved................................................................... 2
Statement ............................................................................... 2
Reasons For Granting The Petition ................................. 10
I.

This Case Presents A Square Circuit Split
On An Important And Recurring Issue. ............... 11

II. The Court Of Appeals’ Decision Is Incorrect. ...... 13
III. The Question Presented Merits Plenary
Review And This Case Is The Ideal Vehicle
To Resolve It. ............................................................ 22
Conclusion ............................................................................ 26

APPENDIX TABLE OF CONTENTS

Court of Appeals Opinion
(Aug. 21, 2019) ................................................................ 1a
District Court Opinion
(June 26, 2018) ............................................................. 65a
District Court Judgment
(June 26, 2018) ........................................................... 101a
District Court Final Judgment and Order
(June 26, 2018) ........................................................... 103a
Relevant Statutory Provisions ...................................... 135a

IV
TABLE OF AUTHORITIES
Page

Cases:
California v. American Stores Co.,
495 U.S. 271 (1990) .................................................. 15, 16
FTC v. Amy Travel Serv., Inc.,
875 F.2d 564 (7th Cir. 1989) ...................................... 3, 17
FTC v. Bronson Partners, LLC,
654 F.3d 359 (2d Cir. 2011) ........................................ 4, 11
FTC v. Direct Mktg. Concepts, Inc.,
624 F.3d 1 (1st Cir. 2010) ........................................... 4, 11
FTC v. Freecom Commc’ns, Inc.,
401 F.3d 1192 (10th Cir. 2005) .................................. 4, 12
FTC v. H.N. Singer, Inc.,
668 F.2d 1107 (9th Cir. 1982) .............................. 3, 12, 17
FTC v. Penn State Hershey Med. Ctr.,
838 F.3d 327 (3d Cir. 2016 ............................................... 3
FTC v. Ross, 743 F.3d 886 (4th Cir. 2014) ..................... 4, 12
FTC v. Sec. Rare Coin & Bullion Corp.,
931 F.2d 1312 (8th Cir. 1991) .............................. 3, 12, 17
FTC v. U.S. Oil & Gas Corp.,
748 F.2d 1431 (11th Cir. 1984) ............................ 3, 12, 17
Kansas v. Nebraska,
135 S. Ct. 1042 (2015) .............................................. 19, 20
Kokesh v. SEC, 137 S. Ct. 1635 (2017)................... 11, 23, 24
Lorillard v. Pons, 434 U.S. 575 (1978) .............................. 16
Meghrig v. KFC Western, Inc.,
516 U.S. 479 (1996) .............................................. 8, 18, 19
Miller v. French, 530 U.S. 327 (2000)................................ 20
Mitchell v. Robert DeMario Jewelry, Inc.,
361 U.S. 288 (1960) ...................................... 4, 5, 8, 15, 21

V

NLRB v. Bell Aerospace Co.,
416 U.S. 267 (1974) ........................................................ 20
North Haven Bd. of Educ. v. Bell,
456 U.S. 512 (1982) ........................................................ 17
Osborn v. Bank of the United States,
22 U.S. 738 (1824) .......................................................... 14
Porter v. Warner Holding Co.,
328 U.S. 395 (1946) .................................... 4, 5, 10, 15, 20
SEC v. Chenery Corp.,
332 U.S. 194 (1947) ........................................................ 20
SEC v. Fischbach Corp.,
133 F.3d 170 (2d Cir. 1997) ............................................ 24
SEC v. Manor Nursing,
458 F.2d 1082 (1972)....................................................... 16
SEC v. Texas Gulf Sulphur,
446 F.2d 1301 (1971)....................................................... 16
Texas Dept. of Housing & Community
Affairs v. Inclusive Communities Project, Inc.,
135 S. Ct. 2507 (2015) .................................................... 17
United States v. Lane Labs-USA, Inc.,
427 F.3d 219 (3d Cir. 2005) ...................................... 19, 20
United States v. Oakland Cannabis Buyers’
Co-Op., 532 U.S. 483 (2001) .......................................... 20
United States v. Rx Depot, Inc.,
438 F.3d 1052 (10th Cir. 2006) ...................................... 20

VI

Statutes, Court Rules, Legislative Materials:
Federal Trade Commission Act
15 U.S.C. 45(a) ................................................................. 2
15 U.S.C. 45(b) ........................................................... 2, 20
15 U.S.C. 45(l) ...................................................... 7, 12, 21
15 U.S.C. 53(b) ........................................................... 3, 20
15 U.S.C. 56 ...................................................................... 1
15 U.S.C. 57a .................................................................. 20
15 U.S.C. 57b .................................................................... 8
15 U.S.C. 57b(a) ............................................................. 13
15 U.S.C. 57b(e) ..................................................... 8, 9, 21
28 U.S.C. 2462 ...................................................................... 23
29 U.S.C. 217 .......................................................................... 5
42 U.S.C. 6972(a) ................................................................. 18
7th Cir. R. 40(e) ...................................................................... 7
Pub. L. No. 103-312, § 10 (1994) ........................................ 17
Pub. L. 109-455, § 3 (2006).................................................. 17
S. Rep. No. 93-151 (1973)...................................................... 3
S. Rep. No. 103-130 (1993).................................................. 17
Other Authorities:
Black’s Law Dictionary (10th ed. 2014) ............................ 14
FTC, Semiannual Federal Court Litigation Status
Report (June 30, 2019) .................................................. 13
1 Dan B. Dobbs, Law of Remedies (2d ed. 1993)
§ 1.1 ................................................................................. 15
§ 2.9 .................................................................................. 15
1 Howard C. Joyce, A Treatise on the Law
Relating to Injunctions (1909)
§ 2 .................................................................................... 15
§ 2a ................................................................................... 15

VII

2 Joseph Story, Commentaries on Equity
Jurisprudence: As Administered in
England and America (1836)
§ 861 ................................................................................. 14
§ 862 ................................................................................ 14

IN THE

Supreme Court of the United States
—————

FEDERAL TRADE COMMISSION,
PETITIONER

v.
CREDIT BUREAU CENTER, LLC AND MICHAEL BROWN
—————
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

—————
PETITION FOR A WRIT OF CERTIORARI

The Federal Trade Commission, pursuant to the authority of 15 U.S.C. 56(a)(3)(A), respectfully petitions for a
writ of certiorari to review a judgment of the United States
Court of Appeals for the Seventh Circuit.1
—————

The Commission rarely exercises its authority to represent itself
before this Court, having done so only four times previously since
Congress granted that authority 44 years ago. The Commission takes
this step now not only because the decision of the court of appeals is at
odds with the holdings of seven other circuits and this Court’s precedents, but also because of the extraordinary importance of the issue
presented. The decision of the court of appeals threatens the FTC’s
ability to carry out its mission by eliminating one of its most important
and effective enforcement tools.
1

(1)

2
OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a-63a)
is reported at 937 F.3d 764. The opinion of the district court
(App., infra, 65a-99a) is reported at 325 F. Supp. 3d 852.
JURISDICTION

The judgment of the court of appeals, accompanied by a
denial of rehearing, was entered on August 21, 2019. On
November 8, 2019, Justice Kavanaugh extended the time
within which to file a petition for a writ of certiorari to and
including December 19, 2019. The jurisdiction of this Court
is invoked under 28 U.S.C. 1254(1).
STATUTES INVOLVED

Pertinent provisions of the Federal Trade Commission
Act, 15 U.S.C. 41 et seq., are reproduced in the appendix to
the petition (App., infra, 135a-143a).
STATEMENT

This case presents a square conflict among the circuits,
explicitly acknowledged by the court below, on a recurring
issue of law essential to effective enforcement of the Federal Trade Commission Act.
1. Section 5 of the Federal Trade Commission Act prohibits “unfair methods of competition” and “unfair or deceptive acts or practices” in or affecting commerce, and
“empower[s] and direct[s]” the Federal Trade Commission
to “prevent” such conduct. 15 U.S.C. 45(a). Before 1973,
the Commission generally could enforce these prohibitions
only through administrative proceedings, in which the
Commission’s sole remedy was an order to cease and desist
from the unlawful practices. 15 U.S.C. 45(b).
In 1973, Congress added Section 13(b) to the FTC Act,
giving the Commission new authority to enforce Section 5
directly in federal district courts. Section 13(b) authorizes

3
two distinct types of lawsuits. The bulk of the statute is
devoted to actions for “a temporary restraining order or a
preliminary injunction” in aid of an administrative proceeding. 15 U.S.C. 53(b). For example, when the Commission
reviews the legality of a merger, Section 13(b) authorizes it
to seek a preliminary injunction blocking the merger pending the completion of administrative proceedings. See, e.g.,
FTC v. Penn State Hershey Med. Ctr., 838 F.3d 327, 353354 (3d Cir. 2016).
Section 13(b) also provides that “in proper cases the
Commission may seek, and after proper proof, the court
may issue, a permanent injunction” directly in federal
district court. 15 U.S.C. 53(b). This proviso authorizes the
Commission to file standalone enforcement actions without
also undertaking an administrative proceeding. Congress
added Section 13(b) to give the Commission the ability “to
merely seek a permanent injunction in those situations in
which it does not desire to further expand upon the prohibitions of the Federal Trade Commission Act through the
issuance of a cease-and-desist order,” and it expected that
by allowing such actions “Commission resources will be
better utilized, and cases can be disposed of more efficiently.” S. Rep. No. 93-151, at 31 (1973).
2. Until the decision in this case, the courts of appeals
(including the Seventh Circuit) had uniformly held for
more than 35 years that a district court’s authority to grant
a permanent injunction under Section 13(b) includes the
authority to require wrongdoers to return money that they
illegally obtained.2 Those decisions follow from this Court’s
See FTC v. H.N. Singer, Inc., 668 F.2d 1107 (9th Cir. 1982); FTC v.
U.S. Oil & Gas Corp., 748 F.2d 1431, 1432, 1434 (11th Cir. 1984); FTC v.
Amy Travel Serv., Inc., 875 F.2d 564, 571-572 (7th Cir. 1989); FTC v.
Sec. Rare Coin & Bullion Corp., 931 F.2d 1312, 1314-1315 (8th Cir.
2

4
decisions in Porter v. Warner Holding Co., 328 U.S. 395
(1946), and Mitchell v. Robert DeMario Jewelry, Inc., 361
U.S. 288 (1960), holding that a district court exercising
authority to enjoin violations of a regulatory statute may
order violators to return their unlawful gains absent a clear
congressional directive to the contrary.
Porter addressed a federal rent control statute that authorized the government to sue for a “permanent or temporary injunction, restraining order, or other order” to
enforce the statute. 328 U.S. at 397. The Court held that
the district court’s remedial authority under the statute
was not limited to prohibiting future violations; it also
included the authority to order the refund of unlawfully
collected rents. Ibid.
The Court explained that by authorizing an injunction,
the statute invoked the district court’s equitable jurisdiction, which made “all the inherent equitable powers of the
District Court . . . available for the proper and complete
exercise of that jurisdiction.” Id. at 398. Those powers
“assume an even broader and more flexible character”
where the statute protects the public interest, and may be
limited only by “a clear and valid legislative command,”
expressed “in so many words, or by a necessary and inescapable inference.” Ibid.
Applying those principles, the Court found it “readily
apparent” that the district court could enter an injunction
that required the return of illegally collected rents. Ibid.
“Nothing is more clearly a part of the subject matter of a
suit for an injunction than the recovery of that which has
1991); FTC v. Freecom Commc’ns, Inc., 401 F.3d 1192, 1202 n.6 (10th
Cir. 2005); FTC v. Direct Mktg. Concepts, Inc., 624 F.3d 1, 15 (1st Cir.
2010); FTC v. Bronson Partners, LLC, 654 F.3d 359, 365 (2d Cir. 2011);
FTC v. Ross, 743 F.3d 886, 890-892 (4th Cir. 2014).

5
been illegally acquired and which has given rise to the
necessity for injunctive relief.” Id. at 399.
In Mitchell, the Court applied the same principles to
uphold a monetary judgment entered under a provision of
the Fair Labor Standards Act that empowered district
courts to “restrain” violations. See 29 U.S.C. 217. The
Court explained that “[w]hen Congress entrusts to an
equity court the enforcement of prohibitions contained in a
regulatory enactment, it must be taken to have acted cognizant of the historic power of equity to provide complete
relief in light of the statutory purposes.” Mitchell, 361 U.S.
at 291-292. The Court found it insignificant that the labor
statute did not include the additional phrase “other order,”
as the rent-control statute in Porter did. That clause was
not necessary to the monetary judgment, but simply provided “confirmation” of the district court’s authority to
order the payment of wages lost as a result of the violation.
Id. at 296.
3. The Commission depends heavily on Section 13(b) in
carrying out its mandate to protect consumers and competition. It brings dozens of cases every year seeking a permanent injunction and the return of illegally obtained
funds. As a result of Section 13(b) cases, the Commission
has returned billions of dollars to consumers who have
fallen victim to a wide variety of illegal scams. In some
cases, courts order defendants to return money directly to
consumers. Other times, the court orders money to be paid
to the Commission itself, which then attempts to distribute
recovered funds to injured consumers. Agency records
show that from 2016 to 2019, the Commission returned
approximately $977 million directly to consumers in Sec-

6
tion 13(b) cases. Billions more were returned to consumers
directly from defendants.3
4. This case arises out of a scam perpetrated by respondents Michael Brown and his company, Credit Bureau
Center, LLC. Respondents offered consumers a “free”
credit report, but those who accepted were unwittingly
enrolled in a credit-monitoring service for $30 per month.
Respondents drove consumers to their websites through an
affiliate that posted bogus ads for rental apartments on
Craigslist. The ads and subsequent emails falsely offered
desirable properties at attractive prices and instructed
applicants to obtain a credit report from respondents.
Duped consumers submitted more than 500 complaints to
the FTC, other law enforcement agencies, and the Better
Business Bureau, and suffered over $6 million in losses.
The Commission sued under Section 13(b), seeking to
halt continuing violations and return the unlawful gains to
consumers. The district court awarded summary judgment
to the Commission. It entered a permanent injunction
barring future violations of the FTC Act and requiring
respondents to repay $5.2 million, the net amount they
took from consumers after deducting amounts recovered
from settling codefendants. App., infra, 103a-134a.
The district court directed that those sums be used to
compensate injured consumers as “restitution.” App.,
infra, 88a-89a. The judgment specifies that the money
“may be deposited into a fund administered by the Commission or its designee to be used for equitable relief, including consumer redress and any attendant expenses for
When it is not possible to identify victims, or distribution costs
would exceed the available funds, the FTC remits money to the Treasury. In the 2016-2019 period, that happened with about $15 million, a
small fraction of the funds recovered under Section 13(b).
3

7
the administration of any redress fund.” Id. at 127a. If
“direct redress to consumers is wholly or partially impracticable or money remains after redress is completed,” the
Commission may seek court approval to apply any remaining money to “other equitable relief ” reasonably related to
Brown’s unlawful practices. Ibid. Only if funds remain
after that may they “be deposited to the U.S. Treasury.”
Ibid.
5.a. On appeal, the Seventh Circuit affirmed the finding
of liability but reversed the monetary judgment. The court
overruled its longstanding precedent to hold that Section
13(b) does not authorize monetary relief. The court acted
pursuant to a circuit rule permitting a panel to overrule
circuit precedent or create a circuit split so long as a majority of the active judges does not vote for rehearing en
banc. See 7th Cir. R. 40(e). The court acknowledged that its
decision created a split with the seven other courts of appeals that have held that Section 13(b) authorizes monetary relief. App., infra, 3a n.1, 39a.
Examining Section 13(b)’s authorization to enter “a
permanent injunction,” the court thought it “obvious” that
“[r]estitution isn’t an injunction.” App., infra, 12a. The
court described an injunction as a “forward-facing” remedy
and restitution as “a remedy for past actions.” Id. at 14a. It
contrasted the language of Section 13(b) with two other
provisions of the FTC Act, Sections 5(l) and 19, which it
characterized as “backward-facing methods to obtain monetary relief for past injury.” Id. at 17a.
Section 5(l) authorizes the Commission to seek civil
penalties against parties that violate an administrative
cease-and-desist order and permits courts in such cases to
award “mandatory injunctions and such other and further
equitable relief as they deem appropriate.” 15 U.S.C. 45(l).

8
Section 19 authorizes courts to order relief “necessary to
redress injury” against persons who (1) violate a Commission rule; or (2) have been ordered to cease and desist from
illegal practices in an administrative proceeding. 15 U.S.C.
57b. Although Section 19 specifies that its remedies are “in
addition to, and not in lieu of, any other remedy or right of
action” available to the Commission, 15 U.S.C. 57b(e), the
court did not believe that the savings clause prevented it
from relying on Section 19’s remedies to find that monetary relief is unavailable under Section 13(b). In the court’s
view, such relief would “effectively nullif[y]” Section 19, and
it thus declined to read the savings clause to authorize
what it described as “that self-defeating effect.” App.,
infra, 19a.
The court next considered the holdings in Porter and
Mitchell that Congress authorizes monetary remedies
when it empowers district courts in enforcement lawsuits
to issue an “injunction” or to “restrain” violations. App.,
infra, 20a-23a, 29a-33a. It concluded that those decisions
were no longer binding because they had been undermined
by this Court’s later decision in Meghrig v. KFC Western,
Inc., 516 U.S. 479 (1996). Meghrig held that the citizen-suit
provisions of the Resource Conservation and Recovery Act
(RCRA) did not allow a private party to recover costs incurred to clean up previously contaminated land. The court
read Meghrig as having adopted a “more limited understanding of judicially implied remedies” than the one espoused in Porter and Mitchell. App., infra, 31a. In particular, whereas Mitchell instructed courts to “provide complete relief in light of the statutory purposes,” 361 U.S. at
292, after Meghrig, the court of appeals believed that “an
exploration of statutory purpose is no longer the Supreme
Court’s polestar in cases raising interpretive questions

9
about the scope of statutory remedies.” App., infra, 32a.
The court viewed this case as “materially indistinguishable” from Meghrig. Id. at 38a.
b. Chief Judge Wood, joined by Judges Rovner and
Hamilton, dissented from the denial of rehearing en banc.
App., infra, 41a-63a. They disagreed with the panel’s conclusion that Congress’s use of the term “injunction” necessarily excludes an order of restitution. Rather, they opined,
injunctions “come in all shapes and sizes” and may require
a party to undertake affirmative acts, including “an order
requiring the enjoined party to return ill-gotten gains, or
to pay money into a court escrow account, or otherwise to
turn over property.” Id. at 42a, 43a.
The dissent argued that the multiple enforcement
mechanisms provided in the FTC Act do not preclude
reading Section 13(b) to authorize monetary relief. Rather,
agencies have “broad discretion in their choice of which of
several authorized procedural tools they wish to use as
they carry out their mission.” App., infra, 45a. The dissent
found that Section 19’s savings clause (15 U.S.C. 57b(e))
“says it all: the non-exhaustive examples of relief Congress
chose to mention in one section do not limit what a court
may or may not include pursuant to another section—for
instance, a 13(b) injunction.” App., infra, 62a. Similarly, the
“other and further equitable relief ” clause in Section 5(l)
simply “clarifies that courts have a wide range of equitable
relief available to them” to enforce a cease-and-desist order in addition to the limited mandatory injunction. Ibid.
The dissent disagreed with the panel’s analysis of Meghrig. App., infra, 52a-55a. It noted that Meghrig involved
private plaintiffs suing under a very different statutory
scheme, and that even in that context Meghrig “did not
purport categorically to exclude from injunctive relief an

10
order to make payments.” Id. at 54a. The dissent concluded
that “[t]he majority’s interpretation upends what the agency and Congress have understood to be the status quo for
thirty years, and in so doing grants a needless measure of
impunity to brazen scammers like the defendant in this
case.” Id. at 62-63a.
REASONS FOR GRANTING THE PETITION

The court of appeals’ decision creates a square circuit
split on an important and recurring question: whether, in a
suit brought under Section 13(b), a district court may order
a defendant to both cease its illegal practices and return
the money it gained as a result of those practices. The
resolution of that question is critically important to the
Commission’s ability to carry out its consumer protection
and antitrust enforcement missions. The court of appeals’
decision neuters Section 13(b) within the Seventh Circuit
and makes the remedies available to the Commission depend on the happenstance of geography.
The court of appeals’ analysis of Section 13(b) is incorrect. The court’s cramped view that injunctions are strictly
limited to prohibitions on future misconduct contradicts
historical understanding of that remedy. Courts and commentators have understood since the founding era that
injunctions may serve reparative purposes and may include an order requiring the defendant to yield up wrongfully acquired property. That principle informs the controlling decisions in Porter and Mitchell that a statute permitting an injunction invokes “all the inherent equitable powers of the District Court,” including the power to award
monetary relief. Porter, 328 U.S. at 398. Porter and Mitchell were the law of the land when Congress added Section
13(b) to the FTC Act, and they remain good law after Me-

11
ghrig, which involved private litigation under a statute very
different from Section 13(b).
The Court should grant this petition notwithstanding
the grant of certiorari in Liu v. SEC, No. 18-1501, which
involves whether disgorgement under the securities laws is
an equitable remedy in light of this Court’s decision in
Kokesh v. SEC, 137 S. Ct. 1635 (2017), that such orders are
penal in nature. The answer to that question will not resolve whether Section 13(b) authorizes district courts entering a permanent injunction against illegal conduct to
order that money taken by that conduct be returned to
consumers. The question here is distinct from the question
in Liu, will not be resolved in that case, and warrants independent review.
I. THIS CASE PRESENTS A SQUARE CIRCUIT SPLIT ON AN
IMPORTANT AND RECURRING ISSUE.

The decision of the court of appeals has unsettled the
longstanding and uniform judicial interpretation that Section 13(b) authorizes district courts to enter injunctions
requiring the return of illegally obtained funds. The court
of appeals acknowledged that it was creating a circuit split
when it held “that section 13(b)’s permanent-injunction
provision does not authorize monetary relief.” App., infra,
40a. Every other court of appeals that has decided that
issue has held the opposite.
Specifically, the First, Second, Fourth, Eighth, Ninth,
Tenth, and Eleventh Circuits have all held that Section
13(b) authorizes district courts to enter injunctions that
include monetary relief. See FTC v. Direct Mktg. Concepts,
Inc., 624 F.3d 1, 15 (1st Cir. 2010); FTC v. Bronson Partners, LLC, 654 F.3d 359, 367 (2d Cir. 2011) (“In sum, Section 13(b) of the FTC Act permits courts to award not only
injunctive relief but also ancillary relief, including mone-

12
tary relief.”); FTC v. Ross, 743 F.3d 886, 890-892 (4th Cir.
2014) (“[B]ecause there is no affirmative and clear legislative restriction on the equitable powers of the district
court, ordering monetary consumer redress is an appropriate ‘equitable adjunct’ to the district court’s injunctive
power.”); FTC v. Sec. Rare Coin & Bullion Corp., 931 F.2d
1312, 1314-1315 (8th Cir. 1991); FTC v. H.N. Singer, Inc.,
668 F.2d 1107 (9th Cir. 1982); FTC v. Freecom Commc’ns,
Inc., 401 F.3d 1192, 1202 n.6 (10th Cir. 2005) (“[Section]
13(b)’s grant of authority to provide injunctive relief carries with it the full range of equitable remedies, including
the power to grant consumer redress.”); FTC v. U.S. Oil &
Gas Corp., 748 F.2d 1431, 1432, 1434 (11th Cir. 1984). Unlike the decision below, those courts have continually applied this Court’s decisions in Porter and Mitchell to uphold that authority.
The issue is critically important: the ability to seek an
injunction that requires the defendant to return illegally
obtained funds to consumers is essential to the effective
enforcement of the FTC Act and other laws enforced by
the Commission. Stripping district courts of that authority
would reduce Section 13(b) to a stop sign and would effectively reward fraudsters for their illegal conduct.
Contrary to the court of appeals’ view, neither Section
5(l) nor Section 19 of the FTC Act is an adequate alternative to requiring the return of unlawful gains under Section
13(b). Section 5(l) allows civil penalties, but only against
parties who have already been ordered by the Commission
to cease and desist in an administrative enforcement proceeding and who then violate that order. See 15 U.S.C.
45(l). It does not allow courts to order the return of gains
from the original misconduct that led to the cease-anddesist order. Section 19 is also of limited utility. Although it

13
authorizes district courts to redress harm to consumers
from violations of FTC rules, 15 U.S.C. 57b(a)(1), many
cases do not involve rule violations. Section 19 also allows
district courts to redress consumer harm in certain cases
against defendants who have gone through the administrative process and been ordered to cease and desist from
unfair or deceptive acts or practices. 15 U.S.C. 57b(a)(2).
That remedy would be illusory in most of the cases that the
Commission brings under Section 13(b) because defendants would dissipate their ill-gotten gains long before the
Commission ever got to court. In suits under Section 13(b),
the district court may freeze assets at the outset of litigation, but Section 19 does not provide similar protection.
The issue is also recurring. The FTC brings dozens of
cases each year seeking injunctions that return funds to
consumers under Section 13(b). As of mid-2019, 55 such
cases were pending in district courts.4 The question presented here is integral to all of them. Three pending appellate cases raise the same issue, as do two currently pending
petitions seeking certiorari in this Court. See FTC v. Hoyal
& Assocs., No. 19-35668 (9th Cir.); FTC v. Abbvie, Inc., No.
18-2621 (3d Cir.); FTC v. Dorfman, No. 19-11932 (11th Cir.);
cert. petitions in Publishers Bus. Serv., Inc. v. FTC, No. 19507 & AMG Capital Mgmt., LLC v. FTC, No. 19-508.
II. THE COURT OF APPEALS’ DECISION IS INCORRECT.

1. The court of appeals’ decision rests on the proposition that “injunction” plainly refers only to forward-looking
relief and necessarily excludes an order to return money
See generally FTC, Semiannual Federal Court Litigation Status
Report, June 30, 2019, https://www.ftc.gov/system/files/attachments/
quarterly-litigation-status-report/semiannual_litigation_report_6-3019.pdf.
4

14
improperly obtained in the past. It is “obvious,” the court
held, that “[r]estitution isn’t an injunction.” App., infra,
12a. That narrow reading of “injunction” was error.
Contrary to the court of appeals’ reading, it has long
been understood that an injunction can provide for restitution or other forms of monetary relief to undo harm caused
by the defendant’s conduct. The leading legal dictionary
defines “injunction” as “[a] court order commanding or
preventing an action” and notes that the term encompasses
a “reparative injunction” which “requir[es] the defendant
to restore the plaintiff to the position that the plaintiff
occupied before the defendant committed a wrong.”
Black’s Law Dictionary 904-905 (10th ed. 2014). Indeed,
the understanding that injunctions may both prohibit future misconduct and remedy past harm by requiring the
restoration of wrongfully obtained property dates at least
to the earliest days of the Republic. Justice Story, for example, explained that although injunctions are “generally
preventative and protective, rather than restorative,” they
are “by no means confined to the former,” and “may contain a direction to the party defendant to yield up . . . lands
or other property, constituting the subject-matter of the
decree, in favor of the other party.” 2 Joseph Story, Commentaries on Equity Jurisprudence, as Administered in
England and America §§ 861-862, at 154-155 (1836). Applying that principle in Osborn v. Bank of the United
States, 22 U.S. 738 (1824), the Court affirmed an injunction
that forbade enforcement of a state tax law against the
Bank and directed the state to return money improperly
seized from the Bank under that law. Id. at 870-871.
An early-20th-century commentator similarly explained
that injunctions may “in some cases be used to reinstate
the rights of persons to property of which they have been

15
deprived,” and that “a preventative and a mandatory injunction” can be “made to co-operate so that by a single
exercise of equitable power an injury is both restrained
and repaired.” 1 Howard C. Joyce, A Treatise on the Law
Relating to Injunctions §§ 2, at 5; 2a, at 7 (1909). In the
modern era, the leading scholar on remedies, Professor
Dobbs, agrees that an injunction “may attempt to prevent
harm, or to compel some form of reparation for harm already done,” and that “some injunctive orders both repair
and prevent harm.” 1 Dan B. Dobbs, Law of Remedies
§§ 1.1, at 7; 2.9, at 225 (2d ed. 1993). Professor Dobbs specifically notes that an injunction may compel restitution.
Id. § 1.1, at 7.
Porter and Mitchell rest on the same principles. As the
Court explained, “[n]othing is more clearly a part of the
subject matter of a suit for an injunction than the recovery
of that which has been illegally acquired and which has
given rise to the necessity for injunctive relief.” Porter, 395
U.S. at 399. It therefore requires an affirmative expression
of Congress “in so many words, or by a necessary and
inescapable inference,” to exclude that authority when
Congress has authorized an injunction. Id. at 398; Mitchell,
361 U.S. at 291. As further discussed below, those principles were well established when Congress granted district
courts the authority to enter “a permanent injunction” in
Section 13(b), but Congress did not place any limit on the
grant of authority. The court of appeals, on the other hand,
disregarded the established understanding by reading
“injunction” to exclude monetary remedies.
This Court has continued to recognize the broad nature
of injunctions in cases decided after Porter and Mitchell. In
California v. American Stores Co., 495 U.S. 271 (1990), for
example, the Court held that an order requiring divestiture

16
of unlawfully acquired assets is a form of “injunctive relief ”
under the Clayton Act. The Court explained that “[o]n its
face,” a statute authorizing “injunctive relief ” was broad
enough to encompass an order requiring a company to
divest itself of illegally acquired assets. Id. at 281. The
statute stated “no restrictions or exceptions to the forms of
injunctive relief ” that could be awarded, but instead expressed “Congress’ intention that traditional principles of
equity govern the grant of injunctive relief.” Ibid. The
“plain text” of the statute therefore authorized divestiture.
Id. at 282. As the dissent in this case correctly observed,
“[a]n order of divestiture is almost identical to an order
requiring equitable restitution: both require the wrongdoer
to turn over property that was unlawfully obtained.” App.,
infra, 44a. The court of appeals’ decision, by contrast,
cannot be squared with American Stores.
2. When Congress passes a law, it is presumed to understand how courts have interpreted existing laws using
the same or similar language. See Lorillard v. Pons, 434
U.S. 575, 580-581 (1978). By the time Congress adopted
Section 13(b) in 1973, this Court’s decisions in Porter and
Mitchell were settled law. In addition, the Second Circuit
had recently held that the authority to enter a “permanent
or temporary injunction” in the securities laws authorized
district courts to order the return of ill-gotten gains. See
SEC v. Texas Gulf Sulphur, 446 F.2d 1301, 1307-1308
(1971); SEC v. Manor Nursing, 458 F.2d 1082, 1103-1105
(1972). Congress would have understood that a statute
empowering district courts to enter “a permanent injunction” in Section 13(b) would be interpreted the same way.
Further, when Congress amends a statute but chooses
not to alter an existing statutory interpretation “then presumably the legislative intent has been correctly dis-

17
cerned.” North Haven Bd. of Educ. v. Bell, 456 U.S. 512,
535 (1982). In 1994, Congress undertook a thorough review
of the FTC Act in connection with a reauthorization of the
Commission. By then, multiple courts of appeals had recognized that Section 13(b) authorizes orders to return illgotten gains to consumers.5 Congress amended Section
13(b) to expand its venue provisions and authorize nationwide service of process, but did not alter the permanent
injunction clause. See Pub. L. No. 103-312, § 10 (1994).
That is “convincing support for the conclusion that Congress accepted and ratified the unanimous holdings of the
Courts of Appeals.” Texas Dept. of Housing & Community
Affairs v. Inclusive Communities Project, Inc., 135 S. Ct.
2507, 2520 (2015). Indeed, the relevant Senate Report
notes that Section 13(b) “authorizes the FTC to file suit to
enjoin any violation of the FTC [Act]” and “obtain consumer redress,” and explained that the expansion of venue and
service of process provisions were intended to “assist the
FTC in its overall efforts.” S. Rep. No. 103-130, at 15-16
(1993).
By 2006, when still more courts of appeals had recognized that Section 13(b)’s authority encompasses monetary
relief, Congress amended Section 5 to give the FTC authority over aspects of foreign commerce and stated in the
statute that the new authority would include “[a]ll remedies available to the Commission . . . including restitution
to domestic or foreign victims.” Pub. L. 109-455, § 3 (2006)
(codified at 15 U.S.C. 45(a)(4)). By then, courts had ordered
such relief under Section 13(b) hundreds of times, as Congress would have been well aware.
See H.N. Singer, 668 F.2d at 1112-1113; U.S. Oil & Gas, 748 F.2d at
1432, 1434; Amy Travel Serv., 875 F.2d at 571-72; Sec. Rare Coin, 931
F.2d at 1314-15.
5

18
In the decision below, however, the court of appeals
summarily rejected those strong indications of legislative
intent, thereby overriding the principles of statutory interpretation the Court has repeatedly set out. App., infra,
19a-20a. That was error.
3. The court of appeals further erred in its conclusion
that this Court’s decision in Meghrig undermined Porter
and Mitchell and that an order returning ill-gotten gains to
consumers under Section 13(b) is “materially indistinguishable” from the relief sought in Meghrig. App., infra,
32a-33a, 38a.
Meghrig involved a lawsuit filed by a private landowner
against a prior owner to recover the costs of environmental
cleanup under a provision of RCRA that permits such a
suit where contamination presents “an imminent and substantial endangerment to health or the environment.” 42
U.S.C. 6972(a)(1)(B). In such cases, the statute authorizes
courts to “restrain” persons who contributed to pollution or
order them to “take such other action as may be necessary.” Meghrig, 516 U.S. at 484 (quoting 42 U.S.C. 6972(a)).
When the case was filed, the landowner had already
cleaned up the land, and the environmental contamination
therefore presented no danger. The Court held that on
those facts the statute “does not contemplate the award of
past cleanup costs,” and that once the land had been remediated, the statute “quite clearly excludes waste that no
longer presents such a danger.” Id. at 485-486, 488.
Meghrig does not undermine Porter and Mitchell or
control this case for several reasons. First, unlike statutes
that authorize permanent injunctions without qualification
(like Section 13(b) and those at issue in Porter and Mitchell), RCRA limits a court’s remedial authority to cases of
imminent and substantial danger. The lawsuit in Meghrig

19
failed that statutory condition for suit because the land had
already been decontaminated; the plaintiff sought “a remedy that compensates for past cleanup efforts.” Id. at 486.
No similar situation existed in Porter and Mitchell or in
this case, where the illegal scheme was ongoing at the time
of suit. Indeed, Meghrig expressly declined to address
whether “a private party could seek to obtain an injunction
requiring another party to pay cleanup costs which arise
after a RCRA citizen suit has been properly commenced.”
Id. at 488. As the dissent in this case correctly noted, Meghrig “did not purport categorically to exclude from injunctive relief an order to make payments.” App., infra, 54a.
Second, Meghrig involved a private plaintiff, not (as in
Porter and Mitchell, and here) a government enforcement
action. As the Third Circuit noted in rejecting the claim
that Meghrig limits remedies in government enforcement
cases, the money sought by the plaintiff “resembles traditional damages far more than . . . restitution.” United
States v. Lane Labs-USA, Inc., 427 F.3d 219, 231 (3d Cir.
2005).
Third, RCRA’s citizen-suit injunctive provision is integrally tied into “the extensive remedial scheme” that might
have been disrupted by allowing monetary relief for already-remediated land. Id. at 231-232. That was not the
case in Porter or Mitchell.
Finally, nothing in Meghrig purports to undermine the
principles established in Porter. Although the Court did not
accept a government argument that relied partly on Porter,
see Meghrig, 516 U.S. at 487, it did not suggest that it was
overruling or limiting the earlier decision. And since Meghrig was decided, the Court has relied upon Porter without qualification multiple times. In particular, in Kansas v.
Nebraska, 135 S. Ct. 1042 (2015), the Court relied on Porter

20
in support of its authority to impose a monetary remedy
under its equitable authority to apportion interstate water
rights. Id. at 1052-1053, 1057. The Court noted that
“[w]hen federal law is at issue and ‘the public interest is
involved,’ a federal court’s ‘equitable powers assume an
even broader and more flexible character than when only a
private controversy is at stake.’” Id. at 1053 (quoting Porter, 328 U.S. at 398); see also United States v. Oakland
Cannabis Buyers’ Co-Op., 532 U.S. 483, 496-497 (2001);
Miller v. French, 530 U.S. 327, 340 (2000).
In light of these factors, other courts of appeals have
correctly held that “Meghrig did not overrule or limit
Porter and Mitchell.” United States v. Rx Depot, Inc., 438
F.3d 1052, 1057 n.3 (10th Cir. 2006); accord Lane Labs, 427
F.3d at 232 (finding no “indication, either in Meghrig or
since, that the Court has abandoned the holdings of Porter
and Mitchell”). In this case, the court of appeals erred by
relying on Meghrig rather than the directly controlling
authorities of Porter and Mitchell.
4. The court of appeals further erred in its conclusion
that the remedies created by two other enforcement provisions of the FTC Act mean that injunctions under Section
13(b) cannot order defendants to return money they took
from consumers. App., infra, 15a-16a.
The FTC Act gives the Commission multiple ways to
enforce the laws under its authority: by rulemaking,
through the administrative cease-and-desist process, and
through direct enforcement actions in federal court. See 15
U.S.C. 57a (rulemaking); 45(b) (administrative enforcement); 53(b) (direct action). The choice between those
enforcement mechanisms lies “in the informed discretion of
the administrative agency.” SEC v. Chenery Corp., 332 U.S.
194, 203 (1947); see also NLRB v. Bell Aerospace Co., 416

21
U.S. 267, 294 (1974). The court of appeals misapplied that
principle by effectively ruling that when Congress allows a
type of relief under one statutory enforcement mechanism,
it necessarily withholds such relief from other mechanisms.
Section 5(l) of the Act, 15 U.S.C. 45(l), serves the sole
purpose of supplementing the Commission’s administrative
enforcement authority. It allows the Commission to sue for
relief only against violators of a cease-and-desist order
entered through the administrative process and provides
remedies tailored for such violations, including civil penalties, “mandatory injunctions,” and “other and further equitable relief.” Ibid. The court of appeals erred in holding
that without similar clauses Section 13(b) cannot support
an order returning money to consumers. App., infra, 15a16a. That is the very approach this Court rejected in
Mitchell when it held that a statute authorizing an injunction need not also provide for “other order[s]” to justify
monetary relief. 361 U.S. at 296.
The court of appeals was likewise wrong to hold that
the monetary relief authorized by Section 19 limits the
scope of Section 13(b). Congress stated expressly that the
“[r]emedies provided” in Section 19 “are in addition to, and
not in lieu of, any other remedy or right of action provided
by State or Federal law. Nothing in [Section 19] shall be
construed to affect any authority of the Commission under
any other provision of law.” 15 U.S.C. 57b(e). Given that
savings clause, Section 19 cannot properly be read to limit
the remedies available under Section 13(b).
Nor does reading Section 13(b) to authorize monetary
remedies render the procedural requirements to obtain
monetary relief under Section 19 (as described by the court
of appeals, App., infra, 16a-17a) “largely pointless.” App.,
infra, 17a. To the contrary, the two sections support the

22
Commission’s prerogative to choose among the enforcement tools Congress has provided by balancing power
between the courts and the Commission depending on
which route the agency takes. When the Commission opts
for direct action under Section 13(b) to end illegal practices
and return money to consumers, it cedes to the court the
determination whether there has been a violation. By contrast, if the Commission chooses to proceed under Section
19, it retains plenary authority to determine that a particular practice should be prohibited (through rulemaking) or
that particular conduct is illegal (through the administrative process), but in exchange for having to satisfy the
procedural requirements of Section 19 before seeking
judicial redress. The court of appeals’ decision upends that
balanced remedial scheme by crippling Section 13(b) and
requiring the Commission to obtain consumer redress only
via Section 19. That was error.
III. THE QUESTION PRESENTED MERITS PLENARY REVIEW
AND THIS CASE IS THE IDEAL VEHICLE TO RESOLVE IT.

The question presented here is also presented by the
petitions in No. 19-508, AMG Capital Management v. FTC,
and No. 19-507, Publishers Business Services v. FTC. In
his response to the AMG petition, the Solicitor General
acknowledges that the circuit split would “ordinarily warrant this Court’s review,” but recommends that the Court
hold that petition based on a perceived “overlap” between
the issue here and the question presented in No. 18-1501,
Liu v. SEC (petition granted Nov. 1, 2019).6 The Court
should not hold this petition but grant it and hold AMG
The Solicitor General’s brief in opposition in No. 19-507, Publishers
Business Services, Inc. v. FTC, recommends that the petition be
denied or in the alternative held for Liu.
6

23
pending resolution of this case. The question presented
here is ripe for review, distinct from Liu, and unlikely to be
answered by the Court’s disposition of that case. At the
same time, the circuit split has a continuing adverse effect
on the Commission’s ability to protect consumers, and this
case presents an ideal vehicle to resolve it.
1. The question presented in Liu is: “Whether the Securities and Exchange Commission may seek and obtain
disgorgement from a court as ‘equitable relief ’ for a securities law violation even though this Court has determined
that such disgorgement is a penalty.” That question follows
from the Court’s recent decision that “SEC disgorgement
constitutes a penalty” within the meaning of the 5-year
statute of limitations for civil penalties, 28 U.S.C. 2462.
Kokesh v. SEC, 137 S. Ct. 1635, 1638 (2017). Whether SEC
disgorgement is properly considered an “equitable” remedy in light Kokesh will not resolve the question here, namely, whether the authority in Section 13(b) of the FTC Act to
enter a “permanent injunction” authorizes an order to
return to consumers money illegally taken from them.
Indeed, the petitioners’ merits brief in Liu demonstrates that the issues presented there will not determine
the outcome here. The brief ’s argument focuses on (1) the
SEC’s statutory authority to obtain “disgorgement”; (2)
the Court’s decision in Kokesh that SEC disgorgement is
penal; (3) whether penal remedies are within the traditional scope of equity; and (4) the effect of holding in Liu’s
favor. Liu Pet. Br. 15-19 & 35-40, 19-26, 26-33, 40-43. To
make the case that SEC disgorgement orders are penal
and not “equitable,” the brief takes pains to distinguish
disgorgement orders that do not return money to victims
from orders that provide restitution to injured parties. Id.
at 6, 25, 30-31, 34 & n.16.

24
Unlike the SEC disgorgement orders at issue in Liu,
neither this Court nor any other has held that orders including monetary relief under the FTC Act are punitive.
Indeed, the judgments in Liu and this case starkly illustrate the differences between SEC disgorgement and the
relief awarded under Section 13(b). The court in Liu ordered $26.7 million in disgorgement and did not require
that the SEC use the money to compensate injured investors.7 Liu Pet. App. 62a. Here, by contrast, the judgment
directs that the monetary relief be used for “consumer
redress and any attendant expenses for the administration
of any redress fund.”8 Such compensatory orders are typical in Section 13(b) cases; as discussed above, virtually all
of the money the FTC recovers is repaid to injured consumers.
Thus, no matter how the Court resolves its holding in
Kokesh that SEC disgorgement is a penalty with the contention that relief under the securities laws must be “equitable,” the decision in Liu will not answer whether Section
13(b) authorizes district courts to order monetary relief for
compensatory purposes.
2. That question has been definitively answered in eight
circuits, with only the decision below diverging from the
others.9 It is ripe for review now. The issue has been thorThat approach appears typical of SEC disgorgement cases. In
Kokesh, this Court observed that “in many cases, SEC disgorgement is
not compensatory” and that courts have required disgorgement “regardless of whether the disgorged funds will be paid to such investors
as restitution.” 137 S. Ct. at 1644 (quoting SEC v. Fischbach Corp., 133
F.3d 170, 176 (2d Cir. 1997)).
8
The order provides for disgorgement to the Treasury only as a last
resort. App., infra, 127a.
9
The question is pending in one court with no binding precedent on
the issue, see FTC v. Abbvie Inc., No. 18-2621 (3d Cir.).
7

25
oughly examined in multiple decisions in the courts of
appeals for more than 30 years and is unlikely to benefit
from further percolation. Because it will not be answered
in Liu, holding this petition would serve no purpose other
than delay while a serious impediment to Commission
enforcement persists.
Until the split is resolved, the FTC Act will mean one
thing in the Seventh Circuit and something different in
seven other circuits. In the Seventh Circuit, unlike the
others, Section 13(b) will be useless to return money taken
from consumers by scam artists like respondents. The
circuit split will also cause unnecessary and timeconsuming litigation over forum: defendants have already
sought to force enforcement cases against them into courts
in the Seventh Circuit. The upshot is Commission resources spent on procedural fencing rather than enforcement action. Given the consequences to Commission enforcement and to the consumers it seeks to protect, the
Court should not delay resolution of the issue, but should
grant the petition in this case.
If—following Liu—the Court were simply to remand
this case (and AMG), the split and its consequences to
consumers would likely persist for years with little prospect of righting itself.
3. This case is an ideal vehicle to resolve the circuit
split. The issue was squarely presented and dispositive in
the court of appeals and there are no procedural or other
impediments to its resolution in this Court. The same is not
true in the other pending petitions. In Publishers Business
Services, the petitioners waived the issue by failing to raise
it properly below. See Brief in Opp’n, No. 19-507, at 4.
Although the petition in AMG would otherwise present an
appropriate vehicle, the Solicitor General’s view that the

26
case be held pending Liu makes this case the most suitable
candidate for review. The best course would be to grant the
Commission’s petition and hold AMG pending its resolution.
CONCLUSION

The petition should be granted.
Respectfully submitted,
ALDEN F. ABBOTT
General Counsel
JOEL MARCUS
Deputy General Counsel
for Litigation
MICHAEL BERGMAN
THEODORE (JACK) METZLER
MATTHEW M. HOFFMAN
Attorneys
FEDERAL TRADE COMMISSION
DECEMBER 2019

APPENDIX

APPENDIX
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

———————
Nos. 18-2847 & 18-3310
———————
FEDERAL TRADE COMMISSION,
Plaintiff-Appellee,
v.
CREDIT BUREAU CENTER, LLC,
AND MICHAEL BROWN,
Defendants-Appellants.
Decided August 21, 2019
Before MANION, SYKES, and BRENNAN, Circuit Judges.
SYKES, Circuit Judge. Michael Brown is the sole owner
and operator of Credit Bureau Center, a credit-monitoring
service. (We refer to both collectively as “Brown.”) Brown’s
websites used what’s known as a “negative option feature”
to attract customers. The websites offered a “free credit
report and score” while obscuring a key detail in much
smaller text: that applying for this “free” information
automatically enrolled customers in an unspecified $29.94
monthly “membership” subscription. The subscription was
for Brown’s credit-monitoring service, but customers
learned this information only when he sent them a letter
after they were automatically enrolled. Brown’s most successful contractor capitalized on the confusion by posting
Craigslist advertisements for fake rental properties and
telling applicants to get a “free” credit score from Brown’s
websites.
1a

2a
The Federal Trade Commission eventually took notice.
It sued Brown under section 13(b) of the Federal Trade
Commission Act (“FTCA”), 15 U.S.C. § 53(b), alleging that
the websites and referral system violated several consumer-protection statutes. The Commission sought a permanent injunction and restitution. Relevant here, the district
judge found that Brown was a principal for his contractor’s
fraudulent scheme and that the websites failed to meet
certain disclosure requirements in the Restore Online
Shopper Confidence Act (“ROSCA”). Id. § 8403. The judge
entered a permanent injunction and ordered Brown to pay
more than $5 million in restitution to the Commission.
Brown now concedes liability as a principal for his contractor’s Craigslist scam. And he doesn’t dispute that his
own websites failed to meet some of ROSCA’s disclosure
requirements. So we have no trouble affirming the judge’s
decision to hold him liable for both. We also affirm the
issuance of a permanent injunction. Brown’s argument
there rests on an erroneous understanding of the Eighth
Amendment’s Excessive Fines Clause.
But the restitution award is a different matter. By its
terms, section 13(b) authorizes only restraining orders and
injunctions. But the Commission has long viewed it as also
authorizing awards of restitution. We endorsed that starkly
atextual interpretation three decades ago in FTC v. Amy
Travel Service, Inc., 875 F.2d 564, 571 (7th Cir. 1989). Since
Amy Travel, the Supreme Court has clarified that courts
must consider whether an implied equitable remedy is
compatible with a statute’s express remedial scheme. See
Meghrig v. KFC W., Inc., 516 U.S. 479, 487–88 (1996). And
it has specifically instructed us not to assume that a statute
with “elaborate enforcement provisions” implicitly authorizes other remedies. Id. at 487.

3a
Applying Meghrig’s instructions, we conclude that section 13(b)’s grant of authority to order injunctive relief
does not implicitly authorize an award of restitution. Every
reason Meghrig gave for not finding an implied monetary
remedy applies here. Most notably, the FTCA has two
detailed remedial provisions that expressly authorize restitution if the Commission follows certain procedures. Our
current reading of section 13(b) allows the Commission to
circumvent these elaborate enforcement provisions and
seek restitution directly through an implied remedy.
Stare decisis cannot justify adherence to an approach
that Supreme Court precedent forecloses. Accordingly, we
overrule Amy Travel and hold that section 13(b) does not
authorize restitutionary relief.1 Because the Commission
brought this case under section 13(b), we vacate the restitution award.
I. Background
In January 2014 Brown contracted with Danny Pierce
to direct customers to his credit-monitoring service. Brown
gave Pierce several functionally identical websites with
names like “eFreeScore.com” and “FreeCreditNation.com”
to use for referrals. As their names suggest, these websites
invited people to sign up for a “free credit report and
score.” But signing up for the free score also automatically
enrolled applicants in Brown’s credit-monitoring service,
which charged a monthly subscription fee.
Brown didn’t tell prospective customers about the credit-monitoring service. His websites almost entirely focused
on the free credit score and report. Three disclaimers,
buried in much smaller font, told consumers that applying
Because this opinion overrules circuit precedent and creates a circuit split, we circulated it under Circuit Rule 40(e) to all judges in
active service. A majority did not favor rehearing en banc.
1

4a
for the free offer also enrolled them in an unspecified
“membership” subscription that cost $29.94 each month.
Customers later learned that this subscription was for
credit monitoring when Brown sent them a letter after the
automatic enrollment.
Pierce did nothing to clear up this confusion. Indeed,
it’s undisputed that his method for drumming up referrals
was fraudulent. He subcontracted with Andrew Lloyd, who
posted Craigslist advertisements for nonexistent rental
properties at bargain prices. Lloyd invited prospective
tenants to email the landlord. Posing as the “landlord,” he
then responded and instructed them to obtain a credit
report and score through one of Brown’s websites. But
once applicants got this “free” information—and were
automatically enrolled in the credit-monitoring service—
Lloyd stopped replying to emails.
The plan was effective. Pierce quickly became Brown’s
most successful recruiter. Over the course of their relationship, Pierce referred more than 2.7 million customers to
Brown, generating just over $6.8 million in revenue. Unsuspecting customers were understandably upset. They
flooded Brown’s customer-service operators, questioning
the monthly subscription charge. They complained that the
Craigslist advertisements were scams. And many were
blindsided by the fact that requesting a free credit score
automatically enrolled them in a costly credit-monitoring
service. Brown told his customer-service team to deny any
involvement with Pierce’s operation. And although Brown
typically agreed to cancel future charges, he often refused
to issue refunds. He also instructed his representatives to
offer reduced prices to retain customers. Some customers
accepted the offer, but others told their credit-card compa-

5a
nies to cancel Brown’s charges. Credit-card companies
cancelled more than 10,000 of Brown’s charges.
Consumers complained to the Commission, which
opened an investigation. In January 2017 it sued Brown
under section 13(b) of the FTCA seeking an injunction and
restitution. The Commission alleged that the Craigslist
advertisements violated the FTCA’s prohibition on “unfair
or deceptive acts or practices.” 15 U.S.C. § 45(a). The suit
also alleged that Brown’s websites violated the same provision of the FTCA, as well as ROSCA, id. § 8403; the Fair
Credit Reporting Act (“FCRA”), id. § 1681j(g); and the
Free Credit Reports Rule, 12 C.F.R. §§ 1022.130–.138.
On the Commission’s motion, the judge issued a temporary injunction, froze Brown’s assets, and appointed a
receiver to manage his company. Brown and the Commission later filed cross-motions for summary judgment. In
addition to contesting liability, Brown argued that section
13(b) doesn’t authorize an award of restitution and, alternatively, that it doesn’t authorize penalties or legal restitution (as opposed to equitable restitution, which requires
tracing a plaintiff ’s entitlement to a particular account or
fund).
The judge ruled for the Commission across the board,
holding that Brown violated the FTCA as a principal for
the Craigslist scheme and that the websites violated the
FTCA, ROSCA, the FCRA, and the Free Credit Reports
Rule. The judge issued a permanent injunction that imposed extensive conditions on Brown’s continued involvement in the credit-monitoring industry and ordered Brown
to pay $5,260,671.36 in restitution. He also denied Brown’s
motion to unfreeze funds to pay his attorneys.

6a
II. Discussion
Brown contests his liability, the permanent injunction,
and the restitution award. Different standards of review
apply. For liability, we review the summary judgment de
novo, viewing the evidence in the light most favorable to
Brown and drawing reasonable inferences in his favor.
Holloway v. Soo Line R.R. Co., 916 F.3d 641, 643 (7th Cir.
2019). We review the judge’s decision to enter a permanent
injunction for abuse of discretion. SEC v. Yang, 795 F.3d
674, 681 (7th Cir. 2015). Finally, Brown’s challenge to the
restitution award raises legal questions, which we review
de novo. Breneisen v. Motorola, Inc., 656 F.3d 701, 704 (7th
Cir. 2011).
A. Liability Issues
The Commission sued under section 13(b) of the FTCA,
which by its terms authorizes temporary restraining orders and permanent injunctions to enjoin violations of
federal trade law. § 53(b)(1). To impose individual liability
on the basis of a corporate practice, the Commission must
prove (1) that the practice violated the FTCA; (2) that the
individual “either participated directly in the deceptive acts
or practices or had authority to control them”; and (3) that
the individual “knew or should have known about the deceptive practices.” FTC v. World Media Brokers, 415 F.3d
758, 764 (7th Cir. 2005).
Based on the summary-judgment record, the judge
held that Brown violated the FTCA as a principal for the
Craigslist marketing scheme contrived by Pierce and
Lloyd. He also held that Brown’s websites violated the
FTCA, ROSCA, the FCRA, and the Free Credit Reports
Rule. Finally, the judge concluded that Brown was individ-

7a
ually liable for the violations because he owned and operated all aspects of his company.
While Brown concedes liability for the Craigslist
scheme, he challenges his liability for the website violations. He asserts that his websites contained no misrepresentations in violation of the FTCA and satisfied ROSCA’s
disclosure requirements. He also argues that the Commission must enforce the FCRA and the Free Credit Reports
Rule through an internal adjudication. See 15 U.S.C.
§ 1681s(a)(1) (stating that FCRA violations “shall be subject to enforcement by the Federal Trade Commission
under section 5(b) of the Federal Trade Commission Act”).
It’s unnecessary to consider every theory of liability.
Brown’s challenges to the injunction and restitution award
do not turn on which statute his websites violated. And
section 13(b) permits the Commission to seek relief against
Brown for violating “any provision of law” it enforces.
§ 53(b).
So we start and end with ROSCA, which restricts the
use of a “negative option feature” to sell goods or services
on the Internet. § 8403. A negative-option feature is “a
provision [in an offer] under which the customer’s silence
or failure to take an affirmative action to reject goods or
services or to cancel the agreement is interpreted by the
seller as acceptance of the offer.” 16 C.F.R. § 310.2(w); see
also § 8403 (incorporating this definition by reference).
ROSCA prohibits this feature unless the seller “(1) provides text that clearly and conspicuously discloses all material terms of the transaction before obtaining the consumer’s billing information; (2) obtains a consumer’s express
informed consent before charging the consumer . . . ; and
(3) provides simple mechanisms for a consumer to stop
recurring charges.” § 8403. ROSCA violations are “unfair

8a
or deceptive acts or practices” under the FTCA, so the
Commission can use the FTCA’s enforcement regime
against violators. Id. § 8404.
There’s no dispute that Brown used a negative-option
feature to enroll customers in his credit-monitoring service. The only question is whether he complied with
ROSCA’s disclosure requirements. In the apt words of the
district judge, Brown’s websites were “virtually devoid of
any mention of the [credit-monitoring] service aside from
the statement that the customer is to be billed for it.”
Moreover, Brown concealed this incomplete disclosure
behind more prominent language offering a free credit
score and report. The judge determined that these partial
and obscure disclosures did not “clearly and conspicuously
disclose[ ] all material terms of the transaction” or ensure
that customers gave “express informed consent.”
§ 8403(1)–(2).
Brown focuses on the conclusion that the disclosures
weren’t conspicuous. He parses font sizes, details his websites’ color schemes, and takes a microscope to the Commission’s affidavits in an effort to highlight evidence that
consumers read and understood the disclosures. But he
gives only passing attention to the decisive point: His websites didn’t provide certain information that ROSCA requires—namely, that the subscription was for a creditmonitoring service.
This oversight is fatal to Brown’s defense. Setting aside
whether his disclosures satisfied the “clear and conspicuous” standard (and on that point we see nothing unsound in
the judge’s ruling that they did not), Brown violated
ROSCA if the disclosures failed to provide “all material
terms of the transaction.” § 8403(1). The service Brown
provided in exchange for the subscription is clearly a material term. See Material Term, BLACK’S LAW DICTIONARY

9a
(10th ed. 2014) (“A contractual provision dealing with a
significant issue such as subject matter . . . or the work to
be done.”). And the websites did not tell consumers that
they were enrolling in a credit-monitoring service. Brown
seeks refuge in the form letter that he delivered to new
subscribers, which did provide this information. But
ROSCA required Brown to disclose the material terms
“before obtaining the consumer’s billing information.”
§ 8403. Brown protests that he sent the letter “almost
instantaneously” upon subscription. But almost instantaneously is still too late under ROSCA.
Brown next contends that even if corporate liability is
established, he should not be held personally liable. But it’s
undisputed that he controlled the websites and was aware
of their content. That’s enough to establish personal liability for the ROSCA violations.
B. The Permanent Injunction
The judge held that Brown’s conduct warranted a permanent injunction, applying our standard under the Securities and Exchange Act. See Yang, 795 F.3d at 681 (asking
whether “there is a reasonable likelihood of future violations in order to obtain [injunctive] relief ”) (quotation
marks omitted). The ensuing injunction imposes extensive
requirements on Brown if he ever operates a creditmonitoring business again.
We don’t need to decide whether our standard for an injunction under the Securities and Exchange Act also applies to section 13(b) because Brown’s challenge doesn’t
turn on that question. His attack on the injunction rests
largely on the Excessive Fines Clause. U.S. CONST. amend.
VIII. He contends that the injunction is unconstitutionally
harsh and disproportionate. But he skips a necessary step
in the analysis—whether the injunction is a “fine” at all.

10a
It’s not. The Supreme Court has limited “fines” to “cash
[or] in-kind payment[s] imposed by and payable to the
government.” Dep’t of Hous. & Urban Dev. v. Rucker, 535
U.S. 125, 136 n.6 (2002) (quotation marks omitted); see also
Zamora-Mallari v. Mukasey, 514 F.3d 679, 695 (7th Cir.
2008) (“The Board’s removal order . . . is not a ‘fine,’ and
thus the Excessive Fine Clause of the Eighth Amendment
does not apply.”). Because an injunction isn’t a fine, the
permanent injunction doesn’t implicate the Excessive
Fines Clause.
Brown also offers an assortment of drive-by arguments,
all of which are too undeveloped to establish an abuse of
discretion. See Roger Whitmore’s Auto. Serv., Inc. v. Lake
County, 424 F.3d 659, 664 n.2 (7th Cir. 2005) (“It is the
parties’ duty to package, present, and support their arguments . . . .”). We affirm the permanent injunction.
C. The Restitution Award
The bulk of Brown’s appeal challenges the restitution
order. His primary argument is that section 13(b) does not
authorize an award of restitution. This is fundamentally a
question of statutory interpretation, but it’s obscured by
layers of caselaw, so bear with us while we untangle the
knot. A brief overview of the FTCA’s remedial structure is
helpful to a proper understanding of section 13(b), so we
begin there.
The FTCA gives the Commission several tools to enforce the Act’s prohibition on unfair or deceptive trade
practices. Under its “cease and desist” power, the Commission adjudicates a case before an administrative law judge,
who can issue an order prohibiting the respondent from
engaging in the illegal conduct at issue. See 15 U.S.C.
§ 45(b). This order becomes final if it survives administrative appeal and judicial review. Id. § 45(g).

11a
A final cease-and-desist order empowers the Commission to sue the violator for legal and equitable relief, but
only if “a reasonable man would have known under the
circumstances [that the conduct] was dishonest or fraudulent.” Id. § 57b(a)(2), (b). After it becomes final, the order
also draws a line in the sand for both the respondent and
anyone else who engages in the prohibited conduct. If the
respondent later violates the order, the Commission can
sue for civil penalties and any equitable relief “the court
finds necessary.” Id. § 45(l). If anyone else engages in the
prohibited conduct after the order becomes final, the
Commission can seek civil penalties if it can prove that the
violator acted with “actual knowledge” that his conduct was
unlawful. Id. § 45(m)(1)(B).
The Commission has two other enforcement mechanisms at its disposal. First, it can promulgate rules that
“define with specificity acts or practices which are unfair or
deceptive.” Id. § 57a(a)(1)(B). By preemptively resolving
whether certain conduct violates the FTCA, rulemaking
permits the Commission to pursue “quick enforcement”
actions against violators. Nicholas R. Parrillo, Federal
Agency Guidance and the Power to Bind: An Empirical
Study of Agencies and Industries, 36 YALE J. ON REG. 165,
225–26 (2019). Once the Commission promulgates a rule, it
can seek legal and equitable remedies, including restitution, from violators. See 15 U.S.C. § 57b(a)(1), (b). And if it
establishes that a violator had “actual knowledge or
knowledge fairly implied on the basis of objective circumstances” that his conduct violated a rule, the Commission
can also pursue civil penalties. Id. § 45(m)(1)(A).
The Commission’s remaining enforcement mechanism
is different. Under section 13(b) of the FTCA, the Commission can forego any administrative adjudication or rule-

12a
making and directly pursue a temporary restraining order
and a preliminary or permanent injunction in federal court.
§ 53(b). As noted, the Commission sued Brown under this
provision.
1. Section 13(b)
The restitution order against Brown rests on section
13(b)’s permanent-injunction provision, which states that
“in proper cases the Commission may seek, and after
proper proof, the court may issue, a permanent injunction.”
Id. Brown’s straightforward argument is that section 13(b)
doesn’t authorize restitution because it doesn’t mention
restitution.
We start with the obvious: Restitution isn’t an injunction. “Injunction” is of course a broad term. See Injunction, BLACK’S LAW DICTIONARY (10th ed. 2014) (“A court
order commanding or preventing an action.”). But statutory authorizations for injunctions don’t encompass other
discrete forms of equitable relief like restitution. See, e.g.,
Meghrig, 516 U.S. at 484 (“[N]either [a mandatory or prohibitory injunction] contemplates . . . equitable restitution.”) (quotation marks omitted); Owner-Operator Indep.
Drivers Ass’n v. Landstar Sys., Inc., 622 F.3d 1307, 1324
(11th Cir. 2010) (“Injunctive relief constitutes a distinct
type of equitable relief; it is not an umbrella term that
encompasses restitution or disgorgement.”); see also WalMart Stores, Inc. v. Dukes, 564 U.S. 338, 365 (2011) (holding that an equitable order for backpay isn’t an injunction);
Nken v. Holder, 556 U.S. 418, 430 (2009) (“Whether [a
deportation stay] might technically be called an injunction
is beside the point; that is not the label by which it is generally known.”).
The Commission doesn’t seriously argue otherwise. It
instead contends that section 13(b) implicitly authorizes

13a
restitution. We endorsed that reading in Amy Travel, 875
F.2d at 571, which Brown asks us to overturn. We’ll discuss
Amy Travel in a moment, but we begin with a closer look
at the FTCA itself. If the Commission’s reading is correct,
there’s no need to reconsider our precedent.
Section 13(b) provides:
Whenever the Commission has reason to believe-(1) that any person, partnership, or corporation is
violating, or is about to violate, any provision of law
enforced by the Federal Trade Commission, and
(2) that the enjoining thereof pending the issuance
of a complaint by the Commission and until such
complaint is dismissed by the Commission or set
aside by the court on review, or until the order of
the Commission made thereon has become final,
would be in the interest of the public-the Commission . . . may bring suit in a district
court of the United States to enjoin any such act or
practice. Upon a proper showing that, weighing the
equities and considering the Commission’s likelihood of ultimate success, such action would be in the
public interest, and after notice to the defendant, a
temporary restraining order or a preliminary injunction may be granted without bond: Provided,
however, That if a complaint is not filed within such
period (not exceeding 20 days) as may be specified
by the court after issuance of the temporary restraining order or preliminary injunction, the order
or injunction shall be dissolved by the court and be
of no further force and effect: Provided further,
That in proper cases the Commission may seek, and

14a
after proper proof, the court may issue, a permanent injunction. . . .
An implied restitution remedy doesn’t sit comfortably
with the text of section 13(b). Consider its requirement
that the defendant must be “violating” or “about to violate”
the law. Requiring ongoing or imminent harm matches the
forward-facing nature of injunctions. See 11A CHARLES
ALAN WRIGHT ET AL., FEDERAL PRACTICE AND
PROCEDURE § 2942, at 47 (3d ed. 2013) (“[I]njunctive relief
looks to the future and is designed to deter . . . .”). Conversely, restitution is a remedy for past actions. See 1 DAN.
B. DOBBS, LAW OF REMEDIES § 4.1(1), at 551 (2d ed. 1993)
(“Restitution is a return or restoration of what the defendant has gained in a transaction.”). Beyond the conceptual
tension, this requirement raises an illogical implication: It
would condition the Commission’s ability to secure restitution for past conduct on the existence of ongoing or imminent unlawful conduct.
Section 13(b)’s second requirement—that the Commission must reasonably believe that enjoining an ongoing or
imminent violation would be in the public interest—raises a
similar problem. The public interest in stopping or preventing a violation is distinct from the public interest in
remedying a past harm. And yet the Commission’s reading
ties restitution to this inapposite inquiry.
The rest of section 13(b) is likewise keyed to injunctions, not other forms of equitable relief. For example, the
statute conditions the district court’s authority to issue a
temporary restraining order or preliminary injunction on
injunction-specific requirements—such as “weighing the
equities and considering the Commission’s likelihood of
ultimate success”—and dissolves the order or injunction
within 20 days if the Commission doesn’t issue an adminis-

15a
trative complaint. § 53(b). These demands don’t apply to
equitable restitution, which has its own preconditions. See
Great-West Life & Annuity Ins. Co. v. Knudson, 534 U.S.
204, 212–15 (2002).
True, this appeal concerns section 13(b)’s permanentinjunction provision, not the provision governing temporary restraining orders and preliminary injunctions, which
is tied to the subsequent initiation of an administrative
proceeding. And we have held that at least some of section
13(b)’s requirements don’t apply to permanent injunctions.
See United States v. JS & A Grp., 716 F.2d 451, 456–57 (7th
Cir. 1983) (holding that the Commission can seek a permanent injunction without initiating an internal adjudication).
But see FTC v. Shire ViroPharma, Inc., 917 F.3d 147, 156
(3d Cir. 2019) (requiring the Commission to allege an ongoing or imminent violation to receive a permanent injunction). But that’s beside the point. Even if some of section
13(b)’s requirements do not apply to permanent injunctions, they inform the meaning of “injunction.” We see no
contextual support for giving vastly different meanings to
section 13(b)’s two uses of the word “injunction.” See Hall
v. United States, 566 U.S. 506, 519 (2012) (“At bottom,
identical words and phrases within the same statute should
normally be given the same meaning.”) (quotation marks
omitted). And in any event, we haven’t drawn an interpretive distinction in the past. See FTC v. Elders Grain, Inc.,
868 F.2d 901, 907 (7th Cir. 1989) (holding that section
13(b)’s preliminary-injunction provision also authorizes
implied equitable relief).
The FTCA’s two other enforcement provisions amplify
the poor fit between section 13(b) and restitution. Both use
more than the word “injunction” to authorize other forms
of equitable relief. As discussed, when a person violates a

16a
final cease-and-desist order, the district courts are empowered to “grant mandatory injunctions and such other and
further equitable relief as they deem appropriate.” § 45(l)
(emphasis added). And when someone engages in conduct
prohibited by a rule, the FTCA authorizes “such relief as
the court finds necessary . . . , [including] the refund of
money or return of property.” § 57b(b) (emphasis added).
The absence of similar language in section 13(b) is conspicuous. “[W]here Congress includes particular language
in one section of a statute but omits it in another section of
the same Act, it is generally presumed that Congress acts
intentionally and purposely in the disparate inclusion or
exclusion.” Nken, 556 U.S. at 430 (quotation marks omitted). This instruction applies with particular force here,
where Congress simultaneously expanded § 45(l) to allow
for “other and further equitable relief ” and enacted section
13(b) without this language. See Trans-Alaska Pipeline
Authorization Act, Pub. L. No. 93-153, § 408, 87 Stat. 576,
591 (1973). Moreover, Congress expressly approved restitution as a remedy under § 57b(b) two years after enacting
section 13(b). See Magnuson-Moss Warranty Act, Pub. L.
No. 93-637, § 206, 88 Stat. 2183, 2202 (1975). If section 13(b)
permitted restitution as a general matter, Congress would
have had no reason to enact § 57b, which authorizes restitution under narrower circumstances.
Remedial scope isn’t the only difference between section 13(b) and the FTCA’s other enforcement mechanisms.
The latter procedures also impose a detailed framework
that the Commission must follow before obtaining a restitution order. This framework counterbalances the FTCA’s
amorphous “unfair or deceptive practices” standard by
requiring the Commission to give defendants fair notice,
either through cease-and-desist orders or rules that “de-

17a
fine with specificity” prohibited acts. §§ 45(b); 57a(a)(1).
The Commission can bypass these notice requirements
only if it obtains a cease-and-desist order against a violator,
brings a suit in court, and then establishes that the prohibited practice “is one which a reasonable man would have
known under the circumstances was dishonest or fraudulent.” § 57b(a)(2). Finally, the FTCA imposes a three-year
statute of limitations on bringing actions against most
violators. § 57b(d).
Section 13(b) doesn’t offer any of these protections. And
yet the Commission contends that it provides an unqualified right to the very remedies that the FTCA’s other enforcement provisions give with heavy qualification. Reading an implied restitution remedy into section 13(b) makes
these other provisions largely pointless. Without a clear
textual signal, we cannot presume that Congress implicitly
made such a consequential shift in policy. See Whitman v.
Am. Trucking Ass’ns, Inc., 531 U.S. 457, 468 (2001) (“Congress . . . does not alter the fundamental details of a regulatory scheme in vague terms or ancillary provisions . . . .”).
The tensions we’ve just discussed dissipate if we read
section 13(b) to mean what it says: The remedy is limited to
injunctive relief. In fact, giving section 13(b) its plain meaning harmonizes the three enforcement mechanisms. The
FTCA gives the Commission a pair of backward-facing
methods to obtain monetary relief for past injury. Its
cease-and-desist power targets individual violations. See
§ 45(b). And its rule-enforcement authority under
§ 57b(a)(1) allows it to more efficiently address widespread
unfair or deceptive practices. See Parrillo, supra, at 225–26.
Section 13(b) serves a different, forward-facing role:
enjoining ongoing and imminent future violations. This
authority aligns with the predicate requirements it impos-

18a
es—notably, a reasonable belief that a violation is ongoing
or imminent and that stopping the violation is in the public
interest. § 53(b). It also explains the lack of procedural
protections. As Congress reported when enacting section
13(b), the Commission’s existing enforcement processes
couldn’t quickly address ongoing or imminent violations.
See § 408(a)(1), 87 Stat. 576, 591 (finding that the Commission had “been restricted and hampered because of inadequate legal authority . . . to seek preliminary injunctive
relief to avoid unfair competitive practices”) (emphasis
added). Section 13(b) corrected this problem, providing an
expedited pathway to injunctive relief. See id. § 408(b)
(noting that the “purpose of [the] act” was to give the
Commission “the requisite authority to insure prompt
enforcement of the laws [it] administers by granting statutory authority . . . to seek preliminary injunctive relief ”)
(emphasis added).
The Commission’s argument to the contrary rests almost entirely on the saving clause in § 57b(e): “Remedies
provided in this section are in addition to, and not in lieu of,
any other remedy or right of action provided by State or
Federal law. Nothing in this section shall be construed to
affect any authority of the Commission under any other
provision of law.” According to the Commission, § 57b(e)
explains away the tensions that its reading of section 13(b)
otherwise creates.
We disagree for two reasons. To start, the Commission’s understanding of the saving clause runs against
more than a century of interpretive practice. The Supreme
Court has long instructed that acts “cannot be held to
destroy [themselves]” through saving clauses. Tex. & Pac.
Ry. Co. v. Abilene Cotton Oil Co., 204 U.S. 426, 446 (1907);
accord Adams Express Co. v. Croninger, 226 U.S. 491, 507

19a
(1913); Nader v. Allegheny Airlines, Inc., 426 U.S. 290, 299
(1976); Am. Tel. & Tel. Co. v. Cent. Office Tel., Inc., 524
U.S. 214, 228 (1998). Put differently, we cannot read a saving clause to “allow specific provisions of the statute that
contains it to be nullified.” PMC, Inc. v. Sherwin-Williams
Co., 151 F.3d 610, 618 (7th Cir. 1998). This principle extends
to claims that a particular statutory provision implicitly
authorizes new remedies. See Middlesex Cty. Sewerage
Auth. v. Nat’l Sea Clammers Ass’n, 453 U.S. 1, 15–16
(1981) (“It is doubtful that the phrase ‘any statute’ [in a
saving clause] includes the very statute in which this
statement was contained.”). As we’ve explained, the Commission’s reading of section 13(b) effectively nullifies § 57b.
We cannot read § 57b(e) to authorize that self-defeating
effect.
And even if the Commission’s reading of the saving
clause were correct, we couldn’t infer a right to restitution
in section 13(b). The saving clause preserves only those
remedies that exist. It does not inform the question whether
section 13(b) contains an implied power to award restitution.
The Commission also suggests that Congress “ratified”
an implied section 13(b) restitution remedy in its 1993 and
2006 amendments to the FTCA. We disagree. The 1993
amendment reworked section 13(b)’s venue and service-ofprocess provisions but didn’t alter its remedial scope. The
2006 amendment fares no better as a prop for the Commission’s argument. It simply empowered the Commission to
use “[a]ll remedies available to [it] with respect to unfair
and deceptive acts or practices . . . , including restitution,”
when prosecuting certain violations in foreign commerce.
§ 45(a)(4)(B). The Commission contends that the use of
“restitution” in this provision refers to an implied restitution remedy in section 13(b). But the FTCA expressly

20a
authorizes restitution through § 45(l) and § 57b(b). So the
2006 amendment says nothing about the Commission’s
authority to seek that remedy under section 13(b).
In short, nothing in the text or structure of the FTCA
supports an implied right to restitution in section 13(b),
which by its terms authorizes only injunctions. Unsurprisingly, the Commission wagers nearly all of its case on stare
decisis rather than the plain meaning of section 13(b). So
we turn to that question.
2. The Road to Amy Travel
The Commission correctly observes that we addressed
a materially identical challenge to the scope of section 13(b)
in Amy Travel, 875 F.2d 564. Brown in turn invites us to
revisit that decision in light of intervening Supreme Court
decisions. We of course can do so. “Although we must give
considerable weight to our prior decisions, we are not
bound by them absolutely and may overturn circuit precedent for compelling reasons.” Russ v. Watts, 414 F.3d 783,
788 (7th Cir. 2005). An intervening Supreme Court decision
that displaces the rationale of our precedent is one such
reason. See Glaser v. Wound Care Consultants, Inc., 570
F.3d 907, 915 (7th Cir. 2009).
Brown’s invitation implicates a line of Supreme Court
precedents long predating Amy Travel. The prevailing
interpretation of section 13(b) developed in the shadow of
two decisions that took a capacious view of implied remedies: Porter v. Warner Holding Co., 328 U.S. 395 (1946),
and Mitchell v. Robert DeMario Jewelry, Inc., 361 U.S. 288
(1960). To understand Amy Travel, we must begin with them.
Porter considered section 205(a) of the Emergency
Price Control Act of 1942, which limited the rent that certain landlords could collect from their tenants. The act
empowered district courts to issue a “permanent or tempo-

21a
rary injunction, restraining order, or other order” against
persons who collect rents above its limits. Porter, 328 U.S.
at 397. The Court held that section 205(a) authorizes restitution, offering this reasoning:
Unless otherwise provided by statute, all the inherent equitable powers of the District Court are available for the proper and complete exercise of [its equitable] jurisdiction. . . . Unless a statute in so many
words, or by a necessary and inescapable inference,
restricts the court’s jurisdiction in equity, the full
scope of that jurisdiction is to be recognized and applied. The great principles of equity, securing complete justice, should not be yielded to light inferences, or doubtful construction.
Id. at 398 (citations and quotation marks omitted).
Porter later clarified that implied remedies must be
“consistent with the statutory language and policy, the
legislative background and the public interest.” Id. at 403;
see also id. at 400 (“In framing such remedies under
§ 205(a), courts must act primarily to effectuate the policy
of the Emergency Price Control Act and to protect the
public interest while giving necessary respect to the private interests involved.”). In short, Porter adopted a presumption in favor of implying equitable remedies that
accord with statutory purpose. But it also recognized that
an express statement or a “necessary and inescapable
inference” to the contrary could rebut this presumption.
Id. at 398.
Returning to the Price Control Act, the Court held that
restitution was a proper “other order” under section
205(a). Id. at 399. It offered two justifications. First, restitution could be an “equitable adjunct to an injunction.” Id.
Second, restitution advanced the purpose of the statute.

22a
See id. at 400 (“[T]he statutory policy of preventing inflation is plainly advanced if prices or rents which have been
collected in the past are reduced to their legal maximums.”). Still, the Court found that an “inescapable inference” foreclosed one particular remedy. The statute’s separate right of action for damages “provide[d] an exclusive
remedy relative to damages.” Id. at 401. But “save [this]
one aspect,” the statute invoked “the broad equitable jurisdiction that inheres in courts.” Id. at 403.
In Mitchell the Court applied Porter to section 17 of the
Fair Labor Standards Act (“FLSA”), which gave district
courts the jurisdiction to “restrain violations” of the statutory prohibition on firing employees for reporting workplace violations. 361 U.S. at 289. After quoting Porter’s
broad language about equitable remedies, Mitchell reiterated that implied remedies must fit with the statutory
purpose: “When Congress entrusts to an equity court the
enforcement of prohibitions contained in a regulatory
enactment, it must be taken to have acted cognizant of the
historic power of equity to provide complete relief in light
of the statutory purposes.” Id. at 291–92.
Applying Porter’s presumption, the Court drew on its
understanding of the FLSA’s purpose, which was to
achieve “minimum labor standards” by using worker complaints as a private enforcement mechanism. Id. at 292.
The Court reasoned that restitution furthered that purpose. Without it, the “fear of economic retaliation” would
stifle worker complaints. Id.
Mitchell then assessed whether anything in the FLSA
precluded restitution as an implied remedy. The defendants
pointed to the statute’s ban on awarding unpaid minimum
wages and overtime compensation as one such provision,
but the Court disagreed. It found “no indication in the

23a
language of the [ban], or in the legislative history, that
Congress intended [it] to have a wider effect.” Id. at 294.
Porter and Mitchell were typical of their era: The Court
would resolve ambiguities by identifying a statute’s purpose and “deducing the result most consonant with that
purpose.” William N. Eskridge Jr., Politics Without Romance: Implications of Public Choice Theory for Statutory Interpretation, 74 VA. L. REV. 275, 282 (1988); see also
John F. Manning, Foreword: The Means of Constitutional
Power, 128 HARV. L. REV. 1, 16–17 (2014) (“However clearly
Congress framed its statutes, the Court could rework them
to fit with the background policies that inspired them.”).
Using this interpretive approach, the Court assumed that
the judiciary could freely craft remedies to fully enforce
whatever rights Congress had recognized. See Frank H.
Easterbrook, Foreword: The Court and the Economic
System, 98 HARV. L. REV. 4, 45–51 (1983). As the Court
would proclaim four years after Mitchell, “it is the duty of
the courts to be alert to provide such remedies as are necessary to make effective the congressional purpose.” J. I.
Case Co. v. Borak, 377 U.S. 426, 433 (1964).
* * *
Lower-court interpretations of section 13(b) built on
Porter and Mitchell. The trail starts with FTC v. H. N.
Singer, Inc., 668 F.2d 1107 (9th Cir. 1982). There the Ninth
Circuit held that section 13(b)’s permanent-injunction
provision implicitly authorizes preliminary injunctions and
asset freezes.2 Id. at 1113. While its analysis was cursory,
Shortly before Singer, the Fifth Circuit held that section 13(b)’s
preliminary-injunction provision implicitly authorizes asset freezes.
See FTC v. Sw. Sunsites, Inc., 665 F.2d 711, 718 (5th Cir. 1982). But its
holding appeared to preclude the possibility of restitution in section
13(b), pointing instead to § 57b for monetary remedies. Id. at 719
2

24a
Singer channeled Porter and Mitchell. The court held that
preliminary injunctions and asset freezes advanced section
13(b)’s purpose by ensuring that assets were available at
the end of the enforcement process. Singer also rejected
the defendant’s claim that the express equitable remedies
in § 57b foreclosed implied remedies in section 13(b), pointing to the saving clause in § 57b(e).
Singer sparked a line of appellate cases holding that
section 13(b) is a broad grant of equitable authority. The
Eleventh Circuit followed Singer’s lead two years later.
After quoting Porter’s language on implied remedies, the
court concluded that it “agree[d] with Singer’s interpretation of [section] 13(b)” and without further discussion held
that section 13(b) authorizes asset freezes. FTC v. U.S. Oil &
Gas Corp., 748 F.2d 1431, 1434 (11th Cir. 1984) (per curiam).
Our decision in FTC v. World Travel Vacation Brokers,
Inc., 861 F.2d 1020 (7th Cir. 1988), was next. There, the
defendant passingly suggested that section 13(b)’s permanent-injunction provision does not implicitly authorize
preliminary injunctions. (Recall that the statute’s express
authorization for temporary restraining orders and preliminary injunctions is tied to the eventual initiation of an
administrative proceeding.) We held that the defendant
waived the argument, but we discussed the issue anyway
“in order to satisfactorily explain our disposition of . . .
other issues.” Id. at 1026. Because it was dicta, our reasoning was understandably brief. We simply quoted language
from Singer and noted that we had “no reason to disagree
(“[T]he exhortation in [Mitchell] to preserve the possibility of complete
relief . . . makes it appropriate to consider that the final, complete relief
in this case may entail consumer redress through a [§ 57b] proceeding.”). Predictably, no circuit has materially relied on Southwest Sunsites to support an implied restitution award.

25a
with the conclusion of our colleagues of the Ninth and
Eleventh Circuits that the authority to grant permanent
injunctive relief also includes the authority to grant interlocutory relief.” Id. Other than distinguishing a prior decision, we did not discuss the matter further.
Two months after World Travel, we concluded in Elders
Grain that section 13(b)’s preliminary-injunction provision
implicitly authorizes rescission. 868 F.2d at 907. Perhaps
because the parties didn’t dispute the issue, our analysis
was again cursory. But it was highly consequential. We
articulated a new standard for inferring equitable remedies: “[T]he statutory grant of the power to issue a preliminary injunction carries with it the power to issue whatever
ancillary equitable relief is necessary to the effective exercise of the granted power.” Id. Notably absent was any
inquiry into whether an implied remedy was compatible
with the statutory text and structure or whether Congress
precluded the implied remedy. We instead would permit
whatever implied remedies furthered the exercise of the
express remedy.
The effect of this reasoning was evident in our justification for inferring the power to order rescission. We simply
restated the facts of the case, which involved a transaction
timed to avoid the Commission’s review, and observed that
“[t]o reward these tactics by holding that a district court
has no power under section 13(b) to rescind a consummated transaction would go far toward rendering the statute a
dead letter.” Id.
We extended Elders Grain to the permanent-injunction
provision three months later in Amy Travel. The district
court had ordered the defendants to pay more than $6 million
in restitution to the Commission. Amy Travel, 875 F.2d at
570. The defendants argued on appeal that nothing in sec-

26a
tion 13(b) authorized monetary relief. We disagreed, explaining that our then-recent decisions in World Travel and
Elders Grain “thwarted” the defendants’ arguments. Id. at
571. In particular, we said that the reasoning in Elders
Grain applied “with equal force” to the permanentinjunction provision. We adopted that expansive formulation, holding that section 13(b)’s “statutory grant of authority to the district court to issue permanent injunctions
includes the power to order any ancillary equitable relief
necessary to effectuate the exercise of the granted powers.” Id. at 572. But unlike Elders Grain, we never addressed how an award of restitution was “necessary to
effectuate the exercise” of the power to issue an injunction.
We simply noted that restitution was a “proper form[ ] of
ancillary relief.” Id. at 571.
Our approach in Amy Travel became the standard.
Some circuits held, on a similarly brief analysis, that section 13(b) categorically authorizes the court’s “full equitable powers,” including restitution. See FTC v. Gem Merch.
Corp., 87 F.3d 466, 470 (11th Cir. 1996) (emphasis added);
FTC v. Sec. Rare Coin & Bullion Corp., 931 F.2d 1312,
1314–15 (8th Cir. 1991). Others simply cited Amy Travel or
other decisions to reach the same conclusion. See FTC v.
Bronson Partners, LLC, 654 F.3d 359, 365 (2d Cir. 2011);
FTC v. Freecom Commc’ns, Inc., 401 F.3d 1192, 1203 (10th
Cir. 2005); FTC v. Pantron I. Corp., 33 F.3d 1088, 1102 (9th
Cir. 1994); see also FTC v. Ross, 743 F.3d 886, 891 (4th Cir.
2014) (conceding that “arguments about how the structure,
history, and purpose of the [FTCA] weigh against the conclusion that district courts have the authority to award
consumer redress . . . are not entirely unpersuasive” but
allowing restitution because of Porter, Mitchell, and uniform circuit practice).

27a
To be sure, these decisions have attracted some judicial
skepticism. See Shire ViroPharma, 917 F.3d at 156, 161
n.19 (declining to decide whether section 13(b) authorizes
monetary relief but concluding that it wasn’t “meant to
duplicate [§ 45(b)], which already prohibits past conduct”);
FTC v. AMG Capital Mgmt., LLC, 910 F.3d 417, 429 (9th
Cir. 2018) (O’Scannlain, J., concurring) (disagreeing with
the prevailing interpretation). But the view that section
13(b) implicitly authorizes restitution has largely escaped
critical examination.3
We have affirmed restitution awards under section
13(b) three times since Amy Travel. See United States v.
Tankersley, 96 F. App’x 419, 422 (7th Cir. 2004); FTC v.
Think Achievement Corp., 312 F.3d 259, 262 (7th Cir. 2002);
FTC v. Febre, 128 F.3d 530, 534 (7th Cir. 1997). But Brown
is the first litigant to question our precedent.
3. Modern Implied-Remedies Jurisprudence
The Supreme Court’s understanding of implied remedies evolved after Porter and Mitchell. Though the Court
continued to presume that courts could “use any available
remedy to afford full relief ” when a party had a general
statutory cause of action, over time it began to emphasize
Chief Judge Wood’s dissent from the denial of rehearing en banc
relies heavily on FTC v. Bronson Partners, LLC, 654 F.3d 359 (2d Cir.
2011), but there the Second Circuit summarily followed the lead of
other circuits in reading section 13(b) to include an implied power to
order restitution. Id. at 365. The court quickly moved on to, and thoroughly considered, a wholly different question: whether the implied
restitution remedy is equitable or legal. The lengthy passages quoted
in the chief judge’s dissent relate to that second-order question. Moreover, Bronson rejected the view that the plain meaning of “injunction”
encompasses restitution. Id. at 367 (approving restitution because
“section 13(b) does not limit the district court to awarding only injunctions”) (emphasis added).
3

28a
that this presumption “yields where necessary to carry out
the intent of Congress or to avoid frustrating the purposes
of the statute involved.” Gebser v. Lago Vista Indep. Sch.
Dist., 524 U.S. 274, 284 (1998) (quoting Guardians Ass’n v.
Civil Serv. Comm’n, 463 U.S. 582, 595 (1983) (White, J.,
op.)); see also California v. Sierra Club, 451 U.S. 287, 297
(1981) (“The federal judiciary will not engraft a remedy on
a statute, no matter how salutary, that Congress did not
intend to provide.”). In particular, the Court now recognizes the importance of Congress’s choice to specify forms of
relief. See, e.g., Franklin v. Gwinnett Cty. Pub. Sch., 503
U.S. 60, 69 n.6 (1992) (noting that the presumption in favor
of relief doesn’t apply “under a statute that expressly enumerated the remedies available to plaintiffs”); see also
Karahalios v. Nat’l Fed’n of Fed. Emps., 489 U.S. 527, 533
(1989) (“It is . . . an elemental canon of statutory construction that where a statute expressly provides a remedy,
courts must be especially reluctant to provide additional
remedies.”) (quotation marks omitted).
A prominent example is ERISA. Because Congress has
established a comprehensive remedial scheme for plaintiffs
to enforce their rights under an employee-benefits plan,
the Court has refused to infer additional extracontractual
damages remedies. See Mass. Mut. Life Ins. Co. v. Russell,
473 U.S. 134, 146 (1985) (“The presumption that a remedy
was deliberately omitted from a statute is strongest when
Congress has enacted a comprehensive legislative scheme
including an integrated system of procedures for enforcement.”) (quotation marks omitted). And where two environmental-protection statutes provide private rights of
action for injunctive relief but require plaintiffs to notify
defendants 60 days before suing, the Court has refused to
infer a damages remedy or allow plaintiffs to obtain an

29a
injunction without the requisite notice. See Nat’l Sea
Clammers Ass’n, 453 U.S. at 15 (“In the absence of strong
indicia of a contrary congressional intent, we are compelled
to conclude that Congress provided precisely the remedies
it considered appropriate.”).
These decisions collided with Porter and Mitchell in
Meghrig v. KFC Western, Inc., 516 U.S. 479 (1996). Because Brown’s challenge centers on Meghrig, it warrants
close review. There the Court addressed the Resource
Conservation and Recovery Act of 1976 (“RCRA”), which
permits private parties to sue handlers of “solid or hazardous waste which may present an imminent and substantial
endangerment to health or the environment.” 42 U.S.C.
§ 6972(a)(1)(B). The statute authorizes district courts “to
restrain” any person who contributes to handling the
waste, “to order such person to take such other action as
may be necessary, or both.” § 6972(a). The question in
Meghrig was whether § 6972(a) also allowed plaintiffs to
recover waste-cleanup costs as restitution.
The Supreme Court refused to find an implied restitutionary remedy. “Under a plain reading of this remedial
scheme,” the Court explained, plaintiffs could receive “a
mandatory injunction, i.e., one that orders a responsible
party to ‘take action’ by attending to the cleanup and proper disposal of toxic waste, or a prohibitory injunction, i.e.,
one that ‘restrains’ a responsible party from further violating [the] RCRA.” Meghrig, 516 U.S. at 484. But neither of
these forward-facing remedies “contemplates the award of
past cleanup costs, whether these are denominated ‘damages’ or ‘equitable restitution.’ ” Id.
The Court reinforced its holding by comparing the
RCRA to the Comprehensive Environmental Response,
Compensation, and Liability Act of 1980 (“CERCLA”), 42

30a
U.S.C. §§ 9601 et seq., which addresses similar toxic-waste
issues. Meghrig, 516 U.S. at 485. Unlike the RCRA,
CERCLA expressly authorizes monetary relief. 42 U.S.C.
§ 9607(a)(4). “Congress thus demonstrated in CERCLA
that it knew how to provide for the recovery of cleanup
costs[ ] and that the language used to define the remedies
under [the] RCRA does not provide that remedy.” Meghrig, 516 U.S. at 485.
The Court also pointed to the statute’s threshold requirement that a party can sue only when the waste “may
present an imminent and substantial endangerment to
health or the environment.” § 6972(a)(1)(B). “The meaning
of this timing restriction [was] plain” to the Court:
“[S]ection 6972(a) was designed to provide a remedy that
ameliorates present or obviates the risk of future ‘imminent’ harms, not a remedy that compensates for past
cleanup efforts.” Meghrig, 516 U.S. at 485–86.
Finally, the Court looked to “[o]ther aspects of [the]
RCRA’s enforcement scheme.” Id. at 486. Unlike
CERCLA, the RCRA’s citizen-suit provision lacks a statute
of limitations or a requirement that any recovered costs
must be reasonable. The Court reasoned that “[i]f Congress had intended § 6972(a) to function as a cost-recovery
mechanism, the absence of these provisions would be striking.” Id. The RCRA also halts citizen suits when the EPA or
a state pursues an enforcement action, and it requires plaintiffs to give 90-days’ notice to potential defendants before
suing. See id. These two requirements made § 6972(a) a
“wholly irrational mechanism” for remedying past harms. Id.
The Court then acknowledged the “line of cases holding
that district courts retain inherent authority to award any
equitable remedy that is not expressly taken away from
them by Congress.” Id. at 487 (citing Porter, 328 U.S. 395).

31a
But these cases couldn’t support an implied restitution
remedy. As the Court put it:
[T]he limited remedies described in § 6972(a), along
with the stark differences between the language of
that section and the cost-recovery provisions of
CERCLA, amply demonstrate that Congress did
not intend for a private citizen to be able to undertake a cleanup and then proceed to recover its costs
under [the] RCRA. . . . [W]here Congress has provided elaborate enforcement provisions for remedying the violation of a federal statute, as Congress
has done with [the] RCRA and CERCLA, it cannot
be assumed that Congress intended to authorize by
implication additional judicial remedies for private
citizens suing under the statute. It is an elemental
canon of statutory construction that where a statute
expressly provides a particular remedy or remedies,
a court must be chary of reading others into it.
Id. at 487–88 (quotation marks omitted). Notwithstanding
Porter, the Court held that § 6972(a) does not “contemplate
the award of past cleanup costs.” Id. at 488.
Since Meghrig, the Court has adhered to this more limited understanding of judicially implied remedies. See, e.g.,
Great-West, 534 U.S. at 209 (“We have therefore been
especially reluctant to tamper with the enforcement
scheme embodied in [ERISA] by extending remedies not
specifically authorized by its text.”) (quotation marks and
alteration omitted); Miller v. French, 530 U.S. 327, 340
(2000) (concluding that the plain meaning of a provision
expressed the congressional intent to displace equitable
authority); see also Armstrong v. Exceptional Child Ctr.,
Inc., 135 S. Ct. 1378, 1385 (2015) (holding that the Medicaid
Act’s provision of a specific remedy and the judicially un-

32a
administrable nature of the relevant statutory provision
“preclude[d] the availability of equitable relief ” in section
30(A) of the statute); Gebser, 524 U.S. at 284 (holding that
courts cannot enlarge the “scope of available remedies”
under an implied right of action “in a manner at odds with
the statutory structure and purpose”). Rather than presuming that Congress authorizes the judiciary to supplement express statutory remedies, the Court now recognizes that “the express provision of one method of enforcing a
substantive rule suggests that Congress intended to preclude others.” Armstrong, 135 S. Ct. at 1385.
4. Revisiting Amy Travel
As this perhaps drawn-out discussion shows, an exploration of statutory purpose is no longer the Supreme
Court’s polestar in cases raising interpretive questions
about the scope of statutory remedies, and that shift has
unsettled Porter’s and Mitchell’s instruction to “provide
complete relief in light of the statutory purposes.” Mitchell, 361 U.S. at 292; see also Singer, 668 F.2d at 1113
(grounding its reading of section 13(b) on this premise). See
generally Manning, supra, at 23 (“[W]here ‘the statutory
language is clear,’ the Court has disclaimed the need even
‘to reach arguments based on statutory purpose[ ] [or]
legislative history.’ ” (quoting Boyle v. United States, 556
U.S. 938, 950 (2009))); WILLIAM N. ESKRIDGE JR.,
INTERPRETING LAW: A PRIMER ON HOW TO READ
STATUTES AND THE CONSTITUTION 81 (2016) (“We are all
textualists. That means that a judge must relate all sources
of and arguments about statutory interpretation to a text
the legislature has enacted.”). Indeed, the Court has
“abandoned” its prior understanding that judges must “be
alert to provide such remedies as are necessary to make
effective the congressional purpose expressed by a stat-

33a
ute.” Alexander v. Sandoval, 532 U.S. 275, 287 (2001) (quotation marks omitted); accord Ziglar v. Abbasi, 137 S. Ct.
1843, 1855 (2017). It is now well settled that Congress, not
the judiciary, controls the scope of remedial relief when a
statute provides a cause of action. See Armstrong, 135 S.
Ct. at 1385 (“Courts of equity can no more disregard statutory and constitutional requirements and provisions than
can courts of law.”) (quotation marks omitted); Thomas W.
Merrill, The Disposing Power of the Legislature, 110
COLUM. L. REV. 452, 465–66 (2010).
Whatever strength Porter and Mitchell retain, Meghrig
clarifies that they cannot be used as Amy Travel saw
them—a license to categorically recognize all ancillary
forms of equitable relief without a close analysis of statutory text and structure. To be sure, the Court still presumes
that courts retain their “traditional equitable authority.”
Miller, 530 U.S. at 340. But even under Porter and Mitchell, this authority comes with an important qualifier: “unless otherwise provided by statute.” Porter, 328 U.S. at
398; Mitchell, 361 U.S. at 291. Unsurprisingly, every appellate court to consider the relationship between Meghrig,
Porter, and Mitchell recognizes that Meghrig reinforced
and clarified this qualifier.
Some circuits have concluded that a statute displaces
equitable authority when it specifies a particular remedy.
See Owner-Operator Indep. Drivers Ass’n, Inc. v. Swift
Transp. Co., 632 F.3d 1111, 1121 (9th Cir. 2011) (finding
that a statutory provision allowing a person to seek “injunctive relief ” acted “to the exclusion of other equitable
remedies”); Landstar Sys., 622 F.3d at 1324 (noting that
the statute at issue authorized only injunctions and concluding that if it “allowed for restitution or disgorgement,
it would have so stated”). Others more narrowly construe

34a
Meghrig as a command that “courts must consider a statute’s remedial scheme” when determining whether a statute displaces equitable authority. See United States v. Lane
Labs-USA Inc., 427 F.3d 219, 235 (3d Cir. 2005); see also
United States v. Rx Depot, Inc., 438 F.3d 1052, 1057 (10th
Cir. 2006) (reading Meghrig as showing that “a statute’s
particular characteristics” can displace equitable authority).
The D.C. Circuit thoroughly examined the effect of Meghrig in United States v. Philip Morris USA, Inc., 396 F.3d
1190 (D.C. Cir. 2005). Harmonizing Meghrig and Porter, it
held that a statute’s “comprehensive and reticulated scheme,
along with the plain meaning of the words themselves, serves
to raise a necessary and inescapable inference, sufficient
under Porter, that Congress intended to limit relief.” Id. at
1200 (quotation marks and citation omitted).
We don’t need to plant ourselves firmly along this doctrinal spectrum to decide this case. It’s inescapable that
Meghrig not only displaced Amy Travel’s categorical approach to judicially implied remedies but also its interpretation of section 13(b). Every one of Meghrig’s reasons for
refusing to find restitutionary authority in the RCRA
applies with equal force to section 13(b).
Like the RCRA, section 13(b)’s plain text doesn’t contemplate an award of restitution. See Meghrig, 516 U.S. at
484. It authorizes only temporary restraining orders and
injunctions. And like the relationship between the RCRA
and CERCLA, the relationship between section 13(b),
§ 45(l), and § 57b(b) “is telling.” Id. at 485. Both § 45(l) and
§ 57b(b) expressly authorize additional equitable remedies.
§ 45(l) (“mandatory injunctions and such other and further
equitable relief as [courts] deem appropriate”); § 57b(b)
(“such relief as the court finds necessary . . . , [including]

35a
the refund of money or return of property”). Section 13(b)
lacks comparable language.
Meghrig also instructs us to interpret remedial language with reference to “the harm at which it is directed.”
516 U.S. at 485. While the FTCA’s express restitution
provisions authorize the Commission to sue for past conduct, to proceed under section 13(b), the Commission must
reasonably believe that a person “is violating” or “about to
violate” the law. § 53(b)(1); cf. § 45(b) (empowering the
Commission to bring a cease-and-desist action when it
reasonably believes someone “has been or is” violating the
act). As with the RCRA, “[t]he meaning of this timing
restriction is plain.” Meghrig, 516 U.S. at 485. Section 13(b)
“was designed to provide a remedy that ameliorates present or obviates the risk of future ‘imminent’ harms, not a
remedy that compensates” for past violations. Id. at 486.
Further, as we’ve explained, section 13(b) is procedurally incompatible with restitution. For example, before invoking section 13(b), the Commission must reasonably believe
that stopping an ongoing or imminent violation is in the
public interest. § 53(b)(2). And the statute dissolves a preliminary injunction if the Commission doesn’t begin an
administrative proceeding before a court-set deadline.
§ 53(b). But the Commission would have no need for an
administrative proceeding if it can get complete restitutionary relief through section 13(b)’s permanent-injunction
provision. In short, section 13(b)’s prerequisites, like those
in the RCRA, make it a “wholly irrational mechanism” for
remedying past harms. Meghrig, 516 U.S. at 486.
Relatedly, unlike § 57b(b), section 13(b) has no statute
of limitations. The absence of a limitations period in the
RCRA was “striking” to the Meghrig Court and provided
strong evidence that the RCRA’s injunction provision did

36a
not implicitly authorize restitution. Id. The same is true
here.
Section 13(b) also lacks a central feature of the FTCA
provisions that expressly permit monetary relief: a notice
requirement. When the Commission brings an administrative cease-and-desist action, it can secure restitution only
by proving that the violation occurred after its order became final or that “a reasonable man” would have known
that the conduct was fraudulent. §§ 45(l); 57b(a)(2). And
notice is also baked into the Commission’s power to promulgate and enforce rules. The Commission must follow
detailed procedures before promulgating a final rule. See
id. § 57a(b)(1) (requiring publication of notice and an informal hearing for rulemaking). Moreover, final rules must
“define with specificity” the prohibited acts. § 57a(a)(1)(B).
The Supreme Court has held that similar provisions are
crucial to determining the remedial scope of implied rights
of action, a closely related context: “It would be unsound
. . . for a statute’s express system of enforcement to require
notice to the recipient and an opportunity to come into
voluntary compliance while a judicially implied system of
enforcement permits substantial liability without regard to
the recipient’s knowledge or its corrective actions upon
receiving notice.” Gebser, 524 U.S. at 289. We face the same
unsound result here: Reading an implied restitution remedy into section 13(b) allows the Commission to circumvent
the FTCA’s detailed notice requirements.
Finally, we note that the difference in plaintiffs—
private citizens in Meghrig and a federal agency here—
isn’t material. To be sure, when “the public interest is involved in a proceeding,” a court’s “equitable powers assume an even broader and more flexible character than
when only a private controversy is at stake.” Porter, 328

37a
U.S. at 398; accord Kansas v. Nebraska, 574 U.S. 445
(2015). But the public interest doesn’t turn on the identity
of the parties involved.
Virginian Railway Co. v. System Federation No. 40,
300 U.S. 515, 552 (1937), the authority Porter cited to invoke the “public interest,” is instructive on this point. Even
though the suit was between a railroad company and a
union, the Court determined that “[m]ore [was] involved
than the settlement of a private controversy.” Id. “The
peaceable settlement of labor controversies . . . is a matter
of public concern.” Id.; see also id. (“The fact that Congress has indicated its purpose to make negotiation obligatory is in itself a declaration of public interest and policy
. . . .”). Presaging Porter, the Court observed that “[c]ourts
of equity may, and frequently do, go much farther both to
give and withhold relief in furtherance of the public interest than they are accustomed to go when only private interests are involved.” Id.; cf. Gen. Tel. Co. of the Nw., Inc. v.
EEOC, 446 U.S. 318, 326 & n.8 (1980) (“When the EEOC
acts, albeit at the behest of and for the benefit of specific
individuals, it acts also to vindicate the public interest in
preventing employment discrimination.” (citing Porter, 328
U.S. at 397–98)).
Under Virginian Railway Co., both Meghrig and this
case implicate the public interest. Both involve enforcing
federal statutory obligations, and both involve matters of
“public concern”—environmental cleanup and consumer
protection. Even so, Meghrig did not find an implied right
to restitution in the RCRA. So the fact that the government is the plaintiff here does not affect the analysis. Consider United States v. Apex Oil Co., in which we examined
Meghrig’s impact on 42 U.S.C. § 6973(a), the RCRA’s government-suit provision. 579 F.3d 734 (7th Cir. 2009). We did

38a
not draw a distinction between the RCRA’s government
and citizen-suit provisions. Observing that the provisions
use “identical language,” we concluded that the RCRA
“entitles the government only to require the defendant to
clean up the contaminated site at the defendant’s expense.”
Id. at 737. We then announced that our “[e]arlier cases, . . .
which allowed an award of clean-up costs on the basis of
general equitable principles set forth in such cases as
Mitchell v. Robert De Mario Jewelry, Inc., and Porter v.
Warner Holding Co., are dead after Meghrig.” Id. (citations omitted).
Although section 13(b) doesn’t use identical language as
the RCRA’s citizen-suit provision, Meghrig remains materially indistinguishable. So we must pay close attention to
its bottom line: “[W]here Congress has provided elaborate
enforcement provisions for remedying the violation of a
federal statute, . . . it cannot be assumed that Congress
intended to authorize by implication additional judicial
remedies . . . .” Meghrig, 516 U.S. at 487–88 (emphasis
added) (quotation marks omitted); see also Gebser, 524
U.S. at 290 (“Where a statute’s express enforcement
scheme hinges its most severe sanction on notice and unsuccessful efforts to obtain compliance, we cannot attribute
to Congress the intention to have implied an enforcement
scheme that allows imposition of greater liability without
comparable conditions.”) (emphasis added).
Our limited analysis in Amy Travel doesn’t offer a way
to distinguish Meghrig. It instead requires us to ignore
section 13(b)’s text and disregard the FTCA’s “elaborate
enforcement provisions.” In light of the Court’s commands
in Meghrig, our holding in Amy Travel is no longer viable.
Conversely, reading section 13(b) as authorizing only injunctive relief—that is, reading it to mean what it plainly

39a
says—harmonizes Meghrig with Porter and Mitchell,
which also called for a statute-specific and remedy-specific
inquiry before authorizing an implied form of relief. See,
e.g., Porter, 328 U.S. at 403 (holding that a separate cause
of action for damages was enough to preclude courts from
inferring that remedy elsewhere).
We recognize that this conclusion departs from the consensus view of our sister circuits. But when deciding
whether we should overturn precedent, “[w]e are not merely to count noses. The parties are entitled to our independent judgment.” United States v. Hill, 48 F.3d 228, 232 (7th
Cir. 1995). And we must break from our colleagues. As
noted, most circuits adopted their position by uncritically
accepting our holding in Amy Travel, which expanded on
Elders Grain, which expanded on Singer, which expanded
on Porter and Mitchell. No circuit has examined whether
reading a restitution remedy into section 13(b) comports
with the FTCA’s text and structure. Nor has anyone determined whether § 45 forecloses this remedy. And although some have briefly discussed § 57b, they have done so
only to find refuge in the saving clause in § 57b(e). Perhaps
most importantly, no circuit has ever considered the effect
of Meghrig in a section 13(b) case.
We are well aware that we need a compelling reason to
overturn circuit precedent. “However, important as stare
decisis is, it is equally important for us to respect the statutes that Congress has passed and to correct any problems
we see in our prior interpretations of those statutes.” Ahng
v. All-steel, 96 F.3d 1033, 1037 (7th Cir. 1996); see also S. Ill.
Power Coop. v. EPA, 863 F.3d 666, 673 (7th Cir. 2017) (noting that statutory stare decisis “is not without limits”).
Even in the realm of statutory interpretation, a Supreme
Court decision “on an analogous issue that compels us to

40a
reconsider our position” counts as a compelling reason to
overturn precedent. Glaser, 570 F.3d at 915. We cannot
favor our own decisions over those of the Supreme Court.
Stare decisis alone cannot overcome Amy Travel’s clear
incompatibilities with the FTCA’s text and structure, Meghrig, and the Supreme Court’s broader refinement of its
implied remedies jurisprudence. We therefore hold that
section 13(b)’s permanent-injunction provision does not
authorize monetary relief.4
III. Conclusion
For the foregoing reasons, we VACATE the restitution
award. In all other respects, we AFFIRM the judgment.

Because we hold that section 13(b) doesn’t authorize monetary relief, we have no need to consider Brown’s alternative arguments that
the Commission can’t pursue penalties or legal—as distinct from
equitable—restitution under section 13(b). See FTC v. AMG Capital
Mgmt., LLC, 910 F.3d 417, 429 (9th Cir. 2018) (O’Scannlain, J., concurring) (discussing these arguments). We also don’t need to consider the
district court’s asset-freeze determinations.
4

41a
WOOD, Chief Judge, with whom ROVNER and
HAMILTON, Circuit Judges, join, dissenting from the denial
of rehearing en banc. For decades, this court has successfully used a local rule, Circuit Rule 40(e), for two important
purposes: to highlight a decision to create a conflict in the
circuits, and to clean up earlier decisions whose soundness
has been undermined by later legislation, Supreme Court
activity, or a consensus among our sister circuits. Yet we
have taken care not to use Rule 40(e) in a way that defeats
our profound commitment to oral argument—a commitment that sets us apart from most of the other circuits, and
one that consistently improves the quality of our decisionmaking. The opportunity to ask questions of counsel, to
hear the questions of fellow judges, and to have a full debate after argument regularly reveals aspects of a case
that even the most thorough reading of the briefs on one
judge’s part cannot provide.
The majority, however, has chosen to use Rule 40(e) in
the case now before us. It is a singularly inappropriate case
for that treatment: it overrules not only a long-standing
decision from this court, FTC v. Amy Travel Serv., Inc.,
875 F.2d 564 (7th Cir. 1989), but it also pays no heed to the
fact that eight other circuits agree with the Amy Travel
approach. See Brief of the Federal Trade Commission at 28
n. 12. Perhaps if a recent Supreme Court decision demanded that sea change, the majority’s opinion would be defensible. But there is no such decision. Instead, the majority
extrapolates from the line of cases addressing whether a
private party has an implied right of action to the issue
presented here: whether a government agency, the Federal
Trade Commission, which enjoys an express right of action
under a statute for injunctive relief, is entitled to a restitutionary remedy that is ancillary to, or part of, the injunction.

42a
To my knowledge, no court has ever tied the hands of a
government agency in the way that the majority has done
here, and the majority cites none. It has taken this step
without the careful consideration that plenary en banc
review would have provided. I am reminded of the words
spoken by Gaius Julius Caesar in 49 B.C.E., as he approached the Rubicon river at the head of his army. He
knew that the Roman Senate forbade any armed force to
enter Rome. But he decided to flout that command, and as
he marched with his troops across the river, he is said to
have proclaimed “alea iacta est” – the die is cast. And indeed it was. Caesar’s act led to civil war and eventually the
end of the Roman Republic; he became dictator for life and
inaugurated the Roman Empire. See, e.g., Meaning Behind
the Phrase to Cross the Rubicon, https://www.thoughtco.
com/meaning-cross-the-rubicon-117548. I devoutly hope
that the majority here has not cast the die in a way that
will transform Rule 40(e) from an efficiency-promoting rule
for relatively routine updates to our circuit law into something that erodes our commitment to plenary consideration, along with oral argument, of every fully counseled
case. Time will tell. But the Rule is surely being misused in
this case. Perhaps that would not matter if no reasonable
person could question the correctness of the majority’s
reasoning. Regrettably, that is not the case. From the materials now before us, I believe that the court is making a
mistake, and it is doing so in a procedurally inappropriate
way.
The central issue in the case relates to the proper interpretation of section 13(b) of the FTC Act, 15 U.S.C.
§ 53(b), which authorizes the Commission to sue for injunctive relief. Injunctions come in all shapes and sizes: some
are prohibitory, some are mandatory, some include submis-

43a
sion to an equitable master, some include reporting requirements, and many include ancillary measures that are
designed to ensure that the injunction is effective. At least
since our decision in Amy Travel, the Federal Trade Commission has understood that its authority to seek an injunction from the court includes the authority to seek a measure commanding the defendant to disgorge unlawfully
acquired money or property. In other words, the injunction
may include an order from the court for the disgorgement
type of restitution.
Obviously the restitution itself is not an “injunction,”
any more than the master is an “injunction,” or the reporting requirements are an “injunction.” The injunction is the
order from the court either to do something or to refrain
from doing something. Black’s Law Dictionary lists 25
different types of injunctions under that general heading.
See entry for “injunction,” Black’s Law Dictionary at 904–
05 (10th ed. 2014). The term “injunction” itself is defined
simply as “A court order commanding or preventing an
action.” Id. A “mandatory injunction” is one “that orders
an affirmative act or mandates a specified course of conduct.” Id. Nothing whatever in section 13(b) deletes from
the list of possible affirmative acts that an injunction may
include an order requiring the enjoined party to return illgotten gains, or to pay money into a court escrow account,
or otherwise to turn over property. That should be enough
by itself to show the error in the path the majority has
taken.
The majority rejects this straightforward reading of
the statute and argues to the contrary that “the textual
case in the FTCA against implying restitution in section
13(b) is overwhelming.” But more than rhetoric is needed
to establish that point. From my standpoint, if the text is

44a
overwhelming at all, I find it overwhelmingly to support
the power of the FTC to use any of the tools that Congress
gave it, including the one it used here, which entitles it to
seek injunctive relief from a court.
The Supreme Court supported the approach I would
take in California v. American Stores Co., 495 U.S. 271
(1990). There the question was whether “divestiture is a
form of injunctive relief within the meaning of ” section 16
of the Clayton Act, 15 U.S.C. § 26. 495 U.S. at 275. After
the FTC had decided not to challenge a merger of certain
grocery stores in California, the merger was consummated.
The next day, however, the State of California filed an
action in federal court alleging that the merger violated
section 1 of the Sherman Act, 15 U.S.C. § 1, and seeking
“an injunction requiring American to divest itself of all of
[the acquired firm’s] assets and businesses in the State of
California.” 495 U.S. at 276. The district court had granted
a preliminary injunction along those lines, but the Ninth
Circuit reversed on the ground that the injunctive relief
authorized by the statute did not include divestiture. The
Supreme Court reversed the court of appeals, finding that
“the statutory language [of section 16] indicates Congress’
intention that traditional principles of equity govern the
grant of injunctive relief.” Id. at 281. An order of divestiture is almost identical to an order requiring equitable
restitution: both require the wrongdoer to turn over property that was unlawfully obtained. Similarly, the language
of section 16 of the Clayton Act is not materially different
from the language of section 13(b) of the FTC Act. In my
view, the majority’s approach conflicts with the most closely applicable Supreme Court decision.
This is especially troubling because the majority has
not pointed to any case in which the Supreme Court has

45a
said that a federal agency must avoid one type of remedial
authority it holds and instead use a different type. That,
effectively, is what the majority has done here, in its discussion of the various tools the FTC Act provides for enforcement of the prohibition against unfair or deceptive
trade practices. Ante at 11. The Commission may use its
“cease and desist” power in an administrative proceeding,
see FTC Act § 5(b), 15 U.S.C. § 45(b); it may, after providing notice to the Attorney General under section 16 of the
FTC Act, 15 U.S.C. § 56, sue someone who violates a ceaseand-desist order, see FTC Act § 5(l)–(m), 15 U.S.C. § 45(l)–
(m); it may promulgate rules that define unfair or deceptive practices, FTC Act § 18, 15 U.S.C. § 57a; or it may (as
it did here) file a suit in federal court for an injunction,
FTC Act § 13(b), 15 U.S.C. § 53(b).
The Supreme Court recognizes that agencies have
broad discretion in their choice of which of several authorized procedural tools they wish to use as they carry out
their mission. The best-known example of this practice
comes from the field of labor law. The National Labor
Relations Board has both rulemaking power, see 29 U.S.C.
§ 156, and adjudicatory powers, see 29 U.S.C. § 160. The
Board does not, however, follow the practice of using its
rulemaking powers when it announces new rules; it prefers
to proceed on a case-by-case basis through the adjudicative
process. See, e.g., Mark H. Grunewald, The NLRB’s First
Rulemaking: An Exercise in Pragmatism, 41 DUKE L.J.
273 (1991). Over the years people have challenged this
choice on the ground that the Board is evading the detailed
protections for rulemaking that Congress has provided in
the Administrative Procedure Act, 5 U.S.C. § 553, but the
Supreme Court has always rejected those arguments. See,
e.g., NLRB v. Bell Aerospace Co. Div. of Textron, Inc., 416

46a
U.S. 267 (1974), confirming the rule from NLRB v. Wyman-Gordon Co., 394 U.S. 759 (1969), to this effect. As the
Bell Aerospace opinion put it, “[t]he views expressed in
Chenery II and Wyman-Gordon make plain that the Board
is not precluded from announcing new principles in an
adjudicative proceeding and that the choice between rulemaking and adjudication lies in the first instance within the
Board’s discretion. Although there may be situations
where the Board’s reliance on adjudication would amount
to an abuse of discretion or a violation of the Act, nothing in
the present case would justify such a conclusion.” 416 U.S.
at 294.
I can think of no principled reason why the Labor
Board should have that discretion, but the FTC should not.
The majority argues to the contrary from a line of cases
that is inapposite. It conflates decisions about which plaintiffs are authorized to bring a suit (the implied-right-ofaction line) with the distinct question about what remedies
are available to a party that is expressly authorized by
statute to sue, as the FTC surely is here. The cases on
which the panel relies all involve private enforcement,
where the Court has warned us to ensure that we should
not permit a facile work-around to a complex enforcement
system. See, e.g., Middlesex Cnty. Sewerage Auth. v. Nat’l
Sea Clammers Ass’n, 453 U.S. 1, 14 (1981). A case involving public enforcement is quite different. If the agency
believes that Path A has certain advantages and downsides,
while Path B has different plusses and minuses, neither
approach should be read out of the statute. Both are available to the agency, and each one will serve its intended
functions, constrained by its safeguards.
The majority thinks that it would be “wholly irrational”
for Congress to write a statute that provides for restitution

47a
as part of a 13(b) temporary restraining order, preliminary
injunction, or permanent injunction, while also spelling out
less-streamlined options for the Commission to pursue. But
this ignores real differences among its options. Perhaps,
because of the risk of dissipation of ill-gotten gains, the
Commission might want restitution to begin right away
while the case is pending, e.g., through payment into a
court-operated escrow account; in order to do that, it can
seek a preliminary injunction for the turn-over of funds. In
another case, the Commission might prefer to use the
cease-and-desist route and develop the factual record
through its own administrative processes—ensuring judicial deference to its fact-finding down the road—rather
than operate under the thumb of a court.
Branding such a scheme as “wholly irrational” is unwarranted without a more focused examination of why the
Commission might choose one route or another—a choice,
I reiterate, that we usually allow agencies to make. Cf. Bell
Aerospace, 416 U.S. at 294–95 (concluding that agency has
power to choose adjudication or rulemaking as a means to
announce new principles while examining agency’s legitimate reasons for pursuing one or the other method of
proceeding). Such an inquiry requires a deferential look at
why Congress gave the agency a menu of options. That is
just what Congress did in the FTC Act. The statute gives
the Commission the ability to move unilaterally when it
uses its rulemaking or cease-and-desist powers, and to act
as a party before the court if it wants a preliminary or
permanent injunction. It is not up to us to take away that
which Congress gave.
Another inapposite line of cases on which the majority
relies addresses implied private rights of action—a problem we surely do not have here. See, e.g., Alexander v.

48a
Sandoval, 532 U.S. 275 (2001). Rather than a private party,
we have a government agency, and rather than an implied
right of action, we have an express statutory provision
authorizing the agency to seek injunctive relief. That
makes a difference. Indeed, in a number of areas—antitrust,
securities regulation, RICO—the Supreme Court has begun
drawing a distinction between the breadth of a private right
of action and the greater breadth appropriate for public
enforcement. Thus, in RJR Nabisco Inc. v. European
Community, 136 S. Ct. 2090 (2016), the Court found that
private parties (including for this purpose the European
Community, which had no special governmental status under the applicable law) cannot enforce RICO extraterritorially, but that the U.S. government stands in a different
position. The Court made the same point in F. Hoffman-La
Roche Ltd. v. Empagran S.A., 542 U.S. 155 (2004):
In all three cases [on which the Empagran plaintiffs
relied], however, the plaintiff was the Government
of the United States. A Government plaintiff, unlike
a private plaintiff, must seek to obtain the relief
necessary to protect the public from further anticompetitive conduct and to redress anticompetitive
harm. And a Government plaintiff has legal authority broad enough to allow it to carry out this mission.
15 U.S.C. § 25 . . . . Private plaintiffs, by way of contrast, are far less likely to be able to secure broad
relief. See California v. American Stores Co., 495
U.S. 271, 295 (1990) (“Our conclusion that a district
court has the power to order divestiture in appropriate cases brought [by private plaintiffs] does not,
of course, mean that such power should be exercised
in every situation in which the Government would
be entitled to such relief . . . .”); 2 P. Areeda,

49a
Hovenkamp & R. Blair, Antitrust Law ¶¶ 303d–
303e, pp. 40–45 (2d ed. 2000) (distinguishing between private and government suits in terms of
availability, public interest motives, and remedial
scope) . . . . This difference means that the Government’s ability, in these three cases, to obtain relief helpful to those injured abroad tells us little or
nothing about whether this Court would have
awarded similar relief at the request of private
plaintiffs.
Id. at 170–71.
The panel’s effort to explain why injunctive relief cannot include an order to disgorge money by reference to
Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338 (2011), is no
more successful. Wal-Mart was a class action case, through
and through. Most of it deals with the inappropriateness of
a money-damages action under Federal Rule of Civil Procedure 23(b)(3) for the sprawling and unmanageable class
that the plaintiffs had proposed. But the Court also addressed the plaintiffs’ back-up position, which was their
effort to certify a class for backpay claims under Rule
23(b)(2). Subpart (b)(2) of the rule allows a class if “the
party opposing the class has acted or refused to act on
grounds that apply generally to the class, so that final
injunctive relief or corresponding declaratory relief is
appropriate respecting the class as a whole.” Note the
emphasis in this language on general grounds, and relief
that works for the class as a whole. As the Court pointed
out, that unity of interests is especially critical in a (b)(2)
class, because the unnamed class members have no right to
notice and the chance to opt out of such a class, yet they
would be bound by the outcome of the lawsuit. Those concerns are miles away from what we have in this case.

50a
What the Court said in Wal-Mart is that claims for
monetary relief cannot be certified “at least where (as
here) the monetary relief is not incidental to the injunctive
or declaratory relief.” 564 U.S. at 360. It went on to explain
itself as follows:
One possible reading of [Rule 23(b)(2)] is that it applies only to requests for such injunctive or declaratory relief and does not authorize the class certification of monetary claims at all. We need not reach
that broader question in this case, because we think
that, at a minimum, claims for individualized relief
(like the backpay at issue here) do not satisfy the
Rule. The key to the (b)(2) class is “the indivisible
nature of the injunctive or declaratory remedy warranted—the notion that the conduct is such that it
can be enjoined or declared unlawful only as to all of
the class members or as to none of them.” Nagareda, 84 N.Y.U.L.Rev., at 132. In other words, Rule
23(b)(2) applies only when a single injunction or declaratory judgment would provide relief to each
member of the class. It does not authorize class certification when each individual class member would
be entitled to a different injunction or declaratory
judgment against the defendant. Similarly, it does
not authorize class certification when each class
member would be entitled to an individualized
award of monetary damages. . . .
Given that structure, we think it clear that individualized monetary claims belong in Rule 23(b)(3). The
procedural protections attending the (b)(3) class—
predominance, superiority, mandatory notice, and
the right to opt out—are missing from (b)(2) not because the Rule considers them unnecessary, but be-

51a
cause it considers them unnecessary to a (b)(2)
class. When a class seeks an indivisible injunction
benefitting all its members at once, there is no reason to undertake a case-specific inquiry into whether class issues predominate or whether class action
is a superior method of adjudicating the dispute.
Predominance and superiority are self-evident. But
with respect to each class member’s individualized
claim for money, that is not so—which is precisely
why (b)(3) requires the judge to make findings
about predominance and superiority before allowing
the class.
Id. at 360–63.
One cannot read this excerpt—lengthy in order to ensure that the full context comes through—without seeing
that the Court was concerned solely about which type of
class action should be used where money is concerned. No
such problem is possible in the case before us. First, since
there is only one plaintiff—the Commission—we have no
unnamed class members to worry about. Second, the court
in our case does not need to worry about individualized
relief. The FTC is itself entitled to seek relief on behalf of
those injured by Credit Bureau’s misdeeds. Cf. EEOC v.
Bd. of Regents of the Univ. of Wis. Sys., 288 F.3d 296, 300
(7th Cir. 2002) (EEOC may pursue age-discrimination case
against a state entity on behalf of individual employees,
even though individual cases would be barred by the state’s
sovereign immunity).
Credit Bureau must merely turn over to the FTC a single lump sum representing the total restitution due. This is
the end of the court’s involvement with the equitable relief
in this case. As the district court wrote, “[j]udgment in the
amount of Five Million, Two Hundred Sixty Thousand, Six

52a
Hundred Seventy-One and Thirty-Six Cents (“5,260,671.36”)
is entered in favor of the Commission against Defendants,
jointly and severally, as equitable monetary relief. Defendants are ordered to pay to the Commission [$5,260,671.36].
Such payment must be made within 7 days of entry of this
Order . . .” Final Judgment and Order for Permanent Injunction and Other Equitable Relief Against Defendants
Credit Bureau Center, LLC and Michael Brown (Kennelly,
J.) (June 26, 2018) (emphasis added). It then falls to the
Commission to craft a plan to return the ill-gotten gains to
each person who was harmed, where possible, and then turn
over the remaining money to the Treasury. See FTC Office
of Claims and Refunds Annual Report 2017,
https://www.ftc.gov/system/files/documents/reports/bureauconsumer-protection-office-claims-refunds-annual-report2017-consumer-refunds-effectedjuly/redressreportformatedforweb122117.pdf. There is no risk that an unnamed
class member’s claim would be lost through the operation
of the law of preclusion. There is no risk, as in Wal-Mart,
that the court would need to “reevaluate the roster of class
members continually,” id. at 364. Nor, in contrast to WalMart, does this case present the problem of internal conflict within a class. Id. at 365. Instead, the restitution issue
can be resolved in “one stroke.” Id. at 350. In sum, nothing
in Wal-Mart says that an injunction to turn over wrongfully acquired property (here, in the form of money) to a
government agency is in any way objectionable.
I next turn to the Supreme Court’s decision in Meghrig
v. KFC Western, Inc., 516 U.S. 479 (1996), on which the
majority relies so heavily. The issue in Meghrig was
“whether § 7002 of the Resource Conservation and Recovery Act of 1976 (RCRA), 42 U.S.C. § 6972, authorizes a
private cause of action to recover the prior cost of cleaning

53a
up toxic waste that does not, at the time of suit, continue to
pose an endangerment to health or the environment.” 516
U.S. at 481. In order to answer that question, the Court
had to construe the citizen-suit provision of RCRA, 42
U.S.C. § 6972(a). It held that two requirements of section
6972 defeated plaintiff KFC’s suit: first, the citizen-suit
provision reaches only imminent and substantial harms,
not past problems that have been addressed; and second,
the remedial language focuses only on the restraint of
ongoing clean-up and disposal problems, not on past cleanup costs (“whether [those] are denominated ‘damages’ or
‘equitable restitution’ ”). 516 U.S. at 484.
This was a pure question of statutory interpretation.
The relevant part of RCRA authorized a citizen suit
“against any person . . . who has contributed or who is
contributing to the past or present handling, storage,
treatment, transportation, or disposal of any solid or hazardous waste which may present an imminent and substantial endangerment to health or the environment.” 42
U.S.C. § 6972(a)(1)(B) (emphasis added). The Court gave
that provision its natural reading—that is, as something
that did not include a remedy for past cleanup costs. Id. at
485. It emphasized in that connection the importance of the
imminence requirement, which entirely ruled out any form
of relief, however labeled, for a fixed sum representing past
expenditures. Only in that context did the Court reject the
argument that a plaintiff “could seek equitable restitution
of money previously spent on cleanup efforts.” Id. at 487.
General rules about equitable powers were of no importance for a statute that drew the temporal line at problems that are “imminent and substantial.” Id. Interestingly,
the Court declined to rule on the question “whether a
private party could seek to obtain an injunction requiring

54a
another party to pay cleanup costs which arise after a
RCRA citizen suit has been properly commenced . . . .” Id.
at 488. That reservation proves that the Court was not
ruling out equitable turn-over of funds, period. It was
simply saying that past expenditures were not covered by
the statute in front of it.
So even Meghrig itself, a case involving private plaintiffs, did not purport categorically to exclude from injunctive relief an order to make payments. It is thus all the
more remarkable that the majority interprets Meghrig to
impose such a limitation on the relief that a government
plaintiff can seek. As the majority acknowledges, “when
‘the public interest is involved in a proceeding,’ a court’s
‘equitable powers assume an even broader and more flexible character than when only a private controversy is at
stake,’ ” ante at 784, quoting Porter v. Warner Holding Co.,
328 U.S. 395, 398 (1946). But it then goes on to postulate
that “the public interest doesn’t turn on the identity of the
parties involved.” Id. That is not accurate. One factor informing the public interest is whether it is the government
that is seeking relief. See, e.g., Winter v. Nat. Res. Defense
Council, Inc., 555 U.S. 7 (2008) (attaching great weight to
Navy’s interest in realistic training of sailors). The FTC’s
assessment of the public interest here informs the scope of
any injunctive relief it is seeking.
The presence of the government as a litigant is especially important to the public-interest component of the
analysis when the government seeks remedies that (1) lie
uniquely within its toolbox and (2) are aimed squarely at
undoing public harms and preventing future ones through
deterrence. As the Second Circuit has noted in a section
13(b) case of its own (discussed in further detail below),
this is precisely what the Commission seeks here by way of

55a
an injunction ordering equitable restitution in the form of
disgorgement. “[D]isgorgement is a distinctly publicregarding remedy, available only to government entities
seeking to enforce explicit statutory provisions.” FTC v.
Bronson Partners, LLC, 654 F.3d 359, 372 (2d Cir. 2011)
(affirming an injunction ordering “restitution” under 13(b)
authority and discussing the theory underlying what the
court understood to be equitable disgorgement).
The Supreme Court has explicitly recognized this feature of disgorgement in the SEC context. “SEC disgorgement is imposed by the courts as a consequence for violating what we described in Meeker as public laws. The violation for which the remedy is sought is committed against
the United States rather than an aggrieved individual—
this is why, for example, a securities-enforcement action
may proceed even if victims do not support or are not parties to the prosecution.” Kokesh v. SEC, 137 S. Ct. 1635,
198 L.Ed.2d 86 (2017). As the Court acknowledged in
Kokesh, this understanding of disgorgement permeates the
case law of our sister circuits as well. See SEC v. Teo, 746
F.3d 90, 102 (3d Cir. 2014) (“[T]he SEC pursues [disgorgement] independent of the claims of individual investors in
order to promot[e] economic and social policies”) (cleaned
up); SEC v. Rind, 991 F.2d 1486, 1491 (9th Cir. 1993)
(“[D]isgorgement actions further the Commission’s public
policy mission of protecting investors and safeguarding the
integrity of the markets”). Here, the FTC is seeking to
vindicate the public interest through a public-facing remedy aimed at an ongoing harm. That was not the case in
Meghrig, which was certainly about “environmental cleanup” but which rejected a backward-looking remedy that in
economic substance sought damages.

56a
The majority also asserts that cases decided since Meghrig demonstrate that it represented a sweeping rejection of
implied remedies. Ante at 33. It cites Great-West Life &
Annuity Ins. Co. v. Knudson, 534 U.S. 204 (2002); Miller v.
French, 530 U.S. 327 (2000); Armstrong v. Exceptional
Child Ctr., Inc., 135 S. Ct. 1378 (2015), and Gebser v. Lago
Vista Ind. Schl. Dist., 524 U.S. 274 (1998), for this proposition. None of those cases, however, addresses the situation
before us: a governmental plaintiff with an express right of
action, and an agency that seeks an injunction (also expressly authorized) ordering a wrongdoer to disgorge illgotten gains.
Great-West was brought by a private party under the
Employment Retirement Income Security Act (ERISA) to
compel a plan beneficiary to pay over money recovered
from a third-party tortfeasor to the plan. The Supreme
Court held that the petitioners essentially wanted “to impose personal liability on respondents for a contractual
obligation to pay money—relief that was not typically
available in equity.” Id. at 210. That took their request
beyond the bounds of equitable relief; as the Court put it,
“an injunction to compel the payment of money past due
under a contract was not typically available in equity.” Id.
There is not a hint of contract law in our case, and so
Great-West is not applicable. Miller is equally beside the
point. There, Congress had acted explicitly to limit the
equitable power of the district courts to enjoin the automatic stay provided by the Prison Litigation Reform Act.
530 U.S. at 331. The Supreme Court held that the statute
did not permit district courts to override that provision
with a “stay of the stay,” which is what the private litigants
sought. No such effort to undo a congressional prohibition
exists in our case. Armstrong and Gebser are even further

57a
afield. Armstrong holds only that neither the Supremacy
Clause (Art. VI, cl. 2 of the Constitution) nor the Medicaid
Act confers a private right of action on providers of rehabilitation services, whether for injunctive relief or anything
else. Gebser actually does recognize a limited implied private right of action for sexual harassment of schoolchildren. In short, nothing in Meghrig, and nothing in the
cases following Meghrig, comes close to holding that a
government agency acting pursuant to express authority to
seek injunctive relief cannot ask for a mandatory injunction requiring turn-over of money.
Given our decision to cast off a precedent that has guided both this court and other courts of appeals for decades,
I add a word about our now-abandoned decision in Amy
Travel, which held that the FTC is authorized to obtain
restitution as part of the injunctive relief covered by section 13(b). I already have explained why I believe that
ruling to be correct. My comments here address the majority’s effort to trivialize the fact that eight of our sister
circuits agree with Amy Travel’s holding. They brush off
this consensus with the accusation that these courts have
done so unthinkingly.
I find that charge quite unwarranted. In the interest of
space, I focus on only one of those other cases: the Second
Circuit’s opinion in Bronson, 654 F.3d 359 (Lynch, J.).
There, the FTC brought suit for an injunction against
Bronson for engaging in deceptive advertising of weightloss products. The district court “entered a permanent
injunction against Bronson and ordered it to pay $1,942,325
in monetary equitable relief plus statutory interest.” Id. at
362. Bronson argued, just as Brown and Credit Bureau
have here, that section 13(b) did not permit a court to order
monetary relief. The Second Circuit rejected that argu-

58a
ment, along with the narrower point that traceability of the
ill-gotten gains was essential. But it did so only after a
thorough and thoughtful consideration of Bronson’s argument.
After first noting that section 13(b) of the FTC Act
permits the FTC to seek permanent injunctive relief, the
Second Circuit noted that “courts have consistently held
that ‘the unqualified grant of statutory authority to issue
an injunction under [S]ection 13(b) carries with it the full
range of equitable remedies, including the power to grant
consumer redress and compel disgorgement of profits.’ ”
654 F.3d at 365. The Second Circuit explicitly joined that
consensus, holding that section 13(b) of the FTC Act permits courts to grant ancillary equitable relief, including
equitable monetary relief. Id.
The court then turned to the argument that any kind of
monetary award would be “an impermissible legal, rather
than equitable, award, because the [district] court failed to
identify particular funds in the defendants’ hands that
were specifically traceable to the fraudulently marketed
products.” Id. at 369. After a lengthy and scholarly discussion of the law of restitution, the Second Circuit concluded
that the disgorgement ordered in the case before it was a
permissible adjunct to the injunctive relief authorized by
section 13(b). This was so because “the district court’s
award satisfies the requirements of equitable disgorgement . . . .” Id. at 370.
The court went on to confirm that “disgorgement is a
well-established remedy in the Second Circuit,” often used
in actions under section 21(e) of the Securities Exchange
Act of 1934. That statute, which “authorizes an action to
enjoin violations of the securities laws, also permits the
district court to award disgorgement as an equitable ad-

59a
junct to its injunctive decree.” Id. at 372. Importantly,
“disgorgement—at least when sought by public agencies
such as the SEC and the FTC—has several features that
make it distinct from the remedies available to private
litigants seeking to press common law claims.” Id. That is
because “disgorgement is a distinctly public-regarding
remedy, available only to government entities seeking to
enforce explicit statutory provisions.” Id. That feature also
plays a significant role in the case before us.
The Second Circuit also took note of another distinction
that I, too have stressed: “public entities [are not] required
to make any particular effort to compensate the victims
that they can identify,” because the victim is the government, not the individual persons. Id. at 373. It added,
“While agencies may, as a matter of grace, attempt to
return as much of the disgorgement proceeds as possible,
the remedy is not, strictly speaking, restitutionary at all, in
that the award runs in favor of the Treasury, not of the
victims.” Id. In my view, this point underscores why the
restitutionary payment bears no resemblance to individual
money damages to the injured parties.
Whatever else one might want to say about the Second
Circuit’s analysis in Bronson, it is surely impossible to
characterize it as a drive-by ruling or one that was not
carefully considered and thoroughly explained. I find it
quite persuasive. It demonstrates to me why both we and
our sister circuits up until this time have understood that
the injunctions authorized by section 13(b) can include a
restitutionary component.
Finally, I want to emphasize that even if we were interpreting this statute on a blank slate, rather than upending
decades of precedent and creating a split with eight other
circuits, the majority’s reading of section 13(b) is still not

60a
persuasive. The majority grounds its argument in the
contrast between the injunctive relief explicitly authorized
in section 13(b) and the remedies available to the agency if
it opts to use its cease-and-desist powers under section 5 of
the FTC Act or to punish violators of promulgated rules
under section 19. (Section 5 of the Act is codified at 15
U.S.C. § 45, while section 19 is codified at 15 U.S.C. § 57b.
The majority uses the U.S. Code cites for sections other
than 13(b); my analysis below uses the same scheme for
ease of cross-reference with the majority’s opinion.)
As the majority sees things, we must read 13(b)’s grant
of injunctive authority extremely narrowly given that
section 57b(b) specifically mentions “the refund of money
or return of property” as a form of relief the court can
order, and 45(l) allows courts to “grant mandatory injunctions and such other and further equitable relief as they
deem appropriate.” I do not quibble with the overarching
principle that “it is generally presumed that Congress acts
intentionally and purposely in the disparate inclusion or
exclusion [of words in different sections of the same Act].”
Nken v. Holder, 556 U.S. 418, 430 (2009) (quotation marks
omitted). But a close look at the two contrasting sections
reveals that this is not a straightforward case of a list comprised of “A, B, and C” and another consisting of only “A
and B.”
I begin with section 57b(b), which lays out remedies for
violations of final rules. Our first clue that this subsection
should not be read to limit the scope of injunctive relief in a
13(b) action is that courts are directed in 57b(b) to “grant
such relief as the court finds necessary to redress injury to
consumers or other persons, partnerships, and corporations . . .” (emphasis added). These are largely backwardfacing remedies. As discussed above, courts have long

61a
recognized that disgorgement of ill-gotten gains—the sort
of equitable restitution at issue here—is a forward-looking
remedy aimed at deterrence. Making consumers whole is a
possible, but not inevitable, consequence of a disgorgement
order. “[T]he primary purpose of disgorgement orders is to
deter violations of the [ ] laws by depriving violators of
their ill-gotten gains.” Bronson, 654 F.3d at 373, quoting
SEC v. Fischbach Corp., 133 F.3d 170, 175 (2d Cir. 1997).
(Notably, section 57b(b) actually prohibits courts from
imposing “any exemplary or punitive damages.”) Second,
while section 57b(b) lists some more forward-looking remedies, such as “public notification respecting the rule violation or the unfair or deceptive act or practice,” this language only highlights how strained it is to read section
57b(b) as a limitation on courts’ 13(b) injunctive authority.
Would a court issuing a 13(b) injunction be powerless to
order a violator to post “public notification respecting the
. . . unfair or deceptive act or practice,” simply because this
remedy is listed in another subsection? Surely not.
It is also important to recall that the list in 57b(b) is
merely illustrative: courts are authorized to order relief
that “may include, but shall not be limited to,” the listed
remedies. This subsection is thus a poor candidate (at best)
for the expressio unius canon. (Compare “Visitors may
bring pets into the park on weekdays” with “Animals that
visitors are permitted to bring into the park on weekends
may include, but shall not be limited to, dogs, cats, snakes,
monkeys, and alligators.” Could weekday visitors not bring
dogs?) The savings clause in the same section is the coup
de grâce for the majority’s reasoning. It cautions that
“Remedies provided in this section are in addition to, and
not in lieu of, any other remedy or right of action provided
by State or Federal law. Nothing in this section shall be

62a
construed to affect any authority of the Commission under
any other provision of law.” Id. § 57b(e) (emphasis added).
That says it all: the non-exhaustive examples of relief Congress chose to mention in one section do not limit what a
court may or may not include pursuant to another section—for instance, a 13(b) injunction.
The list of remedies available to the FTC in a cease-anddesist action, spelled out in section 45(l), also provides little
help for the majority. True, this section authorizes the FTC
to “grant mandatory injunctions and such other and further equitable relief as they deem appropriate . . .” But so
what? Some forms of equitable relief make sense as
standalone remedies, injunction or no injunction. In contrast, equitable remedies are available under 13(b) only if
(1) a plaintiff satisfies the demanding burden of demonstrating why an injunction should issue, see eBay Inc. v.
MercExchange, L.L.C., 547 U.S. 388 (2006); and (2) the
court is able to justify the relief it is ordering as a proper
adjunct to the injunctive decree. By allowing courts to
issue “such other and further equitable relief,” section 45(l)
clarifies that courts have a wide range of equitable relief
available to them, no matter whether plaintiffs managed to
obtain an injunction or, if an injunction has issued, whether
the remedies are appropriate means of enforcing the decree. Under 45(l), a court could order an accounting or
some sort of specific performance whether or not the requirements for a mandatory injunction had been satisfied.
There are further weaknesses in the majority’s reading
of the statute, but I have said enough to show that its approach is far from the most straightforward even if we did
not have decades of precedent, eight other circuits, and
American Stores on the other side. The FTC Act spells out
a finely crafted system of enforcement powers and remedies. The majority’s interpretation upends what the agency

63a
and Congress have understood to be the status quo for
thirty years, and in so doing grants a needless measure of
impunity to brazen scammers like the defendant in this
case.
I end where I began: This is an important case, and it
deserves plenary consideration, not the truncated process
that Rule 40(e) provides for appropriate cases. The court’s
refusal to rehear this case en banc has, I fear, led us into
error. I therefore dissent from the decision not to give this
case plenary en banc consideration.

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS, EASTERN DIVISION
—————

FEDERAL TRADE COMMISSION, Plaintiff,
v.
CREDIT BUREAU CENTER, LLC, A LIMITED
LIABILITY COMPANY, FORMERLY KNOWN AS
MYSCORE LLC, ALSO DOING BUSINESS AS
EFREESCORE.COM, CREDITUPDATES.COM, AND
FREECREDITNATION.COM, MICHAEL BROWN,
INDIVIDUALLY AND AS OWNER AND MANAGER OF

CREDIT BUREAU CENTER, LLC, DANNY PIERCE,
INDIVIDUALLY, AND ANDREW LLOYD, INDIVIDUALLY,
Defendants.
—————
Case No. 17 C 194
June 26, 2018
—————
MEMORANDUM OPINION AND ORDER
MATTHEW F. KENNELLY, District Judge:
The FTC alleges that Danny Pierce and Andrew Lloyd
operated a deceptive marketing campaign on behalf of
Michael Brown and Credit Bureau Center, LLC (CBC).
The campaign directed consumers to CBC websites. The
FTC alleges these websites misled consumers into enrolling in a monthly credit monitoring service that cost $29.94
per month. The FTC contends this conduct violated several
consumer protection laws. Pierce and Lloyd agreed to
entry of a preliminary injunction against them, and after
an evidentiary hearing, the Court issued a preliminary
injunction against CBC and Brown on February 21, 2017.
See FTC v. Credit Bureau Center, LLC, 235 F. Supp. 3d
1054 (N.D. Ill. 2017). The parties have now cross-moved for
summary judgment.
65a

66a
Background
The Court briefly reviews the background to this case,
relying on the parties’ filings and LR 56.1 statements. In
these statements, the defendants have failed to provide “a
concise response” to the FTC’s statements of fact using
“specific references to the affidavits, parts of the record,
and other supporting materials relied upon[.]” LR
56.1(b)(3)(B). See also Malec v. Sanford, 191 F.R.D. 581, 585
(N.D. Ill. 2000) (“The purpose of the 56.1 statement is to
identify for the Court the evidence supporting a party’s
factual assertions in an organized manner: it is not intended as a forum for factual or legal argument.”).
The FTC offers facts describing negative feedback to
CBC in the form of phone calls, e-mails, and credit card
chargebacks. The FTC also offers facts that Brown received e-mails from particular parties involved in CBC’s
business that notified him of the Craigslist advertising
scheme. Though the defendants’ burden is to rebut these
facts through contrary evidence that show the existence of
a genuine factual dispute, the defendants have failed to do
so. Instead they rely on an unsupported theory that it is
the customers who were defrauding CBC by lying about
the websites’ deceptive character and other irrelevant or
unfounded responses. This does not meet the requirements
of Local Rule 56.1. Thus the Court deems as admitted
Defs.’ Resp. to Pl.’s Stmt. of Facts ¶¶ 57-61, 72-73, 80-82,
89, and 100.
I. CBC and Brown
Michael Brown is the owner, director, and sole employee
of CBC. Independent contractors fulfilled many of CBC’s
marketing, sales, and customer service functions. CBC
owned and operated several websites, including Credit-

67a
Updates.com, FreeCreditNation.com, and eFreeScore.com.
For a monthly subscription fee, customers can access credit
scores, credit reports, and a credit monitoring service.
CBC does this through two lines of business: a “white
label/co-branding” line, in which other businesses can offer
CBC’s services under their own name, and an affiliate
marketing line, in which marketers direct customers to
CBC sites. Affiliates who marketed CBC’s services were
compensated based on the volume of customers they referred. The practices of two affiliates are at issue in this
suit: Danny Pierce and Andrew Lloyd.
II. Craigslist marketing
Pierce became an affiliate for CBC in January 2014. As
an affiliate marketer, Pierce received an identification
number by which Brown could track the volume of his
referrals and determine compensation. Several months
after Pierce began working as an affiliate for CBC, he
asked Brown to create specific websites to which he could
direct the customers he referred. CBC created these websites on December 1, 2015. The websites, which are described in detail later in this decision, advertised that consumers could obtain a “free credit score and report.” In
smaller type, the websites disclosed that signing up for
these services would enroll the customer in a monthly
credit monitoring service for $29.94 per month.
Pierce, working as an affiliate marketer for CBC, contracted out some marketing functions to Andrew Lloyd.
Lloyd began posting to Craigslist ads of attractive rental
properties. Interested customers were invited to e-mail the
“landlord” for additional information. The response e-mails
were routed to Lloyd, who responded as though he were
the landlord (which he wasn’t). In the reply, Lloyd would
ask the customer to obtain a credit report through the

68a
CBC websites and would promise to set up a tour of the
rental property once the customer had a credit report in
hand. If interested, the customer would then sign up for
CBC’s services and then follow up with the “landlord”—
but would never receive a reply. (One of these e-mails has
been attached to this opinion as Appendix I; screenshots of
one of the CBC websites has been attached as Appendix
II.) As Pierce later testified, he knew that Lloyd was posting “phony ads,” as Lloyd was “not renting these places
out,” was “not a realtor” and “doesn’t own the place. . . . He
has no connection to this property.” D.E. 206, Defs.’ Ex. C
at 73 (Pierce Dep.).
The marketing effort proved extremely effective.
Pierce was the most successful of CBC’s affiliate marketers: his efforts resulted in 2,741,268 visitors to CBC’s websites. (The next largest affiliate produced 369,869 visitors.)
Pierce’s traffic generated $6.8 million in revenue for CBC.
But the effort, unsurprisingly, also generated significant customer complaints. Customers complained that they
were never connected with a landlord after obtaining a
credit report and that they did not realize that they had
been enrolled in CBC’s credit monitoring service. A contractor who provided customer services for CBC logged
numerous calls from dissatisfied customers. CBC also
received customer e-mails complaining about the Craigslist
marketing. In response, CBC’s customer service often
denied that CBC was involved in the marketing effort or
that CBC paid affiliate marketers for referrals. Many
customers also asked their credit card company to reverse
the CBC charges. Brown also received direct e-mails from
many individuals about the Craigslist marketing program.1
Because the Court does not rely on any facts contained in customer
complaints submitted to the Better Business Bureau (BBB), it need
1

69a
III. Procedural posture
Customers also directed their complaints to the FTC,
which commenced an investigation into CBC. The FTC
sued CBC, alleging that the Craigslist marketing program
and the CBC websites violated several consumer protection laws. On January 11, 2017, Judge Sharon Johnson
Coleman, acting as emergency judge, imposed a temporary
restraining order on the defendants, restraining them from
continuing the marketing program and freezing their assets. The FTC then moved for a preliminary injunction. As
indicated earlier, Pierce and Lloyd agreed to the motion.
CBC and Brown contested it, but the Court entered a
preliminary injunction against them on February 21, 2017.
Discussion
Both parties have moved for summary judgment. Summary judgment is appropriate if “the movant shows that
there is no genuine dispute as to any material issue of
fact.” Fed. R. Civ. P. 56(a). There is a genuine issue of material fact if “the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986); FTC v.
World Media Brokers, 415 F.3d 758, 763 (7th Cir. 2005).
I. Liability of CBC
The FTC contends that CBC violated section 5 of the
Federal Trade Commission Act (FTCA), 15 U.S.C.
§ 45(a)(1); the Restoring Online Shoppers’ Confidence Act
(ROSCA), 15 U.S.C. § 8403; and the Free Credit Reports
Rule. 15 U.S.C. § 1681j(g)(1); 12 C.F.R. § 1022.138. The
Court reviews each contention in turn.
not resolve whether the BBB complaints or the affidavit submitted by
Erin McCool, a BBB employee, are admissible.

70a
A. FTCA
The FTCA prohibits “unfair or deceptive acts or practices in or affecting commerce[.]” 15 U.S.C. 45(a)(1). “The
FTC may establish corporate liability under section 5 with
evidence that a corporation made material representations
likely to mislead a reasonable consumer. The FTC is not,
however, required to prove intent to deceive.” FTC v. Bay
Area Bus. Council, Inc., 423 F.3d 627, 635 (7th Cir.
2005) (citations omitted). A misrepresentation is material if
it makes it more likely that the consumer will choose the
product being advertised. FTC v. Cyberspace.Com LLC,
453 F.3d 1196, 1201 (9th Cir. 2006); FTC v. Amy Travel
Serv., Inc., 875 F.2d 564, 573 (7th Cir. 1989). The FTC contends that CBC violated the FTCA through (1) the
Craigslist marketing scheme that Pierce and Lloyd carried
out and (2) the credit report websites that CBC operated.
(Because the websites are virtually identical, the Court
refers to “website” in the singular for ease of reference.)
The FTC has moved for summary judgment on its allegations under the FTCA.
1. Craigslist marketing
First, the FTC contends the Craigslist advertising
campaign violated the FTCA. No reasonable jury could
find that the Craigslist scheme did not involve unfair or
deceptive practices, as it was rife with material misrepresentations that were likely to deceive a reasonable consumer. Bay Area Bus. Council, Inc., 423 F.3d at 635. Pierce
and Lloyd’s marketing effort consisted of two parts, both of
which were materially misrepresentative. First, they posted to Craigslist advertisements of attractive rental properties with an e-mail address for interested renters to contact. But the properties either did not exist or the market-

71a
ers did not have authority to rent them. Second, when an
interested renter asked about a property, Lloyd responded
with a form e-mail that promised a tour of the property
once the renter obtained a credit report. But customers
found that, credit report in hand, there was no landlord
that would provide a tour. There is, therefore, no genuine
dispute that the Craigslist scheme was misrepresentative.
Moreover, the misrepresentations were material, as the
properties themselves and the requirement that a prospective renter first obtain a credit report before touring the
property made it more likely that a reasonable consumer
would choose to request a credit report from CBC. Cyberspace.Com LLC, 453 F.3d at 1201.
The FTC has established that CBC is liable for the
Craigslist campaign carried out on its behalf; no reasonable jury could find otherwise. “Principals are liable for the
misrepresentations of their agents under the FTC Act.”
FTC v. Lifewatch Inc., 176 F.Supp.3d 757, 779 (N.D. Ill.
2016) (citing FTC v. World Travel Vacation Brokers, Inc.,
861 F.2d 1020, 1029 (7th Cir. 1988)). “To bind the principal,
the agent must have either actual authority, apparent authority, or the principal must ratify [the agent’s] actions.”
Anetsberger v. Me. Life Ins. Co., 14 F.3d 1226, 1234 (7th Cir.
1994).
Although the defendants initially contested whether
Pierce and Lloyd acted as agents with actual authority,
apparent authority, or CBC’s ratification, they now concede
that CBC ratified Pierce and Lloyd’s conduct by accepting
the benefits of their efforts while aware of their misconduct. See Defs.’ Am. Reply in Supp. of Defs.’ Mot. for
Summ. J. at 1 n.1 (“Defendants will not address the FTC’s
argument on ratification as to CBC’s corporate liability.”).

72a
But even if the defendants had not conceded the point,
the Court would find that CBC ratified Pierce and Lloyd’s
conduct. To establish that CBC ratified the affiliates’ conduct, the FTC must demonstrate that CBC knew of the
conduct but provided “long-term acquiescence” by accepting “the benefits of an allegedly unauthorized transaction.” Sphere Drake Ins. Ltd. v. Am. Gen. Life Ins. Co., 376
F.3d 664, 677 (7th Cir. 2004) (internal quotation marks and
citation omitted). No reasonable jury could find that CBC
did not know of the affiliates’ fraudulent conduct. Consumers called to complain about the Craigslist advertisements
and “landlord” e-mails that prompted them to enroll in
CBC’s service, sent e-mails to the same effect, and initiated chargebacks. CBC could easily trace these complaints to
Pierce and Lloyd’s practices. Not only could CBC track the
traffic it received back to Pierce through an identification
number, CBC could also determine that approximately 89
percent of its chargebacks were attributable to Pierce’s
traffic.
Despite this, CBC continued to permit Pierce and
Lloyd to market on its behalf. CBC could have terminated
Pierce’s affiliate arrangement whenever it liked, yet it
never did so, despite mounting complaints. Thus CBC was
aware of the Craigslist scheme but continued to accept the
traffic (and revenues) generated by that conduct. As Pierce
testified, he never stopped the Craigslist ads because he
“assumed that it was fine, because Mike Brown wanted the
traffic. He continuously took the traffic, and I just went
based on that[.]” D.E. 206, Defs.’ Ex. C at 74 (Pierce Dep.).
The Court concludes there is no issue for trial on the question of agency. The Craigslist campaign was materially
misrepresentative, and CBC ratified Pierce and Lloyd’s
conduct.

73a
2. CBC website
Next, the FTC contends that the website to which the
interested renters were directed to obtain a credit report
also violated the FTCA.2 To determine whether the website
was misrepresentative, the Court first identifies what
claims the website conveys. FTC v. QT, Inc., 448
F. Supp. 2d 908, 957-58 (N.D. Ill. 2006). “In determining
what messages or claims [the website] communicates to
reasonable consumers, the Court looks to the overall, net
impression made by the advertisement[.]” Id. at 958 (citing
FTC v. Colgate-Palmolive Co., 380 U.S. 374 (1965)). Next,
the Court determines if those claims are misrepresentative, that is, if they have a “tendency” or “capacity” to
deceive a reasonable customer. FTC v. US Sales Corp., 785
F.Supp. 737, 745 (N.D. Ill. 1992). “[M]isrepresentations . . .
need not be made with an intent to deceive.” World Travel
Vacation Brokers, 861 F.2d at 1029 (citation omitted). The
parties dispute whether consumers must exercise reasonable care when subjected to express misrepresentations, but
the Court need not resolve this dispute to decide the issue.
First, the Court finds that, based on the net impression
conveyed by the website, the website claims that consumers who enroll in the service will obtain a free credit
score—not that they will enroll in a credit monitoring service with monthly charges. The first page that consumers
see, the landing page, features a banner that states: “Get
Your Free Credit Score and Report as of [the date on which
the site was visited].” There are three panels that describe
The FTC directs the Court to the images of the websites located at
D.E. 11, Pl.’s Ex. 4. The defendants do not contest that these are the
proper sites to analyze; therefore, the Court restricts its analysis to
these sites. Because the sites are virtually identical, only the eFreeScore.com images are included in Appendix 2 to this opinion.
2

74a
the offer: the left panel shows a “Sample Score”; the central panel asks the consumer to add his or her information,
which is submitted through a button that states “Your
Score—Now!”; and right panel describes the benefits of
CBC’s service, which promises instant and secure access to
one’s credit score. If the website is visited via a desktop
computer, the website also states “Monthly membership of
$29.94 automatically charged after trial[,]” in light gray
text against a white background. This text is not found on
the mobile version of the website. The landing page does
not describe what the membership entails. If a consumer
scrolls down the page, the website displays in small text:
“Monitoring services may take up to 3 days to become
active so this service within your membership may not be
available during the whole 7-day trial period.”
On the next page, the consumer is invited to enroll by
completing several fields, including name, address, e-mail
address, and phone number. The website contains two
questions in a panel to the right of these fields: “What is a
good Credit Score?” and “Will I find errors on my credit
report?” Consumers are then directed to a page in which
they may enter their payment information. The largest test
on the page is the website logo. There is a large banner in
black text below the logo; it reads, “Your credit score is
ready once we confirm your identity!” Below that is a
bright-green graphic consisting of a check mark and text
stating “Located Credit File.” Above the fields into which
consumers may enter payment information, the website
requests: “Tell us which card you would like to use for your
$1.00 refundable processing fee and membership[.]” Below
all of the payment information is a paragraph of small-sized
text. The paragraph begins with a heading that reads “Payment Information” and then includes the following text:

75a
When you place your order here you will begin your
membership in [the website]. You will be billed $1.00
today and start your trial membership. After your
7-day trial period you will be charged $29.94 every
month. If you wish to cancel just call us at [the customer service number] to stop your membership.
D.E. 11, Pl.’s Ex. 4 at 15, 43, 65. Consumers may complete
the transaction by clicking a large, orange button with
“Submit & Continue” superimposed over it. There is no
description of what membership entails.
Although CBC contends that the membership disclosures are sufficient to change the website’s impression,
courts routinely hold that explanatory text is insufficient to
cure a misleading description unless the text changes the
overall impression. See Cyberspace.Com, 453 F.3d at
1200-01; Porter & Dietsch, Inc. v. FTC, 605 F.2d 294, 301
(7th Cir. 1979). Here, the net impression is that consumers
are signing up to obtain a free credit score, not enrolling
into a costly monthly service.3 The website lacks any description of the monthly membership; consumers can discern that submitting payment information will enroll them
in the membership only by reviewing text that is smaller
and less noticeable than the surrounding text. In FTC v.
Johnson, 96 F.Supp.3d 1110 (D. Nev. 2015), the court considered a website that prominently advertised the customer’s ability to access grant money and a free CD. Id. at
Indeed, the Court could not put it much better than the defendants
do: “The overall net impression created by the website is that the
consumer is signing up for a free credit score and can cancel within
seven (7) days [if] they don’t want to continue the service.” Defs.’ Resp.
to Pl.’s Mot. for Summ. J. at 20. Notably absent from this impression is
any sense of what service CBC will render through a monthly subscription.
3

76a
1141. The website actually signed the consumer up for a
membership program, but “[c]laims about grant money
and free CDs always overwhelm these brief mentions of . . .
memberships[.]” Id. The Court concludes that CBC’s website presents a similar situation, in which “brief mentions”
of a costly service are “overwhelm[ed]” by other advertising. No reasonable jury could conclude that the website
conferred the net impression that consumers were enrolling in a monthly credit monitoring service.
Because the website claimed that consumers were obtaining a free credit score and report, not a membership in
a monthly credit monitoring service, the website was misrepresentative. Moreover, this was a material misrepresentation, as consumers would be less likely to enroll if they
knew they were signing up for a $29.94 monthly service of
unknown utility instead of than a free credit score and
report. No reasonable jury could find otherwise.
Further buttressing this conclusion is the pervasive evidence of consumer confusion. Proof of actual deception is
“highly probative” evidence of a misleading or deceptive
practice. Cyberspace.Com, 453 F.3d at 1201. See also Bay
Area Bus. Council, 423 F.3d at 635 (considering evidence of
consumer confusion in analyzing an FTCA violation); Amy
Travel Serv., 875 F.2d at 575 (same). The FTC has offered a
variety of evidence indicating consumers did not realize
they had enrolled in a monthly credit monitoring service
until they found CBC charges on their bank statements.
Defs.’ Resp. to Pl.’s Stmt. of Facts ¶ 61. Numerous consumers provided declarations that generally described
their experience requesting a free credit score and noticing
an unexpected $29.94 charge several days later. Id. Many
customers also asked their credit card company to reverse
CBC charges, which is known as a “chargeback.” Since

77a
December 2015, CBC has had over 10,000 chargebacks.
Id.¶ 73. The reasonable inference from these chargebacks
is that consumers did not realize they enrolled in a monthly
membership service and, when they saw the membership
charges, asked the credit card company to withdraw the
payment. Amy Travel Serv., 875 F.2d at 574-75 (noting that
“excessive credit card chargebacks” are a “signal[ ]” of
consumer “trouble”).
The defendants propose a different inference: that all of
these customers were engaged in “friendly fraud,” in which
they purposefully signed up CBC’s services and then falsely claimed deception in order to get out of paying for the
membership services for which they had enrolled. But the
CBC presents no admissible evidence that would support
this proposition, and the Court does not consider the
“friendly fraud” theory to be the sort of reasonable inference to which CBC is entitled as the non-moving party. The
defendants also note that there is evidence that some customers knew they were expected to pay a $1 processing fee
for their credit report. Because this notice was contained in
the same paragraph as one of the notices of the credit
monitoring service, the defendants conclude that some
customers knew of the credit monitoring service. But the
requirement is not that “every customer” was deceived by
the defendant, just “that some customers actually misunderstood the thrust of the message.” World Travel Vacation Brokers, 861 F.2d at 1029. The Court concludes that
the FTC is entitled to summary judgment.
B. ROSCA
Under ROSCA, it is unlawful to charge consumers using a negative option feature unless the seller satisfies
certain requirements. A negative option feature is “a provision [in an offer] under which the customer’s silence or

78a
failure to take an affirmative action to reject goods or
services or to cancel the agreement is interpreted by the
seller as acceptance of the offer.” 16 C.F.R. § 310.2(w). The
seller must establish that (1) the material terms of the
transaction are “clearly and conspicuously” disclosed and
(2) the seller obtains the consumer’s “express informed
consent.” 15 U.S.C. § 8403.4 ROSCA also establishes that a
violation of the statute is also a violation of a rule promulgated under the FTCA. Id. § 8404(a). CBC employed a
negative option feature, as consumers who requested their
free credit report had seven days to opt out of the credit
monitoring program before they were enrolled. The FTC
contends that it is entitled to summary judgment, as no
reasonable jury could find that the disclosure of the negative option feature was clear and conspicuous or that CBC
obtained consumers’ express informed consent.
But CBC contends that it is entitled to summary judgment, as Brown designed CBC’s website by reference to
another site created through an FTC consent decree. The
Court disagrees with the premise of CBC’s argument, that
an attempt to conform to conduct approved under a consent decree renders the conduct lawful. “The entering of a
consent decree . . . is not a decision on the merits and
therefore does not adjudicate the legality of any action by a
party thereto.” Beatrice Foods Co. v. FTC, 540 F.2d 303,
312 (7th Cir. 1976). Rather than analyze whether CBC’s
website is sufficiently similar to this other website, the
Court determines if any reasonable jury could find that
CBC satisfied ROSCA’s requirements.
In ROSCA, Congress did not define what satisfies the
requirement of “clear[ ] and conspicuous[ ] disclos[ure]” of
4

ROSCA also includes a third element that is not at issue in this case.

79a
“all material terms of the transaction.” 15 U.S.C. § 8403.
But other courts have routinely noted that that a disclosure
in small type is unlikely to be clear or conspicuous when
accompanied by type that is larger, bolded, or italicized.
Murray v. New Cingular Wireless Servs., Inc., 523 F.3d
719, 725 (7th Cir. 2008) (small type is not conspicuous when
“the bulk of the page contains much larger type”); Cole v.
U.S. Capital, 389 F.3d 719, 730 (7th Cir. 2004) (text that
“appears to be designed to ensure minimal attention by the
reader” is not clear or conspicuous); FTC v. Health Formulas, LLC, No. 2:14-cv-01649-RFB-GWF, 2015 WL 2130504,
at *17 (D. Nev. May 6, 2015) (disclosures of a negative
option were not clear or conspicuous, as the disclosures
were “either buried in fine print on the payment page of
Defendants’ websites or stated in separate Terms and
Conditions documents”). As discussed above, CBC embedded its disclosures into pages with larger, bolded text that
promised “free” credit reports and scores. The disclosures
were not prominent when compared to the rest of the page.
Indeed, the disclosures appear “designed to ensure minimal attention by the reader.” Cole, 389 F.3d at 730. For this
reason, the Court is unconvinced by CBC’s repeated mention that the text was in twelve-point font: the analysis of
the disclosure is necessarily contextual, meaning that the
Court must consider the text, whatever size it is, in relation
to the other elements on the page. The FTC is entitled to
summary judgment; no reasonable jury could find that the
disclosures were clear and conspicuous.
ROSCA also requires CBC to obtain a consumer’s “express informed consent” before entering into a negative
option. CBC contends that it can satisfy this standard, as a
consumer is notified of the negative option at three points:
on the landing page, the payment page, and in a welcome e-

80a
mail to those who enroll. The welcome e-mail is obviously
unhelpful to CBC’s case, as that e-mail follows the transaction, so it cannot affect whether the consumer rendered
express informed consent before entering into the negative
option.
CBC’s remaining contentions are also insufficient. The
Court concludes that summary judgment is warranted
where, as here, the website is virtually devoid of any mention of the service aside from the statement that the customer is to be billed for it. Except for a handful of disclosures that the consumer will be enrolled in a service that
costs $29.94 per month, the consumer would not know that
CBC was offering a service. And there is no description of
what the service constitutes or why it is beneficial. A website that fails to provide a consumer any information about
a service cannot obtain a consumer’s express informed
consent to purchase that service. CBC suggests that credit
monitoring was a “bonus” for consumers, but the Court
overrules this rather odd argument. If credit monitoring
was a “bonus” that CBC had not promised consumers, then
consumers could not have expressly consented to be billed
for a service they had not been told about.
In sum, the FTC is entitled to summary judgment on
its ROSCA claim because no reasonable jury could find
that CBC “clearly and conspicuously” disclosed that the
site involved a negative option transaction or that consumers rendered their express informed consent.
C. Free Credit Report Rule
The FTC also brings a claim under the Free Credit Report Rule, which requires any advertisement for a free
credit report to disclose that a consumer may obtain a free
credit report annually as of right under federal law.
15U.S.C. § 1681j(g)(1); 12 C.F.R. § 1022.138. Because it is

81a
undisputed that there was no notice of the as-of-right annual free credit report, the only question before the Court
is whether CBC advertised a free credit report.
Given that CBC website contained a banner advertising
a “free credit score and report,” one could justifiably ask
what there is to discuss. But the defendants present two
arguments against the application of the Free Credit Report Rule. First, the defendants contend that the formatting of their advertisement of a “free credit score and
report” places their site outside the reach of the Rule. They
note that the text is split into two lines and that the text is
colored differently: “free credit score” is in orange text, but
“and report” is in black text. CBC contends there is a clear
implication: the black lettering of “report” indicates that it,
unlike the orange-lettered “free credit score,” is not free.
But the defendants’ proposed “black-letter” rule runs
smack into the reality of actual black-letter law. Under
“generally accepted rules of syntax,” an initial modifier
applies to each noun or phrase in a conjunctive series.
Wash. Educ. Ass’n v. Nat’l Right to Work Legal Def.
Found., Inc., 187 F. App’x 681, 682 (9th Cir. 2006) (citing
The American Heritage Book of English Usage ch. 2 ¶ 10
(Houghton Mifflin 1996)). Any reasonable consumer would
read “free” as modifying both “credit score” and “report,”
no matter the color of the text or its formatting.
Next, CBC argues that the Free Credit Report Rule
applies to advertisements of free credit reports alone; it
does not apply to advertisements of CBC’s services, which
include a credit report, score, and credit monitoring service. The defendants argue that the FTC, while promulgating the relevant rule, rejected the use of the term “consumer report” because it swept broadly enough to include
credit scores. See Free Annual File Disclosures, 75 Fed.

82a
Reg. 9725, 9732 (Mar. 3, 2010) (originally to be codified at
16 C.F.R. § 610, now codified at 12 C.F.R. § 1022.130). Because the FTC purposefully excluded ads for free credit
scores from the scope of the Free Credit Report Rule, their
service—which includes access to a credit score—is also
outside the scope of the Rule. But the FTC, in adopting the
rule, expressly addressed and rejected this argument:
Several commenters urged the Commission to clarify that section 610.4 does not apply to advertisements for every bundle of products or services that
may include a “free credit report.” . . . The Commission disagrees that the types of bundled products do
not cause consumer confusion. Indeed, the Commission believes that advertising for bundled products
that promote free credit reports, in addition to other products and services, such as credit monitoring,
is the very type of advertising that is likely to confuse consumers.
Id. at 9733 (emphasis added). CBC’s service is therefore
within the ambit of the Free Credit Report Rule.
In their reply brief, the defendant raised two additional
arguments against the application of the Free Credit Report Rule: the FTC was required to first issue a cease-anddesist letter before suing under the Rule, and any violation
of the Rule is without damages. “[A]rguments raised for
the first time in the reply brief are waived.” Mendez v.
Perla Dental, 646 F.3d 420, 423-24 (7th Cir. 2011). The
Court concludes that FTC is entitled to summary judgment on its Free Credit Report Rule claim.
Although the defendants have asserted in their summary judgment briefing several of the defenses they raised
in their answer, their briefs do not discuss at least four: the
FTC’s failure to mitigate; standing; mootness; and bad

83a
faith/unclean hands. First Am. Answer at 7-11. Particularly
when the FTC has presented unrebutted arguments
against these defenses, the Court is not required to “construct arguments regarding the Defendants’ affirmative
defenses.” Ramada Franchise Sys., Inc. v. Royal Vale
Hosp. of Cincinnati, Inc., No. 02 C 1941, 2005 WL 435263,
at *10 (N.D. Ill. Feb. 16, 2005). The Court finds the defendants cannot defeat summary judgment through these defenses.
In sum, the Court concludes that the FTC is entitled to
summary judgment on each of its claims brought under the
FTCA, ROSCA, and the Free Credit Report Rule.
II. Brown’s personal liability
The next issue is whether Brown is personally liable for
the conduct for which CBC is liable. To establish Brown’s
personal liability, the FTC must prove three elements: (1)
CBC’s corporate liability (which the Court has just found);
(2) Brown’s knowledge of the practices; and (3) Brown’s
control over or direct participation in the practices at issue.
Amy Travel Serv., 875 F.2d at 573. The FTC can satisfy the
knowledge element by presenting “evidence that the individuals had actual knowledge of material misrepresentations, reckless indifference to the truth or falsity of such
misrepresentations, or an awareness of a high probability
of fraud along with an intentional avoidance of the truth.”
Bay Area Bus. Council, 423 F.3d at 636 (internal quotation
marks and citations omitted).
The FTC’s claims rest on two practices or acts. First is
the creation of the CBC websites, which contain misrepresentations about the monthly subscription service. No
reasonable jury could find that Brown did not know of
these misrepresentations, as he wrote and edited the contents of the websites. Brown also controlled the practice in

84a
question: he owned, operated, and controlled the websites
at issue, as he was the sole member, managing director, and
owner of CBC. Pl.’s Resp. to Defs.’ Stmt. of Facts ¶ 3.
Brown is personally liable for the violations associated with
this conduct.
Second is the Craigslist marketing scheme, in which
Pierce and Lloyd posted false Craigslist advertisements of
attractive rental properties and required interested customers to obtain credit reports through CBC websites. The
Court concludes that there is no genuine issue for trial
here; the evidence is such that no reasonable jury could not
find that Brown was not, at the very least, recklessly indifferent towards or intentionally ignorant of the truth. Bay
Area Bus. Council, 423 F.3d at 636.
Pierce and Lloyd sent e-mails purportedly from landlords to induce interested customers to request their credit
reports through CBC; Brown admits he knew that Pierce
and Lloyd did not have any relationship with actual landlords. But Brown claims that it does not follow that he
knew that Lloyd’s e-mails were false. Rather, Brown argues he believed that Lloyd was acting as an affiliate for
others who wanted to rent out their properties, just as
Pierce acted as an affiliate for CBC.
But this argument cannot account for the numerous
signals Brown that received indicating that Pierce and
Lloyd were not acting on behalf of actual landlords or
advertising real properties. Brown received an e-mail on
April 29, 2015 from a contractor who “happened to notice
this fake ad for apartment to get credit report”, Defs.’
Resp. to Pl.’s Stmt. of Facts ¶ 81; a forwarded e-mail from
a person who “flagg[ed] for removal vast number of fake
ads your people are putting on Craiglist [sic] . . . I have also
been in contact with more than several of the legitimate

85a
rental properties that you are using as bait to entice people
to come to your site,” id. ¶ 82; an e-mail on September 17,
2015 from his customer service contractor regarding complaints about the Craigslist postings, id.; and an e-mail on
November 15, 2015 from a company asking for removal of
its logo from CBC’s website, given its “deceptive listings”
on Craigslist, id. ¶ 89.
Additionally, Brown was aware of the campaign’s
fraudulent character through the voluminous consumer
complaints that CBC received via customer calls, id. ¶ 57;
e-mails, id. ¶ 58; and credit card chargebacks. Id. ¶ 72
(noting that 72 percent of the 16,828 chargebacks were
attributable to Pierce). Brown contends he was not told
about these complaints, but the Court finds that argument
particularly weak, as the evidence shows that Brown specifically requested his customer service contractor not to
escalate real estate-related customer complaints to him.
Id. ¶ 84. “To claim ignorance in the face of the consumer
complaints . . . amounts to, at the least, reckless indifference to the corporations’ deceptive practices.” Bay Area
Bus. Council, 423 F.3d at 638.
Still, Brown downplays the significance of all of this evidence through a variety of arguments: Pierce and Lloyd’s
e-mails were not obviously false, given their purported
relationship with a real estate website known as RentFind;
the e-mails Brown received from others about the
Craigslist campaign were not adequately specific to notify
him of fraud; the consumer complaints were not properly
forwarded to him; and some of the consumer complaints
appeared (to him) to be mere “friendly fraud.” But, taken
together, no reasonable jury could consider all of this evidence without finding that Brown, having received all these
signals of fraud, was either recklessly indifferent toward or

86a
intentionally ignorant of Pierce and Lloyd’s fraudulent
practices.
Brown not only knew about the Craigslist scheme; he
had the ability to control it. As the chief officer of CBC,
Brown had “[a]uthority to control the company,” given his
“active involvement in business affairs.” Amy Travel Serv.,
875 F.2d at 573. Brown may contend he could not control
Pierce or Lloyd but, through the click of a button, Brown
had the ability to stop receiving the customers that they
referred. As Brown testified, “I’m able to tell Pierce and
set limits on how much I want to accept. It’s my business,
my website.” Id. ¶ 100. As in Bay Area Business Council,
in which the Seventh Circuit held the defendant personally
liable in part because he personally controlled who would
conduct telemarketing, the Court holds Brown personally
liable because he controlled whether Pierce and Lloyd
could continue their conduct. Bay Area Bus. Council, 423
F.3d at 637. The Court concludes that the FTC is entitled
to summary judgment on the question of Brown’s personal
liability.
III. Injunctive relief
The FTC has requested equitable relief in the form of a
permanent injunction against CBC and Brown and equitable monetary relief. The Court reviews each request in turn.
A. Permanent injunction
Under 15 U.S.C. § 53(b), the FTC may seek a permanent injunction to restrict a defendant from future violations of the FTCA. To obtain a permanent injunction, “the
moving party need only show that there is a reasonable
likelihood of future violations in order to obtain relief.”
SEC v. Holschuh, 694 F.2d 130, 144 (7th Cir. 1982). This
standard is distinct from the ordinary standard for injunc-

87a
tive relief. CFTC v. Hunt, 591 F.2d 1211, 1220 (7th Cir.
1979). In assessing whether there is a reasonable likelihood
of future violations, the Court must consider (1) the gravity
of the harm, (2) the extent of CBC and Brown’s participation, (3) the nature of the infraction and the likelihood that
they may become involved in similar conduct in the future;
(4) any recognition of culpability; and (5) the sincerity of
assurances against further violations. Holschuh, 694 F.2d
at 144; Hunt, 591 F.2d at 1220.
The Court finds a reasonable likelihood of future violations. First, the gravity of the harm was significant, as
CBC and Brown’s deceptive practices caused customers to
lose millions of dollars on an unwanted service and to needlessly expose their sensitive personal and financial information, including their credit card and Social Security
numbers. Moreover, both CBC and Brown were deeply
involved in these practices. Third, CBC and Brown’s ongoing participation in the credit information industry increases the likelihood that similar conduct could occur
again, as these schemes are easy to facilitate. The Court
notes that, after the onset of this litigation, it held Brown in
contempt for violating the preliminary injunction, which
barred him from, among other things, operating a website
with a negative option feature without first obtaining express informed consent, processing payments from CBC
customers, or transacting any business as CBC. See D.E.
106. Though Brown argues that he was misadvised by
attorneys when he engaged in this conduct, the Court only
relies on this fact to show the ease with which parties can
engage in this conduct, not to show Brown’s scienter.
Finally, Brown’s ongoing litigation of this claim in the
face of significant contrary evidence—and the assertion
that it is the consumers who engaged in misconduct

88a
through “friendly fraud”—undercuts any belated recognition of culpability or assurance that similar misconduct will
not happen again. The Court concludes that a permanent
injunction against CBC and Brown is proper.
Brown argues that the FTC’s proposed injunction
should be narrowed in two ways. First, he contends that
the injunction should not apply to all of CBC’s websites,
just those created to receive traffic referred from Pierce
and Lloyd. Brown also contends that he should not be
enjoined, as he was fooled by Pierce and Lloyd into believing the properties existed, just like CBC’s dissatisfied
customers. The Court declines to narrow the injunction in
either respect. First, the injunction should extend to all
sites, as the Court has found a reasonable likelihood of
future violations, and any site could be used to facilitate a
similar scheme. Second, as already discussed, no reasonable jury could find that Brown did not know of, and have
control over, Pierce’s practices. Just because it was Pierce
and Lloyd who directly facilitated the Craigslist marketing
does not mean that Brown should escape an injunction.
Brown has not presented a viable reason that he should not
be subject to a permanent injunction.
B. Equitable monetary relief
In addition to the permanent injunction, the FTC seeks
relief from CBC and Brown in the amount of consumer losses. “The district court’s power to grant a permanent
injunction also includes the power to grant other ancillary
relief,” which “includes the power to order repayment of
money for consumer redress as restitution or [rescission].”
FTC v. Febre, 128 F.3d 530, 534 (7th Cir. 1997) (citing Amy
Travel Serv., 875 F.2d at 571). In line with substantial precedent, the Court concurs with the FTC and orders equitable relief in the amount of consumer losses. See, e.g., FTC

89a
v. Trudeau, 579 F.3d 754, 771 (7th Cir. 2009) (“Consumer
loss is a common measure for civil sanctions in contempt
proceedings and direct FTC action”); Febre, 128 F.3d at 536
(“A major purpose of the Federal Trade Commission Act is
to protect consumers from economic injuries. Courts have
regularly awarded, as equitable ancillary relief, the full
amount lost by consumers.”) (citation omitted); Amy Travel Serv., 875 F.2d at 571-72 (same).
CBC and Brown introduce an array of arguments
against the FTC’s position, which the Court groups into
four contentions: the Court lacks the authority to order
restitution; the FTC cannot trace the funds, which it must
do to obtain restitution; the FTC’s proposed relief would
violate the Eighth Amendment’s prohibition on excessive
fines and fees; and the FTC has overstated the amount of
losses.
First, CBC and Brown contend that the FTC has requested restitution, but the Court lacks authority under
section 13(b) of the FTCA, 15 U.S.C. § 53(b), to provide
this relief. Section 13(b) only authorizes the Court to “enjoin any such act or practice” that violates the FTCA. CBC
and Brown contend that this provision does not expressly
encompass restitution and that the Supreme Court case
law that authorized a broad interpretation of this language
has been undercut. CBC and Brown concede that the
Court “has previously ruled on and generally denied” this
contention, but they contend that, had the Court fully
considered the legislative history or the text of section
13(b), it would have found in favor of this argument. Defs.’
Resp. to Pl.’s Mot. for Summ. J. at 23. The Court disagrees.
CBC and Brown still rely upon what this Court already
described as a “considerable overstatement” of Kokesh v.
SEC, 137 S.Ct. 1635 (2017). See D.E. 183 at 2 (Order on

90a
Defs.’ Mot. to Modify Prelim. Inj.). The plain language and
legislative history arguments do not change the Court’s
view on this point, especially in light of the Seventh Circuit
authority that continues to control the disposition of this
issue before this Court. See, e.g., Trudeau, 579 F.3d at 772;
Febre, 128 F.3d at 534; Amy Travel Serv., Inc., 875 F.2d at
571-72.
Next, CBC and Brown contend that the FTC’s request
for “equitable monetary relief ” is a request for restitution.
But, CBC and Brown contend, restitution is unavailing, as
the FTC must be able to trace the funds it identifies for
restitution, and here the funds have been commingled.
CBC and Brown urge the Court to consider several cases
in which courts declined to order restitution because the
funds requested were not traceable. See, e.g., Montanile v.
Bd. of Trustees of Nat. Elevator Indus. Health Benefit
Plan, 136 S.Ct. 651, 658, 662(2016) (remanding restitution
order in ERISA litigation to determine whether funds
were dissipated); Alexander v. Bosch Auto. Sys., Inc., 232
F. App’x 491, 501 (6th Cir. 2007) (“Plaintiffs seeking equitable restitution have the burden of establishing that the
funds they seek are traceable and readily identifiable.”).
But CBC and Brown elide a significant distinction between the cases cited and the present case. When restitution is ordered as an equitable remedy, it is “directed
against some specific thing; they give or enforce a right to
or over some specific thing.” Montanile, 136 S.Ct. at 65859. CBC and Brown rely primarily on ERISA cases in
which plaintiffs seek to reclaim benefits from a defunct
employer. ERISA is distinguishable from the FTCA in a
significant way: ERISA only authorizes equitable restitution, not legal restitution. The FTCA authorizes legal restitution, which does not impose the same tracing require-

91a
ments. FTC v. Commerce Planet, Inc., 815 F.3d 593, 601
(9th Cir. 2016) (“the tracing requirements for ‘equitable’
restitution do not apply in § 13(b) actions”); FTC v. Bronson Partners, LLC, 654 F.3d 359, 373-74 (2d Cir. 2011) (in
ordering monetary relief under the FTCA, a district court
need not “apply equitable tracing rules to identify specific
funds in the defendant’s possession that are subject to
return”). CBC and Brown contend that these cases are not
convincing, as they have been undercut by Kokesh. But, as
the Court has already noted, it has rejected this reading of
Kokesh; the Court need not interrogate it in greater depth.
The Court concludes that, even if the funds at issue were
commingled with other CBC funds, the FTC is not barred
from obtaining restitution.
Third, Brown contends that the permanent injunction
and the proposed restitution would violate his Eighth
Amendment rights. But the order of restitution is not a
“fine,” nor would it be “grossly disproportional,” as Brown
must show to establish an Eighth Amendment violation.
See United States v. Bajakajian, 524 U.S. 321, 339-40
(1998). Brown cites to SEC v. Metter, 706 F. App’x 699 (2d
Cir. 2017), but the case is not helpful to his position, as the
Second Circuit concluded there was no Eighth Amendment
violation in an order that “almost precisely equaled the
gains from the illicit conduct.” Id. at 704. Here, the FTC’s
proposed order is also “directly keyed” to Brown’s misconduct. Id. The Court overrules Brown’s Eighth Amendment
argument.
Finally, CBC and Brown challenge how the FTC calculated the amount of losses. The FTC began its calculation
with the amount of revenue obtained through traffic that
Pierce directed to CBC: $6,832,435.81. The FTC subtracted
the amount of refunds CBC paid to customers ($414,860.77),

92a
chargebacks that customers successfully obtained
($394,903.68), and the amount already paid by Pierce and
Lloyd in settlement of their claims ($762,000), for a net of
$5,260,671.36. CBC and Brown present several arguments
against this amount.
First, they contend that the revenues must be limited to
the period beginning after CBC created websites to which
Pierce could direct his traffic. The Court disagrees: the
amount of liability is based on the duration of the campaign
of misrepresentation conducted through the Craigslist
marketing scheme, not the existence of certain websites.
The date on which certain websites became active is irrelevant to the calculation.5
Next, CBC and Brown contend that the amount of restitution should be limited to the customers referred by
Pierce. The description of how the FTC calculated losses
refutes this argument; the losses are already based on
revenue obtained through traffic that Pierce referred.
Third, they contend that the FTC should deduct the
revenue obtained from customers who contacted CBC’s
customer service but then chose not to cancel their credit
membership. The FTC argues that a setoff would be inappropriate, as CBC lied to customers about its involvement
in the Craigslist marketing scheme. See, e.g., Defs.’ Resp.
to Pl.’s Stmt. of Facts ¶ 60 (recording of a CBC customer
service employee telling a customer, “We don’t . . . do any
Craigslist posts. . . . [W]e’re not affiliated with any third
party companies posting any rental ads or anything like
Defendants arguably raise an additional point in their reply brief
asking the Court to dismiss any claims relating to CBC’s “pre-existing”
websites. Defs.’ Am. Reply in Supp. of Defs.’ Mot. for Summ. J. at 8.
This argument is underdeveloped and, to the extent it is a new point,
defendants forfeited it by failing to raise it in the initial brief.
5

93a
that.”). The Court concurs: CBC and Brown are not entitled to keep the revenue obtained from customers who
were retained through additional misrepresentations.
Fourth, CBC and Brown contend that the losses should
be limited to the period during which Brown had actual
notice of the purported scheme. They contend that Brown
did know of the fraudulent marketing until he saw complaints from the Better Business Bureau on June 30, 2016.
CBC and Brown’s argument is unpersuasive. First, they do
not point to any authorities supporting the premise that
liability can only attach to particular losses of which the
defendant was specifically aware; the Seventh Circuit only
requires that a defendant be “adequately alerted . . . to the
corporation’s deceptive trade practices.” Bay Area Bus.
Council, 423 F.3d at 637. But no reasonable jury could
conclude that Brown only learned of Pierce’s campaign on
June 30, 2016. As the record makes clear, Brown was emailed in April 2015—just months after the campaign
began—by a contractor with concerns about the campaign.
As already discussed, this e-mail was joined by numerous
other signs of misconduct, all of which occurred well before
June 30, 2016. The Court declines to reduce the loss figure
on this ground.
CBC and Brown also ask the Court to set off business
expenses and the loss of CBC revenues. But restitution
seeks to protect consumers from “economic injuries” by
recovering the full amount of consumer loss. Febre, 128
F.3d at 536. The Court does not think it appropriate to
reduce consumer recovery in order to compensate the
defendants for the costs of administering a service that
relied upon misrepresentations to consumers.

94a
Conclusion
For the foregoing reasons, the Court grants the FTC’s
motion for entry of summary judgment against Credit
Bureau Service, LLC and Michael Brown [dkt. no. 192].
The Court will separately enter the FTC’s proposed final
judgment and order. The status hearing set for June 29,
2018, the final pretrial conference set for July 12, 2018, and
the trial set for July 16, 2018 are vacated.

95a
APPENDIX I

Hello,
Thank you for wanting more information on our rental.
You were the second to e-mail from our advert. The first
person I showed did not need to move due to school. We
just finished all new renovations and are now prepared to
lease with flexible terms.
I know that you need the exact address of the property
but we do want not to disclose the address before you’re
qualified. We have had a string of break-ins, squatters and
thefts at our other properties. We want to avoid that with
this rental because of the renovations that have cost lots of
money.
We have plenty of garage parking and utilities are factored into the rent price. The appliances in the kitchen and
laundry room are yours to keep. You have the option to
customize your paint color and flooring prior to your arrival.
If you would like to set up an appointment, go to the
link below and request a copy of your report. We use this
site since it’s trusted, quick and haven’t had any problems
printing out the report. All you need to do is fill out the
form and you get your report. We are not concerned with
any negatives, its more of a formality for us. Simply get
your report by CLICKING HERE
Do not send me the report over email, bring it to the
tour. We want to rent fast. We are waiving the security
deposit and giving half the first months rent.
Let me know when you have an updated version of your
report. Then I’ll schedule you for a showing.
Thanks again,
Joyce

96a
APPENDIX II

97a

98a

99a

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS

FEDERAL TRADE COMMISSION,
Plaintiff(s),
v.
CREDIT BUREAU CENTER, LLC, ET AL.,
Defendant(s).
—————
Case No. 17 C 194
Judge Matthew F. Kennelly
——————
JUDGMENT IN A CIVIL CASE

Judgment is hereby entered (check appropriate box):
 in favor of plaintiff(s) and against defendant(s) in
the amount of $
,
which  includes pre–judgment interest.
 does not include pre–judgment interest.
Post-judgment interest accrues on that amount at the
rate provided by law from the date of this judgment.
Plaintiff(s) shall recover costs from defendant(s).
——————
 in favor of defendant(s) and against plaintiff(s).
Defendant(s) shall recover costs from plaintiff(s).
——————
 other: Judgment entered in favor of plaintiff Federal
Trade Commission and against defendants Credit Bureau
center, LLC and Michael Brown as stated in the attached
Final Judgment and Order for Permanent Injunction and
Other Equitable Relief.
——————
This action was (check one):

101a

102a
 tried by a jury with Judge presiding, and the jury
has rendered a verdict.
 tried by Judge without a jury and the above decision
was reached.
 decided by Judge Matthew F. Kennelly on a motion.
Date: 6/26/2018 Thomas G. Bruton, Clerk of Court
Pamela J. Geringer, Deputy Clerk

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
—————

Judge Matthew F. Kennelly
—————
FEDERAL TRADE COMMISSION,
Plaintiff
v.

CREDIT BUREAU CENTER, LLC, A LIMITED LIABILITY
COMPANY, FORMERLY KNOWN AS MYSCORE LLC, ALSO
DOING BUSINESS AS EFREESCORE.COM,
CREDITUPDATES.COM, AND FREECREDITNATION.COM,
MICHAEL BROWN, INDIVIDUALLY AND AS OWNER AND
MANAGER OF CREDIT BUREAU CENTER, LLC,
DANNY PIERCE, INDIVIDUALLY, AND
ANDREW LLOYD, INDIVIDUALLY,
Defendants.
—————
Case No. 17 C 194
JUDGE KENNELLY
MAGISTRATE JUDGE VALDEZ
—————
FINAL JUDGMENT AND ORDER FOR PERMANENT
INJUNCTION AND OTHER EQUITABLE RELIEF
AGAINST DEFENDANTS CREDIT BUREAU
CENTER, LLC AND MICHAEL BROWN

Plaintiff, the Federal Trade Commission (“Commission”
or “FTC”), filed its Complaint for Permanent Injunction
and Other Equitable Relief (“Complaint”), pursuant to
Section 13(b) of the Federal Trade Commission Act (“FTC
Act”), 15 U.S.C. § 53(b). The FTC now having filed its
Motion for Summary Judgment Against Defendants Credit
103a

104a
Bureau Center, LLC and Michael Brown (“Defendants”),
and the Court having considered the FTC’s motion, and
supporting exhibits, and the entire record in this matter,
the FTC’s motion is hereby granted, and IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED as follows:
FINDINGS

1. This Court has jurisdiction over this matter.
2. The Complaint charges that Defendants participated
in deceptive and illegal acts or practices in violation of
Section 5 of the FTC Act, 15 U.S.C. § 45; Section 4 of the
Restore Online Shoppers’ Confidence Act (“ROSCA”), 15
U.S.C. § 8403; Section 612(g) of the Fair Credit Reporting
Act (“FCRA”), 15 U.S.C. § 1681j(g); and the Free Annual
File Disclosures Rule, 16 C.F.R. Part 610 (“Free Reports
Rule”), recodified at 12 C.F.R. §§ 1022.130-1022.138, in the
advertising, marketing, promoting, offering for sale, or sale
of credit monitoring services.
3. The Court now finds that Defendants have violated
Section 5(a) of the FTC Act, 15 U.S.C. § 45(a), by falsely
representing to consumers, expressly or by implication,
that a residential property described in an online ad is
currently available for rent from someone consumers can
contact through that ad, and the property will be shown to
consumers who obtain their credit reports and scores
through Defendants’ website.
4. The Court further finds that Defendants have violated Section 5(a) of the FTC Act, 15 U.S.C. § 45(a), by representing to consumers, expressly or by implication, that
they are offering consumers their credit scores and reports
for free, while failing to disclose or disclose adequately to
consumers, material terms and conditions of the offer,
including: (a) that Defendants will automatically enroll
consumers in a negative option continuity plan with addi-

105a
tional charges; (b) that consumers must affirmatively cancel the negative option continuity plan before the end of a
trial period to avoid additional charges; (c) that Defendants
will use consumers’ credit or debit card information to
charge consumers monthly for the negative option continuity plan; (d) the costs associated with the negative option
continuity plan; and (e) the charges.
5. The Court further finds that Defendants have violated Section 4(1) of ROSCA, 15 U.S.C. § 8403(1), by charging
or attempting to charge consumers for Defendants’ credit
monitoring service through a negative option feature while
failing to clearly and conspicuously disclose all material
terms of the transaction before obtaining consumers’ billing information.
6. The Court further finds that Defendants have violated Section 4(2) of ROSCA, 15 U.S.C. § 8403(2), by charging
or attempting to charge consumers for Defendants’ credit
monitoring service through a negative option feature while
failing to obtain consumers’ express informed consent
before charging their credit card, debit card, bank account,
or other financial account.
7. The Court further finds that Defendants have violated Section 612(g)(1) of the FCRA, 15 U.S.C. § 1681j(g)(1),
and the Free Reports Rule, 12 C.F.R. § 1022.138, by failing
to prominently disclose in advertisements for free credit
reports that free credit reports are available under federal
law from AnnualCreditReport.com or (877) 322–8228, and
by operating websites offering free credit reports, including eFreeScore.com and CreditUpdates.com, without displaying across the top of each page that mentions free
credit reports, and across the top of each page of the ordering process, the prominent disclosure required by the Free
Reports Rule, 12 C.F.R. § 1022.138, to inform consumers of

106a
their right to obtain a free credit report from AnnualCreditReport.com or (877) 322–8228.
8. It is proper to enter this Final Judgment and Order
for Permanent Injunction and Other Equitable Relief
Against Defendants (“Order”) to prevent a recurrence of
Defendants’ violations of Section 5 of the FTC Act, 15
U.S.C. § 45, Section 4 of ROSCA, 15 U.S.C. § 8403, Defendants’ net sales to consumers (total sales minus refunds
and chargebacks) amounted to at least $6,022,671.36 from
the conduct alleged in the Commission’s Complaint; and
the Commission has recovered $762,000 from Defendants’
affiliate marketers Danny Pierce and Andrew Lloyd.
10. The Commission is therefore entitled to equitable
monetary relief against Defendants in the amount of
$5,260,671.36, for which Defendants are jointly and severally liable.
11. This Order is in addition to, and not in lieu of, any other civil or criminal remedies that may be provided by law.
12. Nothing in this Order shall affect the compensatory
sanction previously entered against Defendant Michael
Brown in the civil contempt order dated July 18, 2017 (Dkt.
106).
13. Entry of this Order is in the public interest.
DEFINITIONS

For the purpose of this Order, the following definitions
apply:
1. “Affiliate” means any person, including third-party
marketers, who participates in an affiliate program.
2. “Affiliate Network” means any person who provides
another person with affiliates for an affiliate program or
whom any person contracts with as an affiliate to promote
any product, service, or program.

107a
3. “Affiliate Program(s)” means (a) any arrangement
under which any marketer or seller of a product, service,
or program pays, offers to pay, or provides or offers to
provide any form of consideration to any Defendant, either
directly or indirectly, to (i) provide the marketer or seller
with, or refer to the marketer or seller, potential or actual
customers; or (ii) otherwise market, advertise, or offer for
sale the product or service on behalf of the marketer or
seller; or (b) any arrangement under which any Defendant
pays, offers to pay, or provides or offers to provide any
form of consideration to any third party, either directly or
indirectly, to (i) provide any Defendant with, or refer to any
Defendant, potential or actual customers; or (ii) otherwise
market, advertise, or offer for sale any product, service, or
program on behalf of any Defendant.
4. “Mobile Application” means any software application
that can be installed on a mobile device.
5. “Billing Information” means any data that enables
any person to access a consumer’s account, such as a credit
card, checking, savings, share or similar account, utility
bill, mortgage loan account, or debit card.
6. “Charge,” “charged,” or “charging” means any attempt to collect money or other consideration from a consumer, including but not limited to causing billing information to be submitted for payment, including against a
consumer’s credit card, debit card, bank account, phone
bill, or other account.
7. “Clear(ly) and conspicuous(ly)” means that a required disclosure is difficult to miss (i.e., easily noticeable)
and easily understandable by ordinary consumers, including in all of the following ways: a. In any communication
that is solely visual or solely audible, the disclosure must
be made through the same means through which the com-

108a
munication is presented. In any communication made
through both visual and audible means, such as a television
advertisement, the disclosure must be presented simultaneously in both the visual and audible portions of the communication even if the representation requiring the disclosure is made in only one means.
b. A visual disclosure, by its size, contrast, location, the
length of time it appears, and other characteristics, must
stand out from any accompanying text or other visual
elements so that it is easily noticed, read, and understood.
c. An audible disclosure, including by telephone or
streaming video, must be delivered in a volume, speed, and
cadence sufficient for ordinary consumers to easily hear
and understand it.
d. In any communication using an interactive electronic
medium, such as the Internet or software, the disclosure
must be unavoidable.
e. The disclosure must use diction and syntax understandable to ordinary consumers and must appear in each
language in which the representation that requires the
disclosure appears.
f. The disclosure must comply with these requirements
in each medium through which it is received, including all
electronic devices and face-to-face communications.
g. The disclosure must not be contradicted or mitigated
by, or inconsistent with, anything else in the communication.
h. When the representation or sales practice targets a
specific audience, such as children, the elderly, or the terminally ill, “ordinary consumers” includes reasonable
members of that group.
8. “Close Proximity” means immediately adjacent to the
triggering representation. In the case of advertisements
disseminated verbally or through audible means, the dis-

109a
closure shall be made as soon as practicable after the triggering representation.
9. “Corporate Defendant” means Credit Bureau Center,
LLC, a Delaware limited liability company, formerly
known as MyScore LLC, and also doing business as
eFreeScore.com, CreditUpdates.com, and FreeCreditNation.com, and its successors and assigns.
10. “Credit Monitoring Service” means any service,
plan, program or membership that includes, or is represented to include, alerts or monitoring of changes to consumers’ credit files, credit reports, or credit scores.
11. “Defendants” means Credit Bureau Center, LLC,
formerly known as MyScore LLC, also doing business as
eFreeScore.com, CreditUpdates.com and FreeCreditNation.com, and its successors and assigns, and Michael
Brown, individually, collectively, or in any combination.
12. “Free Credit Report” means a file disclosure prepared by or obtained from, directly or indirectly, a nationwide consumer reporting agency, including without limitation Equifax, Experian or TransUnion, that is represented,
either expressly or impliedly, to be available to the consumer at no cost if the consumer purchases a product or
service, or agrees to purchase a product or service subject
to cancellation.
13. “Individual Defendant” means Michael Brown, by
whatever names he may be known.
14. “Negative Option Feature” means, in an offer or
agreement to sell or provide any good or service, a provision under which the consumer’s silence or failure to take
affirmative action to reject a good or service or to cancel
the agreement is interpreted by the seller or provider as
acceptance or continuing acceptance of the offer.

110a
15. “Preliminary Injunction” means the Preliminary Injunction as to Defendants Credit Bureau Center, LLC and
Michael Brown entered on February 21, 2017 (Dkt. No. 59).
16. “Receiver” means Robb Evans & Associates LLC,
appointed as Receiver pursuant to Section VII of the Preliminary Injunction, and any deputy receivers named by
the Receiver.
17. “Receivership Defendant” means Credit Bureau
Center, LLC, a Delaware limited liability company, formerly known as MyScore LLC, and also doing business as
eFreeScore.com, CreditUpdates.com, and FreeCreditNation.com, and its successors and assigns, as well as any
subsidiaries, affiliates, divisions, or sales or customer service operations, and any fictitious business entities or business names created or used by these entities.
18. “Telemarketing” means any plan, program, or campaign which is conducted to induce the purchase of any
product, service, plan, or program by use of one or more
telephones, and which involves a telephone call, whether or
not covered by the Telemarketing Sales Rule, 16 C.F.R.
Part 310.
19. “TRO” means the Ex Parte Temporary Restraining
Order With Asset Freeze, Appointment of a Receiver,
Other Equitable Relief, and Order to Show Cause Why a
Preliminary Injunction Should Not Issue, entered in this
matter on January 11, 2017 (Dkt. No. 16).
I. BAN ON NEGATIVE-OPTION CREDIT
MONITORING SERVICES

IT IS ORDERED that Defendants, whether acting directly or indirectly, are permanently restrained and enjoined from advertising, marketing, promoting, offering for
sale, or selling, or assisting in the advertising, marketing,

111a
promoting, offering for sale, or sale of any Credit Monitoring Service with a Negative Option Feature.
II. PROHIBITION AGAINST
MISREPRESENTATIONS

IT IS FURTHER ORDERED that Defendants, their
officers, agents, employees, and attorneys, and all other
persons in active concert or participation with any of them,
who receive actual notice of this Order, whether acting
directly or indirectly, in connection with the advertising,
marketing, promoting, offering for sale, or sale of any good
or service, are permanently restrained and enjoined from
misrepresenting, or assisting others in misrepresenting,
expressly or by implication, any material fact, including,
but not limited to:
A. That a residential property described in an online ad
is currently available for rent from someone consumers can
contact through that ad;
B. That a residential property will be shown to consumers who obtain their credit reports or scores from any
particular source;
C. The purpose of any communication with consumers;
or
D. Any other fact material to consumers concerning
any good or service, such as: the total costs; any material
restrictions, limitations, or conditions; or any material
aspect of its performance, efficacy, nature, or central characteristics.
III. PROHIBITED AFFILIATE PROGRAM
ACTIVITIES

IT IS FURTHER ORDERED that Defendants, their
officers, agents, employees, and attorneys, and all other
persons in active concert or participation with any of them,
who receive actual notice of this Order, whether acting

112a
directly or indirectly, in connection with the advertising,
marketing, promoting, offering for sale, or sale of any good
or service through an Affiliate Network or Program that a
Defendant owns, operates, or controls, or through an Affiliate or Affiliate Network to which a Defendant provides or
offers to provide any payment or other form of consideration,
are permanently restrained and enjoined from failing to:
A. Require each Affiliate and/or Affiliate Network to
provide the following identifying information:
1. In the case of a natural person, the Affiliate’s or Affiliate Network’s first and last name, physical address, country, telephone number, email address, and complete bank
account information as to where payments are to be made
to that person;
2. In the case of a business entity, the Affiliate’s or Affiliate Network’s name and any and all names under which it
does business, state of incorporation, registered agent, and
the first and last name, physical address, country, telephone number, and email address for at least one natural
person who owns, manages, or controls the Affiliate or
Affiliate Network, and the complete bank account information as to where payments are to be made to the Affiliate or Affiliate Network;
3. If Defendants have access to certain Affiliates only
through an Affiliate Network, then Defendants shall contractually require each Affiliate Network to obtain and
maintain from those Affiliates the identifying information
set forth in Subsections A.1 and A.2 of this Section prior to
the Affiliate’s or Affiliate Network’s participation in any
Defendant’s Affiliate Program.
B. As a condition of doing business with any Affiliate or
Affiliate Network or such Affiliate or Affiliate Network’s
acceptance into any Defendant’s Affiliate Program: (a)

113a
provide each such Affiliate or Affiliate Network a copy of
this Order; (b) obtain from each such Affiliate or Affiliate
Network a signed and dated statement acknowledging
receipt of this Order and expressly agreeing to comply
with this Order; and (c) clearly and conspicuously disclose
in writing that engaging in acts or practices prohibited by
this Order will result in immediate termination of any
Affiliate or Affiliate Network and forfeiture of all monies
owed to such Affiliate or Affiliate Network; provided, however, that if Defendants have access to certain Affiliates
only through an Affiliate Network, then Defendants shall
contractually require that the Affiliate Network provide
the information required by this Subsection to each of
those Affiliates and retain proof of the same prior to any
such Affiliate being used in any Defendant’s Affiliate Program; and if any Defendant should acquire an entity that
has an existing program of selling through Affiliates, the
entity must complete all steps in this Subsection prior to
Defendant’s acquisition of the entity.
C. Require that each Affiliate or Affiliate Network, prior to the public use or dissemination to consumers of any
marketing materials, including, but not limited to, advertisements, websites, emails, and pop-ups used by any Affiliate or Affiliate Network to advertise, promote, market,
offer for sale, or sell any goods or services, provide Defendants with the following information: (a) copies of all
marketing materials to be used by the Affiliate or Affiliate
Network, including text, graphics, video, audio, and photographs; (b) each location the Affiliate or Affiliate Network
maintains, or directly or indirectly controls, where the
marketing materials will appear, including the URL of any
website; and (c) for hyperlinks contained within the marketing materials, each location to which a consumer will be

114a
transferred by clicking on the hyperlink, including the
URL of any website. Defendants shall also require each
Affiliate or Affiliate Network to maintain and provide to
Defendants upon request records of the dates when the
marketing materials are publicly used or disseminated to
consumers. Provided, however, that if Defendants have
access to certain Affiliates only through an Affiliate Network, then Defendants shall contractually require that the
Affiliate Network obtain and maintain the same information set forth above from each of those Affiliates who
are part of any Defendant’s Affiliate Program prior to the
public use or dissemination to consumers of any such marketing materials, and provide proof to such Defendant of
having obtained the same.
D. Promptly review the marketing materials specified
in Subsection C of this Section as necessary to ensure
compliance with this Order. Defendants shall also promptly
take steps as necessary to ensure that the marketing materials provided to Defendants under Subsection C of this
Section are the marketing materials publicly used or disseminated to consumers by the Affiliate or Affiliate Network. If a Defendant determines that use of any marketing
materials does not comply with this Order, such Defendant
shall inform the Affiliate or Affiliate Network in writing
that approval to use such marketing materials is denied
and shall not pay any amounts to the Affiliate or Affiliate
Network for such marketing, including any payments for
leads, “click-throughs,” or sales resulting therefrom. Provided, however, that if Defendants have access to certain
Affiliates only through an Affiliate Network, then Defendants shall contractually require that the Affiliate Network
comply with the procedures set forth in this Subsection as
to those Affiliates.

115a
E. Promptly investigate any complaints that any Defendant receives through any source to determine whether
any Affiliate or Affiliate Network is engaging in acts or
practices prohibited by this Order, either directly or
through any Affiliate that is part of any Defendant’s Affiliate Program.
F. Upon determining that any Affiliate or Affiliate Network has engaged in, or is engaging in, acts or practices
prohibited by this Order, either directly or through any
Affiliate that is part of any Defendant’s Affiliate Program,
immediately:
1. Disable any connection between the Defendant’s Affiliate Program and the marketing materials used by the
Affiliate or Affiliate Network to engage in such acts or
practices prohibited by this Order;
2. Halt all payments to the Affiliate or Affiliate Network resulting from such acts or practices prohibited by
this Order; and
3. Terminate the Affiliate or Affiliate Network; provided, however, Defendants shall not be in violation of this
Subsection if Defendants fail to terminate an Affiliate
Network in a case where Defendants’ only access to an
Affiliate who has engaged in acts or practices prohibited by
this Order is through an Affiliate Network and Defendants
receive notice that the Affiliate Network immediately
terminated the Affiliate violating this Order from any
Defendant’s Affiliate Program.
IV. PROHIBITION AGAINST MISREPRESENTATIONS
RELATING TO NEGATIVE OPTION FEATURES

IT IS FURTHER ORDERED that Defendants, their
officers, agents, employees, and attorneys, and all other
persons in active concert or participation with any of them,
who receive actual notice of this Order, whether acting

116a
directly or indirectly, in connection with promoting or
offering for sale any good or service with a Negative Option Feature, are permanently restrained and enjoined
from misrepresenting or assisting others in misrepresenting, expressly or by implication:
A. Any cost to the consumer to purchase, receive, use,
or return the initial good or service;
B. That a consumer will not be Charged for any good or
service;
C. That a good or service is offered on a “free,” “trial,”
“sample,” “bonus,” “gift,” “no obligation,” “discounted”
basis, or words of similar import, denoting or implying the
absence of an obligation on the part of the recipient of the
offer to affirmatively act in order to avoid Charges, including where a Charge will be assessed pursuant to the offer
unless the consumer takes affirmative steps to prevent or
stop such a Charge;
D. That consumers can obtain a good or service for a
processing, service, shipping, handling, or administrative
fee with no further obligation;
E. The purpose(s) for which a consumer’s Billing Information will be used;
F. The date by which a consumer will incur any obligation or be Charged unless the consumer takes an affirmative action on the Negative Option Feature;
G. That a transaction has been authorized by a consumer;
H. Any material aspect of the nature or terms of a refund, cancellation, exchange, or repurchase policy for the
good or service; or
I. Any other material fact.
Compliance with this Section is separate from, and in
addition to, the disclosures required by Sections V and VI
of this Order.

117a
V. REQUIRED DISCLOSURES RELATING TO
NEGATIVE OPTION FEATURES

IT IS FURTHER ORDERED that Defendants, their
officers, agents, employees, and attorneys, and all other
persons in active concert or participation with any of them,
who receive actual notice of this Order, whether acting
directly or indirectly, in connection with promoting or
offering for sale any good or service with a Negative Option Feature, are permanently restrained and enjoined
from:
A. Representing directly or indirectly, expressly or by
implication, that any good or service that includes a Negative Option Feature is being offered on a free, trial, no
obligation, reduced, or discounted basis, without disclosing
Clearly and Conspicuously, and in Close Proximity to, any
such representation: 1. The extent to which a consumer
must take affirmative action(s) to avoid any Charges: a) for
the offered good or service, b) of an increased amount after
the trial or promotional period ends, and c) on a recurring
basis;
2. The total cost (or range of costs) the consumer will be
Charged and, if applicable, the frequency of such Charges
unless the consumer timely takes steps to prevent or stop
such Charges; and
3. The deadline(s) (by date or frequency) by which the
consumer must affirmatively act in order to stop all recurring Charges.
B. Obtaining Billing Information from a consumer for
any transaction involving a good or service that includes a
Negative Option Feature, without first disclosing Clearly
and Conspicuously, and in Close Proximity to where a
consumer provides Billing Information: 1. The extent to
which a consumer must take affirmative action(s) to avoid

118a
any Charges: a) for the offered good or service, b) of an
increased amount after the trial or promotional period
ends, and c) on a recurring basis;
2. The total cost (or range of costs) the consumer will be
Charged, the date the initial Charge will be submitted for
payment, and, if applicable, the frequency of such Charges
unless the consumer timely takes affirmative steps to
prevent or stop such Charges;
3. The deadline(s) (by date or frequency) by which the
consumer must affirmatively act in order to stop all recurring Charges;
4. The name of the seller or provider of the good or service and, if the name of the seller or provider will not appear on billing statements, the billing descriptor that will
appear on such statements;
5. A description of the good or service;
6. Any Charge or cost for which the consumer is responsible in connection with the cancellation of an order or
the return of a good; and
7. The simple cancellation mechanism to stop any recurring Charges, as required by Section VII of this Order.
C. Failing to send the consumer: 1. Immediately after
the consumer’s submission of an online order, written confirmation of the transaction by email. The email must
Clearly and Conspicuously disclose all the information
required by Subsection B of this Section, and contain a
subject line reading “Order Confirmation” along with the
name of the product or service, and no additional information; or
2. Within 2 days after receipt of the consumer’s order
by mail or telephone, a written confirmation of the transaction, either by email or first class mail. The email or letter
must Clearly and Conspicuously disclose all the infor-

119a
mation required by Subsection B of this Section. The subject line of the email must Clearly and Conspicuously state
“Order Confirmation” along with the name of the product
or service, and nothing else. The outside of the envelope
must Clearly and Conspicuously state “Order Confirmation” along with the name of the product or service, and no
additional information other than the consumer’s address,
the Defendant’s return address, and postage.
VI. OBTAINING EXPRESS INFORMED CONSENT

IT IS FURTHER ORDERED that Defendants, their
officers, agents, employees, and attorneys, and all other
persons in active concert or participation with any of them,
who receive actual notice of this Order, whether acting
directly or indirectly, in connection with promoting or
offering for sale any good or service with a Negative Option Feature, are permanently restrained and enjoined
from using or assisting others in using Billing Information
to obtain payment from a consumer, unless Defendant first
obtains the express informed consent of the consumer to
do so. To obtain express informed consent, Defendants
must:
A. For all written offers (including over the Internet or
other web-based applications or services), obtain consent
through a check box, signature, or other substantially
similar method, which the consumer must affirmatively
select or sign to accept the Negative Option Feature, and
no other portion of the offer. Defendant shall disclose
Clearly and Conspicuously, and in Close Proximity to such
check box, signature, or substantially similar method of
affirmative consent, only the following, with no additional
information: 1. The extent to which a consumer must take
affirmative action(s) to avoid any Charges: a) for the offered good or service, b) of an increased amount after the

120a
trial or promotional period ends, and c) on a recurring
basis;
2. The total cost (or range of costs) the consumer will be
Charged and, if applicable, the frequency of such Charges
unless the consumer timely takes affirmative steps to
prevent or stop such Charges; and
3. The deadline(s) (by date or frequency) by which the
consumer must affirmatively act in order to stop all recurring Charges.
B. For all oral offers, prior to obtaining any Billing Information from the consumer:
1. Clearly and Conspicuously disclose the information
contained in Section V.B of this Order; and
2. Obtain affirmative unambiguous express oral confirmation that the consumer a) consents to being Charged for
any goods or services, including providing, at a minimum,
the last four (4) digits of the consumer’s account number to
be Charged, b) understands that the transaction includes a
Negative Option Feature, and c) understands the specific
affirmative steps the consumer must take to prevent or
stop further Charges.
For transactions conducted through telemarketing, Defendants shall maintain for 3 years from the date of each
transaction an unedited voice recording of the entire transaction, including the prescribed statements set out in Subsection B of this Section. Each recording must be retrievable by date and by the consumer’s name, telephone number, or Billing Information, and must be provided upon
request to the consumer, the consumer’s bank, or any law
enforcement entity.

121a
VII. SIMPLE MECHANISM TO CANCEL
NEGATIVE OPTION FEATURE

IT IS FURTHER ORDERED that Defendants, their
officers, agents, employees, attorneys, and all other persons in active concert or participation with any of them,
who receive actual notice of this Order, whether acting
directly or indirectly, in connection with promoting or
offering for sale any good or service with a Negative Option Feature, are permanently restrained and enjoined
from failing to provide a simple mechanism for the consumer to: (1) avoid being Charged, or Charged an increased amount, for the good or service; and (2) immediately stop any recurring Charges. Such mechanism must
not be difficult, costly, confusing, or time consuming, and
must be at least as simple as the mechanism the consumer
used to initiate the Charge(s). In addition:
A. For consumers who entered into the agreement to
purchase a good or service including a Negative Option
Feature over the Internet or through other web-based
applications or services, Defendants must provide a mechanism, accessible over the Internet or through such other
web-based application or service that consumers can easily
use to cancel the product or service and to immediately
stop all further Charges.
B. For consumers who entered into the agreement to
purchase a good or service including a Negative Option
Feature through an oral offer and acceptance, Defendants
must maintain a telephone number and a postal address
that consumers can easily use to cancel the product or
service and to immediately stop all further Charges. Defendants must assure that all calls to this telephone number shall be answered during normal business hours and
that mail to the postal address is retrieved regularly.

122a
VIII. REQUIRED DISCLOSURES RELATING TO
FREE CREDIT REPORTS

IT IS FURTHER ORDERED that Defendants, their
officers, agents, employees, and attorneys, and all other
persons in active concert or participation with any of them,
who receive actual notice of this Order, whether acting
directly or indirectly, in connection with offering Free
Credit Reports, are permanently restrained and enjoined
from failing to include disclosures that meet all of the following requirements:
A. General requirements for disclosures: The disclosures covered by Subsection B of this Section shall contain
only the prescribed content and comply with the following
requirements: 1. All disclosures shall be Clear and Conspicuous;
2. All visual disclosures must be parallel to the base of
the advertisement or screen;
3. Program-length television, radio, or Internet-hosted
multimedia advertisement disclosures shall be made at the
beginning, near the middle, and at the end of the advertisement; and
4. If the locator address AnnualCreditReport.com or
toll-free telephone number (877) 322-8228 authorized under
federal law changes in the future, the new address or telephone number shall be substituted in the disclosures required by this Section within a reasonable time.
B. Medium-specific disclosures: All offers of Free Credit Reports shall include the disclosures required by this
Section: 1. Television advertisements: All advertisements
for Free Credit Reports broadcast on television shall include the following disclosure in Close Proximity to the
first mention of a free credit report: “This is not the free
credit report provided for by Federal law.” The visual dis-

123a
closure shall be at least four percent of the vertical picture
height and appear for a minimum of four seconds.
2. Radio advertisements: All advertisements for Free
Credit Reports broadcast on radio shall include the following disclosure in Close Proximity to the first mention of a
free credit report: “This is not the free credit report provided for by Federal law.”
3. Print advertisements: All advertisements for Free
Credit Reports in print shall include the following disclosure in the form specified below and in Close Proximity to
the first mention of a free credit report. The first line of the
disclosure shall be centered and contain only the following
language: “THIS NOTICE IS REQUIRED BY LAW.”
Immediately below the first line of the disclosure the following language shall appear: “You have the right to a free
credit report from AnnualCreditReport.com or (877) 3228228, the ONLY authorized source under Federal law.”
Each letter of the disclosure text shall be, at minimum,
one-half the size of the largest character used in the advertisement.
4. Websites: Any website offering Free Credit Reports
must display the disclosure set forth in Subsections B.4.a,
B.4.b, and B.4.e of this Section on each page that mentions
a free credit report and on each page of the ordering process. This disclosure shall be visible across the top of each
page where the disclosure is required to appear; shall
appear inside a box; and shall appear in the form specified
below:
a. The first element of the disclosure shall be a header
that is centered and shall consist of the following text:
“THIS NOTICE IS REQUIRED BY LAW. Read more at
consumerfinance.gov/learnmore.” Each letter of the header shall be one-half the size of the largest character of the

124a
disclosure text required by Subsection B.4.b of this Section. The reference to consumerfinance.gov/learnmore
shall be an operational hyperlink, underlined, and in a color
that is a high degree of contrast from the color of the other
disclosure text and background color of the box.
b. The second element of the disclosure shall appear below the header required by Subsection B.4.a of this Section
and shall consist of the following text: “You have the right
to a free credit report from AnnualCreditReport.com or
(877) 322–8228, the ONLY authorized source under Federal
law.” The reference to AnnualCreditReport.com shall be an
operational hyperlink to the centralized source, underlined,
and in the same color as the hyperlink to consumerfinance.gov/learnmore required in Subsection B.4.a of this Section;
c. The color of the text required by Subsections B.4.a
and B.4.b of this Section shall be in a high degree of contrast with the background color of the box;
d. The background of the box shall be a solid color in a
high degree of contrast from the background of the page
and the color shall not appear elsewhere on the page;
e. The third element of the disclosure shall appear below the text required by Subsection B.4.b of this Section
and shall be an operational hyperlink to AnnualCreditReport.com that appears as a centered button containing
the following language: “Take me to the authorized
source.” The background of this button shall be the same
color as the hyperlinks required by Subsections B.4.a and
B.4.b of this Section and the text shall be in a high degree
of contrast to the background of the button;
f. Each character of the text required in Subsections
B.4.b and B.4.e of this Section shall be, at minimum, the
same size as the largest character on the page, including
characters in an image or graphic banner;

125a
g. Each character of the disclosure shall be displayed as
plain text and in a sans serif font, such as Arial; and
h. The space between each element of the disclosure
required in Subsections B.4.a, B.4.b, and B.4.e of this Section shall be, at minimum, the same size as the largest
character on the page, including characters in an image or
graphic banner. The space between the boundaries of the
box and the text or button required in Subsections B.4.a,
B.4.b, and B.4.e of this Section shall be, at minimum, twice
the size of the vertical height of the largest character on
the page, including characters in an image or graphic banner.
5. Mobile Applications: Any Mobile Application offering
Free Credit Reports must comply with the requirements
set forth in Subsection B.6 of this Section.
6. Internet-hosted multimedia advertising: All advertisements for Free Credit Reports disseminated through
Internet-hosted multimedia in both audio and visual formats shall include the following disclosure in the form
specified below and in Close Proximity to the first mention
of a free credit report. The first line of the disclosure shall
be centered and contain only the following language:
“THIS NOTICE IS REQUIRED BY LAW.” Immediately
below the first line of the disclosure the following language
shall appear: “You have the right to a free credit report
from AnnualCreditReport.com or (877) 322–8228, the
ONLY authorized source under Federal law.” If the advertisement contains characters, the visual disclosure shall be,
at minimum, the same size as the largest character on the
advertisement.
7. Telephone requests: When consumers call any telephone number, other than the number of the centralized
source, appearing in an advertisement that represents

126a
Free Credit Reports are available at the number, consumers must receive the following audio disclosure at the first
mention of a free credit report: “The following notice is
required by law. You have the right to a free credit report
from AnnualCreditReport.com or (877) 322–8228, the only
authorized source under Federal law.”
8. Telemarketing solicitations: When telemarketing
sales calls are made that include offers of Free Credit
Reports, the call must include at the first mention of a free
credit report the following disclosure: “The following notice is required by law. You have the right to a free credit
report from AnnualCreditReport.com or (877) 322–8228,
the only authorized source under Federal law.”
IX. MONETARY JUDGMENT

IT IS FURTHER ORDERED that:
A. Judgment in the amount of Five Million, Two Hundred Sixty Thousand, Six Hundred Seventy-One and Thirty-Six Cents ($5,260,671.36) is entered in favor of the
Commission against Defendants, jointly and severally, as
equitable monetary relief.
B. Defendants are ordered to pay to the Commission
Five Million, Two Hundred Sixty Thousand, Six Hundred
Seventy-One and Thirty-Six Cents ($5,260,671.36). Such
payment must be made within 7 days of entry of this Order
by electronic funds transfer in accordance with instructions
provided by a representative of the Commission.
C. Within 7 days of entry of this Order: 1. Defendant
Michael Brown is ordered to pay to the Commission all
funds in the Bank of America, N.A. account ending “2356”
held by Michael Brown;
2. Defendant Michael Brown is ordered to pay to the
Commission all funds in the FirstBank Puerto Rico account
ending “9599” held by Michael Brown; and

127a
3. Defendant Michael Brown is ordered to liquidate and
pay to the Commission the entire balance of Michael
Brown’s Merrill Lynch SEP IRA account ending “6422,”
less any fees owed to Merrill Lynch on that account or any
amount Merrill Lynch is legally required to withhold.
To effect such payments, the Court directs that the entities holding the funds shall, immediately upon receiving
notice of this Order, remit the funds to the Commission by
electronic funds transfer or otherwise in accordance with
directions provided by a representative of the Commission.
D. All money paid to the Commission pursuant to this
Order may be deposited into a fund administered by the
Commission or its designee to be used for equitable relief,
including consumer redress and any attendant expenses
for the administration of any redress fund. If a representative of the Commission decides that direct redress to consumers is wholly or partially impracticable or money remains after redress is completed, with the Court’s prior
approval, the Commission may apply any remaining money
for such other equitable relief (including consumer information remedies) as it determines to be reasonably related
to Defendants’ practices alleged in the Complaint. Any
money not used for such equitable relief is to be deposited
to the U.S. Treasury as disgorgement. Defendants have no
right to challenge any actions the Commission or its representatives may take pursuant to this Subsection.
X. PROHIBITION ON COLLECTING ON ACCOUNTS

IT IS FURTHER ORDERED that Defendants, their
officers, agents, employees, and attorneys, and all other
persons in active concert or participation with any of them,
who receive actual notice of this Order, whether acting
directly or indirectly, are permanently restrained and
enjoined from Charging or attempting to Charge consum-

128a
ers for any Credit Monitoring Services marketed or sold
prior to entry of this Order, and from selling, assigning, or
otherwise transferring any right to Charge for any Credit
Monitoring Services marketed or sold prior to entry of this
Order.
XI. CUSTOMER INFORMATION

IT IS FURTHER ORDERED that Defendants, their
officers, agents, employees, and attorneys, and all other
persons in active concert or participation with any of them,
who receive actual notice of this Order, are permanently
restrained and enjoined from directly or indirectly:
A. Failing to provide sufficient customer information to
enable the Commission to efficiently administer consumer
redress. Defendants represent that they have provided this
redress information to the Commission. If a representative
of the Commission requests in writing any information
related to redress, Defendants must provide it, in the form
prescribed by the Commission, within 14 days.
B. Disclosing, using, or benefitting from customer information, including the name, address, telephone number,
email address, social security number, other identifying
information, or any data that enables access to a customer’s account (including a credit card, bank account, or other
financial account), that any Defendant obtained prior to
entry of this Order in connection with the advertising,
marketing, promoting, offering for sale, or sale of Credit
Monitoring Services; and
C. Failing to destroy such customer information in all
forms in their possession, custody, or control within 30 days
after receipt of written direction to do so from a representative of the Commission.
Provided, however, that customer information need not
be disposed of, and may be disclosed, to the extent re-

129a
quested by a government agency or required by law, regulation, or court order.
XII. COMPLETION OF RECEIVERSHIP

IT IS FURTHER ORDERED that the appointment of
the Receiver pursuant to the Preliminary Injunction is
hereby continued in full force and effect as modified by this
Section.
A. The Receiver is directed and authorized to accomplish the following within 90 days after entry of this Order,
but any party or the Receiver may request that the Court
extend the Receiver’s term for good cause:
1. Take any and all steps that the Receiver concludes
are appropriate to wind down the affairs of the Receivership Defendant;
2. Complete the process of taking custody, control and
possession of all assets of the Receivership Defendant,
including without limitation any funds in bank accounts or
payment processing reserve accounts;
3. Complete, as necessary, the liquidation of all assets of
the Receivership Defendant;
4. Prepare and submit a report describing the Receiver’s activities pursuant to this Order, and a final application
for compensation and expenses; and
5. Distribute to the Commission all remaining liquid assets at the conclusion of the Receiver’s duties, in partial
satisfaction of the monetary judgment set forth in this
Order.
B. Upon completion of the above tasks, the duties of the
Receiver shall terminate, and the Receiver shall be discharged.
XIII. ORDER ACKNOWLEDGEMENTS

IT IS FURTHER ORDERED that Defendants obtain
acknowledgments of receipt of this Order:

130a
A. Each Defendant, within 7 days of entry of this Order,
must submit to the Commission an acknowledgment of
receipt of this Order sworn under penalty of perjury.
B. For 5 years after entry of this Order, Individual Defendant for any business that such Defendant, individually
or collectively with any other Defendant, is the majority
owner or controls directly or indirectly, and Corporate
Defendant, must deliver a copy of this Order to: (1) all
principals, officers, directors, and LLC managers and
members; (2) all employees having managerial responsibilities for conduct related to the subject matter of the Order,
and all agents and representatives who participate in conduct related to the subject matter of the Order; and (3) any
business entity resulting from any change in structure as
set forth in the Section titled Compliance Reporting. Delivery must occur within 7 days of entry of this Order for
current personnel. For all others, delivery must occur
before they assume their responsibilities.
C. From each individual or entity to which a Defendant
delivered a copy of this Order, that Defendant must obtain,
within 30 days, a signed and dated acknowledgment of
receipt of this Order.
XIV. COMPLIANCE REPORTING

IT IS FURTHER ORDERED that Defendants make
timely submissions to the Commission:
A. One year after entry of this Order, each Defendant
must submit a compliance report, sworn under penalty of
perjury. 1. Each Defendant must: (a) identify the primary
physical, postal, and email address and telephone number,
as designated points of contact, which representatives of
the Commission may use to communicate with Defendant;
(b) identify all of that Defendant’s businesses by all of their
names, telephone numbers, and physical, postal, email, and

131a
Internet addresses; (c) describe the activities of each business, including the goods and services offered, the means
of advertising, marketing, and sales, and the involvement
of any other Defendant (which Individual Defendant must
describe if he knows or should know due to his own involvement); (d) describe in detail whether and how that
Defendant is in compliance with each Section of this Order;
and (e) provide a copy of each Order Acknowledgment
obtained pursuant to this Order, unless previously submitted to the Commission.
2. Additionally, Individual Defendant must: (a) identify
all telephone numbers and all physical, postal, email and
Internet addresses, including all residences; (b) identify all
business activities, including any business for which Individual Defendant performs services whether as an employee or otherwise and any entity in which Individual Defendant has any ownership interest; and (c) describe in detail
Individual Defendant’s involvement in each such business,
including title, role, responsibilities, participation, authority, control, and any ownership;
B. For 20 years after entry of this Order, each Defendant must submit a compliance notice, sworn under penalty
of perjury, within 14 days of any change in the following: 1.
Each Defendant must report any change in: (a) any designated point of contact; or (b) the structure of Corporate
Defendant or any entity that Defendant has any ownership
interest in or controls directly or indirectly that may affect
compliance obligations arising under this Order, including:
creation, merger, sale, or dissolution of the entity or any
subsidiary, parent, or affiliate that engages in any acts or
practices subject to this Order.
2. Additionally, Individual Defendant must report any
change in: (a) name, including aliases or fictitious name, or

132a
residence address; or (b) title or role in any business activity, including any business for which Individual Defendant
performs services whether as an employee or otherwise
and any entity in which Individual Defendant has any
ownership interest, and identify the name, physical address, and any Internet address of the business or entity.
C. Each Defendant must submit to the Commission notice of the filing of any bankruptcy petition, insolvency
proceeding, or similar proceeding by or against such Defendant within 14 days of its filing.
D. Any submission to the Commission required by this
Order to be sworn under penalty of perjury must be true
and accurate and comply with 28 U.S.C. § 1746, such as by
concluding: “I declare under penalty of perjury under the
laws of the United States of America that the foregoing is
true and correct. Executed on: ” and supplying the date,
signatory’s full name, title (if applicable), and signature.
E. Unless otherwise directed by a Commission representative in writing, all submissions to the Commission
pursuant to this Order must be emailed to DEbrief@ftc.gov or sent by overnight courier (not the U.S.
Postal Service) to: Associate Director for Enforcement,
Bureau of Consumer Protection, Federal Trade Commission, 600 Pennsylvania Avenue NW, Washington, DC 20580.
The subject line must begin: FTC v. Credit Bureau Center,
LLC, et al., FTC Matter No. X170014.
XV. RECORDKEEPING

IT IS FURTHER ORDERED that Defendants must
create certain records for 20 years after entry of the Order,
and retain each such record for 5 years. Specifically, Corporate Defendant and Individual Defendant for any business that Individual Defendant, individually or collectively
with any other Defendant, is a majority owner or controls

133a
directly or indirectly, must create and retain the following
records:
A. Accounting records showing the revenues from all
goods or services sold;
B. Personnel records showing, for each person providing services, whether as an employee or otherwise, that
person’s: name; addresses; telephone numbers; job title or
position; dates of service; and (if applicable) the reason for
termination;
C. Records relating to Affiliates or Affiliate Networks,
including all names, addresses, and telephone numbers;
dollar amounts paid or received; and information used in
calculating such payments;
D. Records of all consumer complaints and refund requests, whether received directly or indirectly, such as
through a third party, and any response;
E. All records necessary to demonstrate full compliance
with each provision of this Order, including all submissions
to the Commission;
F. Copies of all marketing materials, documents, and information received pursuant to Subsection III.C of this Order; and all written approvals or denials of marketing materials made pursuant to Subsection III.D of this Order; and
G. A copy of each unique advertisement or other marketing material.
XVI. COMPLIANCE MONITORING

IT IS FURTHER ORDERED that, for the purpose of
monitoring Defendants’ compliance with this Order, including any failure to transfer any assets as required by this
Order:
A. Within 14 days of receipt of a written request from a
representative of the Commission, each Defendant must:
submit additional compliance reports or other requested

134a
information, which must be sworn under penalty of perjury; appear for depositions; and produce documents for
inspection and copying. The Commission is also authorized
to obtain discovery, without further leave of court, using
any of the procedures prescribed by Federal Rules of Civil
Procedure 29, 30 (including telephonic depositions), 31, 33,
34, 36, 45, and 69.
B. For matters concerning this Order, the Commission
is authorized to communicate directly with each Defendant.
Defendant must permit representatives of the Commission
to interview any employee or other person affiliated with
any Defendant who has agreed to such an interview. The
person interviewed may have counsel present.
C. The Commission may use all other lawful means, including posing, through its representatives as consumers,
suppliers, or other individuals or entities, to Defendants or
any individual or entity affiliated with Defendants, without
the necessity of identification or prior notice. Nothing in
this Order limits the Commission’s lawful use of compulsory process, pursuant to Sections 9 and 20 of the FTC Act,
15 U.S.C. §§ 49, 57b-1.
D. Upon written request from a representative of the
Commission, any consumer reporting agency must furnish
consumer reports concerning Individual Defendant, pursuant to Section 604(1) of the Fair Credit Reporting Act, 15
U.S.C. § 1681b(a)(1).
XVII. RETENTION OF JURISDICTION

IT IS FURTHER ORDERED that this Court retains
jurisdiction of this matter for purposes of construction,
modification, and enforcement of this Order.
SO ORDERED this 26th day of June, 2018.
Honorable Matthew F. Kennelly
United States District Judge

RELEVANT STATUTORY PROVISIONS
Section 5 of the Federal Trade Commission Act, 15
U.S.C. 45, provides, in relevant part:
§ 45. Unfair methods of competition unlawful; prevention by Commission
(a) Declaration of unlawfulness; power to prohibit unfair practices; inapplicability to foreign trade
(1) Unfair methods of competition in or affecting commerce, and unfair or deceptive acts or practices in or affecting commerce, are hereby declared unlawful.
(2) The Commission is hereby empowered and directed
to prevent persons, partnerships, or corporations, except
banks, savings and loan institutions described in section
57a(f)(3) of this title, Federal credit unions described in
section 57a(f)(4) of this title, common carriers subject to
the Acts to regulate commerce, air carriers and foreign air
carriers subject to part A of subtitle VII of Title 49, and
persons, partnerships, or corporations insofar as they are
subject to the Packers and Stockyards Act, 1921, as
amended, except as provided in section 406(b) of said Act,
from using unfair methods of competition in or affecting
commerce and unfair or deceptive acts or practices in or
affecting commerce.
(3) This subsection shall not apply to unfair methods of
competition involving commerce with foreign nations
(other than import commerce) unless-(A) such methods of competition have a direct,
substantial, and reasonably foreseeable effect-(i) on commerce which is not commerce with
foreign nations, or on import commerce with foreign
nations; or

135a

136a
(ii) on export commerce with foreign nations, of a
person engaged in such commerce in the United
States; and
(B) such effect gives rise to a claim under the provisions of this subsection, other than this paragraph.
If this subsection applies to such methods of competition
only because of the operation of subparagraph (A)(ii), this
subsection shall apply to such conduct only for injury to
export business in the United States.
(4)(A) For purposes of subsection (a), the term “unfair
or deceptive acts or practices” includes such acts or practices involving foreign commerce that-(i) cause or are likely to cause reasonably foreseeable
injury within the United States; or
(ii) involve material conduct occurring within the
United States.
(B) All remedies available to the Commission with respect to unfair and deceptive acts or practices shall be
available for acts and practices described in this paragraph, including restitution to domestic or foreign victims.
(b) Proceeding by Commission; modifying and setting
aside orders
Whenever the Commission shall have reason to believe
that any such person, partnership, or corporation has been
or is using any unfair method of competition or unfair or
deceptive act or practice in or affecting commerce, and if it
shall appear to the Commission that a proceeding by it in
respect thereof would be to the interest of the public, it
shall issue and serve upon such person, partnership, or
corporation a complaint stating its charges in that respect
and containing a notice of a hearing upon a day and at a
place therein fixed at least thirty days after the service of
said complaint. The person, partnership, or corporation so

137a
complained of shall have the right to appear at the place
and time so fixed and show cause why an order should not
be entered by the Commission requiring such person,
partnership, or corporation to cease and desist from the
violation of the law so charged in said complaint. Any person, partnership, or corporation may make application, and
upon good cause shown may be allowed by the Commission
to intervene and appear in said proceeding by counsel or in
person. The testimony in any such proceeding shall be
reduced to writing and filed in the office of the Commission. If upon such hearing the Commission shall be of the
opinion that the method of competition or the act or practice in question is prohibited by this subchapter, it shall
make a report in writing in which it shall state its findings
as to the facts and shall issue and cause to be served on
such person, partnership, or corporation an order requiring such person, partnership, or corporation to cease and
desist from using such method of competition or such act
or practice. Until the expiration of the time allowed for
filing a petition for review, if no such petition has been duly
filed within such time, or, if a petition for review has been
filed within such time then until the record in the proceeding has been filed in a court of appeals of the United States,
as hereinafter provided, the Commission may at any time,
upon such notice and in such manner as it shall deem proper, modify or set aside, in whole or in part, any report or
any order made or issued by it under this section. After the
expiration of the time allowed for filing a petition for review, if no such petition has been duly filed within such
time, the Commission may at any time, after notice and
opportunity for hearing, reopen and alter, modify, or set
aside, in whole or in part any report or order made or
issued by it under this section, whenever in the opinion of

138a
the Commission conditions of fact or of law have so
changed as to require such action or if the public interest
shall so require, except that (1) the said person, partnership, or corporation may, within sixty days after service
upon him or it of said report or order entered after such a
reopening, obtain a review thereof in the appropriate court
of appeals of the United States, in the manner provided in
subsection (c) of this section; and (2) in the case of an order,
the Commission shall reopen any such order to consider
whether such order (including any affirmative relief provision contained in such order) should be altered, modified,
or set aside, in whole or in part, if the person, partnership,
or corporation involved files a request with the Commission which makes a satisfactory showing that changed
conditions of law or fact require such order to be altered,
modified, or set aside, in whole or in part. The Commission
shall determine whether to alter, modify, or set aside any
order of the Commission in response to a request made by
a person, partnership, or corporation under paragraph 1
(2) not later than 120 days after the date of the filing of
such request.
* * *
(l) Penalty for violation of order; injunctions and other
appropriate equitable relief
Any person, partnership, or corporation who violates an
order of the Commission after it has become final, and
while such order is in effect, shall forfeit and pay to the
United States a civil penalty of not more than $10,000 for
each violation, which shall accrue to the United States and
may be recovered in a civil action brought by the Attorney
General of the United States. Each separate violation of
such an order shall be a separate offense, except that in a
case of a violation through continuing failure to obey or

139a
neglect to obey a final order of the Commission, each day
of continuance of such failure or neglect shall be deemed a
separate offense. In such actions, the United States district
courts are empowered to grant mandatory injunctions and
such other and further equitable relief as they deem appropriate in the enforcement of such final orders of the
Commission.
* * *
Section 13 of the Federal Trade Commission Act, 15
U.S.C. 53, provides, in relevant part:
§ 53 False advertisements; injunctions and restraining
orders
* * *
(b) Temporary restraining orders; preliminary injunctions
Whenever the Commission has reason to believe-(1) that any person, partnership, or corporation is violating, or is about to violate, any provision of law enforced by the Federal Trade Commission, and
(2) that the enjoining thereof pending the issuance of
a complaint by the Commission and until such complaint is dismissed by the Commission or set aside by
the court on review, or until the order of the Commission made thereon has become final, would be in the interest of the public-the Commission by any of its attorneys designated by it for
such purpose may bring suit in a district court of the United States to enjoin any such act or practice. Upon a proper
showing that, weighing the equities and considering the
Commission's likelihood of ultimate success, such action
would be in the public interest, and after notice to the

140a
defendant, a temporary restraining order or a preliminary
injunction may be granted without bond: Provided, however, That if a complaint is not filed within such period (not
exceeding 20 days) as may be specified by the court after
issuance of the temporary restraining order or preliminary
injunction, the order or injunction shall be dissolved by the
court and be of no further force and effect: Provided further, That in proper cases the Commission may seek, and
after proper proof, the court may issue, a permanent injunction. Any suit may be brought where such person,
partnership, or corporation resides or transacts business,
or wherever venue is proper under section 1391 of Title 28.
In addition, the court may, if the court determines that the
interests of justice require that any other person, partnership, or corporation should be a party in such suit, cause
such other person, partnership, or corporation to be added
as a party without regard to whether venue is otherwise
proper in the district in which the suit is brought. In any
suit under this section, process may be served on any person, partnership, or corporation wherever it may be found.
* * *

141a
Section 19 of the Federal Trade Commission Act, 15
U.S.C. 57b, provides, in relevant part:
§57b. Civil actions for violations of rules and cease and
desist orders respecting unfair or deceptive acts or
practices
(a) Suits by Commission against persons, partnerships,
or corporations; jurisdiction; relief for dishonest or
fraudulent acts
(1) If any person, partnership, or corporation violates
any rule under this subchapter respecting unfair or deceptive acts or practices (other than an interpretive rule, or a
rule violation of which the Commission has provided is not
an unfair or deceptive act or practice in violation of section
45(a) of this title), then the Commission may commence a
civil action against such person, partnership, or corporation
for relief under subsection (b) of this section in a United
States district court or in any court of competent jurisdiction of a State.
(2) If any person, partnership, or corporation engages
in any unfair or deceptive act or practice (within the meaning of section 45(a)(1) of this title) with respect to which the
Commission has issued a final cease and desist order which
is applicable to such person, partnership, or corporation,
then the Commission may commence a civil action against
such person, partnership, or corporation in a United States
district court or in any court of competent jurisdiction of a
State. If the Commission satisfies the court that the act or
practice to which the cease and desist order relates is one
which a reasonable man would have known under the circumstances was dishonest or fraudulent, the court may
grant relief under subsection (b) of this section.

142a
(b) Nature of relief available
The court in an action under subsection (a) of this section shall have jurisdiction to grant such relief as the court
finds necessary to redress injury to consumers or other
persons, partnerships, and corporations resulting from the
rule violation or the unfair or deceptive act or practice, as
the case may be. Such relief may include, but shall not be
limited to, rescission or reformation of contracts, the refund of money or return of property, the payment of damages, and public notification respecting the rule violation or
the unfair or deceptive act or practice, as the case may be;
except that nothing in this subsection is intended to authorize the imposition of any exemplary or punitive damages.
(c) Conclusiveness of findings of Commission in cease
and desist proceedings; notice of judicial proceedings
to injured persons, etc.
(1) If (A) a cease and desist order issued under section
45(b) of this title has become final under section 45(g) of
this title with respect to any person’s, partnership’s, or
corporation’s rule violation or unfair or deceptive act or
practice, and (B) an action under this section is brought
with respect to such person’s partnership’s, or corporation’s rule violation or act or practice, then the findings of
the Commission as to the material facts in the proceeding
under section 45(b) of this title with respect to such person’s, partnership’s, or corporation’s rule violation or act or
practice, shall be conclusive unless (i) the terms of such
cease and desist order expressly provide that the Commission’s findings shall not be conclusive, or (ii) the order
became final by reason of section 45(g)(1) of this title, in
which case such finding shall be conclusive if supported by
evidence.

143a
(2) The court shall cause notice of an action under this
section to be given in a manner which is reasonably calculated, under all of the circumstances, to apprise the persons, partnerships, and corporations allegedly injured by
the defendant’s rule violation or act or practice of the pendency of such action. Such notice may, in the discretion of
the court, be given by publication.
(d) Time for bringing of actions
No action may be brought by the Commission under
this section more than 3 years after the rule violation to
which an action under subsection (a)(1) of this section relates, or the unfair or deceptive act or practice to which an
action under subsection (a)(2) of this section relates; except
that if a cease and desist order with respect to any person’s, partnership’s, or corporation’s rule violation or unfair or deceptive act or practice has become final and such
order was issued in a proceeding under section 45(b) of this
title which was commenced not later than 3 years after the
rule violation or act or practice occurred, a civil action may
be commenced under this section against such person,
partnership, or corporation at any time before the expiration of one year after such order becomes final.
(e) Availability of additional Federal or State remedies;
other authority of Commission unaffected
Remedies provided in this section are in addition to,
and not in lieu of, any other remedy or right of action provided by State or Federal law. Nothing in this section shall
be construed to affect any authority of the Commission
under any other provision of law.

